<html>
<title> - BALANCING SECURITY AND COMMERCE</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                    BALANCING SECURITY AND COMMERCE

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON INFRASTRUCTURE
                          AND BORDER SECURITY

                                 of the

                 SELECT COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 16, 2003

                               __________

                           Serial No. 108-10

                               __________

    Printed for the use of the Select Committee on Homeland Security


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
97-926                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012005


                 SELECT COMMITTEE ON HOMELAND SECURITY



                 CHRISTOPHER COX, California, Chairman

JENNIFER DUNN, Washington            JIM TURNER, Texas, Ranking Member
C.W. BILL YOUNG, Florida             BENNIE G. THOMPSON, Mississippi
DON YOUNG, Alaska                    LORETTA SANCHEZ, California
F. JAMES SENSENBRENNER, JR.,         EDWARD J. MARKEY, Massachusetts
Wisconsin                            NORMAN D. DICKS, Washington
W.J. (BILLY) TAUZIN, Louisiana       BARNEY FRANK, Massachusetts
DAVID DREIER, California             JANE HARMAN, California
DUNCAN HUNTER, California            BENJAMIN L. CARDIN, Maryland
HAROLD ROGERS, Kentucky              LOUISE McINTOSH SLAUGHTER,
SHERWOOD BOEHLERT, New York              New York
LAMAR S. SMITH, Texas                PETER A. DeFAZIO, Oregon
CURT WELDON, Pennsylvania            NITA M. LOWEY, New York
CHRISTOPHER SHAYS, Connecticut       ROBERT E. ANDREWS, New Jersey
PORTER J. GOSS, Florida              ELEANOR HOLMES NORTON,
DAVE CAMP, Michigan                      District of Columbia
LINCOLN DIAZ-BALART, Florida         ZOE LOFGREN, California
BOB GOODLATTE, Virginia              KAREN McCARTHY, Missouri
ERNEST J. ISTOOK, JR., Oklahoma      SHEILA JACKSON-LEE, Texas
PETER T. KING, New York              BILL PASCRELL, JR., New Jersey
JOHN LINDER, Georgia                 DONNA M. CHRISTENSEN,
JOHN B. SHADEGG, Arizona                 U.S. Virgin Islands
MARK E. SOUDER, Indiana              BOB ETHERIDGE, North Carolina
MAC THORNBERRY, Texas                CHARLES GONZALEZ, Texas
JIM GIBBONS, Nevada                  KEN LUCAS, Kentucky
KAY GRANGER, Texas                   JAMES R. LANGEVIN, Rhode Island
PETE SESSIONS, Texas                 KENDRICK B. MEEK, Florida
JOHN E. SWEENEY, New York

                      JOHN GANNON, Chief of Staff

         UTTAM DHILLON, Chief Counsel and Deputy Staff Director

                  STEVEN CASH Democrat Staff Director

                    MICHAEL S. TWINCHEK, Chief Clerk

                                 ______

           Subcommittee on Infrastructure and Border Security

                     DAVE CAMP, Michigan, Chairman

KAY GRANGER, Texas, Vice Chairwoman  LORETTA SANCHEZ, California
JENNIFER DUNN, Washington            EDWARD J. MARKEY, Massachusetts
DON YOUNG, Alaska                    NORMAN D. DICKS, Washington
DUNCAN HUNTER, California            BARNEY FRANK, Massachusetts
LAMAR SMITH, Texas                   BENJAMIN L. CARDIN, Maryland
LINCOLN DIAZ-BALART, Florida         LOUISE McINTOSH SLAUGHTER,
ROBERT W. GOODLATTE, Virginia            New York
ERNEST ISTOOK, Oklahoma              PETER A. DeFAZIO, Oregon
JOHN SHADEGG, Arizona                SHEILA JACKSON-LEE, Texas
MARK SOUDER, Indiana                 BILL PASCRELL, JR., New Jersey
JOHN SWEENEY, New York               CHARLES GONZALEZ, Texas
CHRISTOPHER COX, California, ex      JIM TURNER, Texas, ex officio
officio


                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Dave Camp, and a Representative in Congress From 
  the State of Michigan, and Chairman, Subcommittee on 
  Infrastructure and Border Security.............................     1
The Honorable Christopher Cox, a Representative in Congress from 
  the State of California, and Chairman, Select Committee on the 
  Homeland Security..............................................    24
The Honorable Lincoln Diaz-Balart, a Representative in Congress 
  From the State of Florida......................................    18
The Honorable Sheila Jackson-Lee, a Representative in Congress 
  From the State of Texas
  Prepared Statement.............................................     5
The Honorable Edward J. Markey, a Representative in Congress From 
  the State of Massachusetts.....................................     4
The Honorable Bill Pascrell, Jr., a Representative in Congress 
  From the State of New Jersey...................................    31
The Honorable Loretta Sanchez, a Representative in Congress From 
  the State of California........................................     3
The Honorable John B. Shadegg, a Representative in Congress From 
  the State of Arizona...........................................    38
The Honorable Louise McIntosh Slaughter, a Representative in 
  Congress From the State of New York............................    27
The Honorable Lamar S. Smith, a Representative in Congress From 
  the State of Texas.............................................    20
The Honorable John Sweeney, a Representative in Congress From the 
  State of New York..............................................    35
The Honorable Jim Turner, a Representative in Congress From the 
  State of Texas.................................................    19

                               WITNESSES

Mr. Robert C. Bonner, Commissioner of the Bureau of Custms and 
  Border Protection, Department of Homeland Security
  Oral Statement.................................................     7
  Prepared Statement.............................................     9
Mr. Richard M. Stana, Director of Homeland Security and Justice, 
  United States General Accounting Office
  Oral Statement.................................................    41
  Prepared Statement.............................................    43

                                APPENDIX
                 QUESTIONS AND RESPONSES FOR THE RECORD

Follow-up Questions for the Record from Chairman David Camp......    62

 
                    BALANCING SECURITY AND COMMERCE

                              ----------                              


                         Monday, June 16, 2003

             U.S. House of Representatives,
                     Subcommittee on Infrastructure
                               and Border Security,
                     Select Committee on Homeland Security,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 3 p.m., in Room 
345, Cannon House Office Building, Hon. Dave Camp [chairman of 
the subcommittee] presiding.
    Present: Representatives Camp, Smith, Diaz-Balart, Shadegg, 
Sweeney, Cox (ex officio), Sanchez, Markey, Slaughter and 
Pascrell.
    Also Present: Representative Turner.
    Mr. Camp. Good afternoon, and I would like to welcome 
everyone and thank you for attending today's hearing. The 
Subcommittee on Infrastructure and Border Security will hear 
testimony from Robert Bonner, the Commissioner of the Bureau of 
Customs and Border Protection within the Department of Homeland 
Security, and Rich Stana, the Director of the Homeland Security 
and Justice Division at GAO.
    We had talked earlier about limiting opening statements, 
but I think what we will do is ust follow regular order under 
the committee's business, and I will begin with my opening 
statement.
    Again, I would like to thank the Commissioner for being 
here and his willingness to appear before us today. The Bureau 
of Customs and Border Patrol has existed for a little more than 
100 days in its current organizational structure. Without 
lapsing in its security mission, Customs and Border Patrol has 
brought together functions from three different agencies, 
Customs, INS and the Agriculture and Plant Health Inspection 
Service.
    Customs and Border Patrol is comprised of over 40,000 
employees, and its primary mission is to prevent terrorists and 
terrorist weapons from entering the United States. During the 
reorganization of the government to create the Department of 
Homeland Security, several nonsecurity missions were 
transferred into DHS. According to the mission statement, 
Customs and Border Patrol has responsibility for stopping 
illegal immigration, illegal drugs and other contraband from 
entering the United States; protecting agriculture from disease 
and foreign pests; regulating and facilitating international 
trade; collecting import duties; and enforcing U.S. trade laws. 
That is a tall order, and each component is essential.
    Commissioner Bonner, we have invited you here to today to 
address one aspect of your mission, how to balance security 
enhancements with the flow of people and commerce across our 
borders. The global trading system is increasingly reliant on 
the swift delivery of goods produced overseas. America's 
economic stability requires that goods and people cross through 
our borders and in and out of the country regularly without 
long delays. Our security also requires that we know who and 
what is entering.
    September 11 and immediately following, it was not uncommon 
to have 8- to 10-hour delays on the border. Economic effects of 
these delays were staggering. In my home State of Michigan the 
port of entry between Detroit and Windsor, Canada, the busiest 
land crossing in the United States, had delays over 10 hours. 
Manufacturers in Detroit depend on just-in-time deliveries for 
production lines, and any delay means a loss of revenue and 
jobs. The situation is greatly improved at most points of entry 
around the Nation with the implementation and expansion of 
FAST, NEXUS, SENTRI and C-TPAT programs. We can preclear our 
trusted travelers while focusing on unknown and high-risk 
people and goods.
    Key to targeted inspections is reliable intelligence 
information. With more than 11 million cargo trucks crossing 
land borders each year and many millions more passenger 
vehicles, how do you gather good information to target high-
risk vehicles? Debate abounds on how much cargo both at land 
and seaports can and should be searched. The private sector 
understands that in the new security climate additional 
reporting requirements will become standard obligations. An 
example is the 24-hour rule. Ninety percent of the world's 
cargo travels via containers, and approximately 6 million 
containers enter the U.S. each year. We can no longer accept 
cargo descriptions such as ``freight any kind'' or ``general 
freight.'' Ambiguity is unacceptable when addressing our 
security vulnerability.
    Our border inspectors need complete manifests prior to 
arrival to determine which cargo containers and passengers fall 
into the high-risk category; however, where we can, we must 
develop electronic filing systems and uniformity in 
requirements so that different government agencies are not 
demanding duplicate data reporting that unnecessarily burdens 
commerce.
    The goal of the ACE system, for example, is to promote the 
flow of legitimate commerce while improving security 
operations. I am interested in hearing more details about ACE, 
when it will be ready, what exactly it will do, and why it is 
better than the current system.
    I am also interested in hearing your thoughts on the most 
appropriate methods for cargo screening pursuant to 
requirements in the Trade Act of 2002 for land, air, and rail 
transportation. Congress mandated the advanced manifests, and I 
know that Customs and Border Patrol is developing programs and 
policies for implementation. It is the status of the manifest 
requirements as well as screening for potential terrorist 
weapons especially in air and rail cargo. We have heard a lot 
from Customs and Border Patrol about pushing security outside 
our physical borders to foreign ports, using reverse inspection 
and screening U.S.-bound cargo at foreign ports. I look forward 
to hearing from both our panels on the status of these 
proposals, challenges and how they will improve security.
    Customs and Border Patrol has vast and important 
responsibility. Using Congress, private sector and groups such 
as GAO as a resource, I am confident the new Department and 
especially the Bureau of Customs and Border Patrol will provide 
top-of-the-line security and implement technology and human 
resources to maintain the flow of trade and travel through our 
Nation.
    Mr. Camp. At this time I yield to the Ranking Member, the 
gentlewoman from California, Ms. Sanchez.
    Ms. Sanchez. Thank you, Commissioner Bonner, for being with 
us today and taking the time to testify before this 
subcommittee. You have probably been reading the newspapers and 
seen all the information with respect to many of the aspects 
that you are supposed to handle now that you are Under 
Secretary.
    I am pleased that the subcommittee is meeting today and 
that we are going to hear firsthand what is happening with some 
of our ports of entry. Today's hearing topic, balancing 
security and commerce, gets at the heart of the challenge to 
this country and to the Department of Homeland Security, to the 
heart of what we are really facing. The Bureau of Customs and 
Border Protection and its 30,000 employees are charged with 
making sure that dangerous goods and people are denied access 
to this country, while at the same time guaranteeing that all 
legitimate cargo and visitors are welcome here, and it is a 
very daunting task to try to do.
    The Department's efforts to think outside of physical 
boundaries to become our last line of defense is an ambitious 
one, and I agree with you, it is an important one. I agree with 
your objectives, and I support your mission, and I look forward 
to trying to understand just how far you have gotten down the 
path of trying to do all that and, more importantly, how we 
here on this committee, as the extension of Congress that is 
really tasked with helping to make our country safer and 
Americans safer, not just perceived, but truly safe, has been 
an important issue for me the past--well, since 9/11 in 
particular, but even before then.
    I do have concerns, however, and I have voiced them before. 
I voiced them before to Secretary Ridge the last time he was in 
front of us, and it is how well this mission is proceeding at 
present, what resources we are allocating, what is really 
happening on the front line; not just what the programs are or 
what the vision is, but are we really meeting the tactical 
tests that we need to do in order to get to the point where I 
can go out and tell America, yes, you are safer since 9/11 
because we have had 30,000 employees in this particular arena 
trying to decide what should be in and what should be out of 
this country.
    Earlier this year I attended a strategic policy forum at 
the National Defense University with other Members of Congress 
and executive branch officials, military leaders, and we were 
presented with a series of strategic-level simulation exercises 
dealing with homeland security and port security. We saw how an 
attack could potentially hurt us not necessarily from a mental 
state, which terrorism really is, but an economic state, 
because the reality is when we make efforts as a country 
because of a terrorist attack or potential terrorist attack, we 
are also affecting the economic viability of our ports or our 
overland crossings.
    As a member of California, I saw that in particular at the 
10-day slowdown that we had at the Port of Long Beach and Los 
Angeles just this past few months where we lost over $1 billion 
a day in trade and economic activity because of that slowdown. 
And it wasn't just the Long Beach/Los Angeles or southern 
California area, it affected the entire United States. And any 
homeland security expert would agree that the highest security 
risk in our Nation are those targets that allow for the lowest 
risk of detection while dealing the most severe blow possible.
    Unfortunately, when I think about the ports--and I have 
visited those ports, and I have also gone up to Oakland, San 
Francisco. I am about to take a trip down to Houston to try to 
understand what is happening. Seaport managers have reported 
that they aren't getting enough intelligence to perform basic 
security functions. And the Container Security Initiative 
relies primarily on the manifest, the cargo manifest 
information. And we know historically, as my colleague here 
pointed out, that it is not necessarily filled out correctly. 
We are relying on other people's words about what is sitting 
there, and it is unreliable even in the commercial trade 
industry.
    The Customs-Trade Partnership Against Terrorism programs, 
designed to ensure supply-side security in exchange for 
expediting processing times, doesn't have enough manpower for 
compliance is what I am hearing at the different ports. And 
Customs and immigration inspectors at borders are still using 
numerous antiquated databases that still are not fully 
integrated.
    In short, I think there are a lot of holes, and right now I 
am speaking particularly to seaports, but there are a lot of 
problems in our overland crossings. California has one to the 
south. There is a real concern when we went up to the north 
border in Buffalo that somehow whatever we do up there will 
affect commerce also. So there is this balance of what do we 
have to do to ensure we know what is coming in and what is safe 
for our people. How do we know who is supposed to be here and 
who is not, and who is entering, and at the same time how do we 
still make it an easy, not expensive task of getting in the 
right goods and the right people?
    So I look forward to hearing from you. In particular my 
questions will focus on the operational standpoint, what is 
actually happening, what you have seen on the front line. And I 
hope that in doing that we can work together to ensure that 
this Congress puts forward the resources that are needed to get 
the job done.
    Thank you, Mr. Chairman.
    Mr. Camp. Does the gentleman from Florida wish to make an 
opening statement?
    Mr. Diaz-Balart. Thank you very much.
    Mr. Camp. I see that the Ranking Member of the full 
committee is here, Mr. Turner from Texas is here. Would you 
like to make an opening statement?
    Mr. Turner. I will reserve my time.
    Mr. Camp. And the gentleman from Massachusetts Mr. Markey, 
I yield 3 minutes for the purpose of an opening statement.
    Mr. Markey. Mr. Bonner, congratulations on the good job 
that was done in Thailand in seizing the cesium-137. That is 
very good work. We know that terrorists want to obtain 
materials from which they can make dirty bombs or homemade 
nuclear weapons. That was a big achievement. But I am 
interested in the procedures that Customs is using to ensure 
that cargo ships from overseas are not used by terrorists to 
carry out their deadly plans.
    I understand that Customs relies on a program called 
Customs-Trade Partnership Against Terrorism, which is a so-
called known shipper program. Now, the problem is that under 
this program shippers submit applications to Customs that 
describe how they are complying with the security guidelines 
and requirements established by Customs. If accepted, companies 
can count on expedited processing times for their cargo.
    This system has been criticized for a long time because it 
relies very much on paperwork and not on physical inspection. 
Here in the United States, cargo can be put on passenger planes 
right underneath the feet, on planes, of passengers who have 
gone through security, have had to take off their shoes and 
have their own bags screened, but cargo is put on underneath 
passengers on passenger planes without having been screened 
because of the known shipper program. Same doctrine.
    Here is what I can figure out between a known shipper and a 
known tripper, and that is all the people in America, the 50 or 
60 million who fly. Here is what happens to us. Known trippers, 
all our bags are screened; known shipper, no screening of 
cargo. Known tripper, bags are inspected; known shipper, no 
inspection of cargo. Known tripper, TSA screeners; known 
shipper, no screeners. Known tripper, complete background 
checks and ID. We have to pull out our wallets when we get to 
the airport. If you are a known shipper, no background checks 
or IDs. The known tripper, bags match to the owner or you can't 
get on the airplane; known shipper, theft is common at 
airports.
    The known shipper program is really the little known 
shipper program. The questions I am going to be focusing upon 
today is the extent to which Customs has in place a system that 
ensures that every single package coming into the United States 
is screened so that al Qaeda doesn't use roots from outside our 
country in order to commit the crimes to transfer the materials 
that can be used to create dirty nuclear bombs inside of the 
United States.
    Thank you, Mr. Chairman.
    [The information follows:]

       PREPARED STATEMENT OF THE HONORABLE SHEILA JACKSON-LEE, A 
           REPRESENTATIVE IN CONGRESS FROM THE STATE OF TEXAS

    Thank you, Mr. Chairman and Mr. Ranking Member for convening this 
hearingtoday to hear testimony on how we can best protect our borders 
and our intricate commerce system in the post-911 era. I welcome 
Commissioner Robert Bonner from the Bureau of Customs and Border 
Protection and look forward to hearing his testimony on how to 
``balance security and commerce.''
    As a member of the House Select Committee on Homeland Security and 
theDemocratic Caucus' Homeland Security Taskforce, I devote a 
significant amount of time and attention to hearing and addressing the 
concerns that my constituents have as to this matter. I look forward to 
utilizing the upcoming hearing to be held by the Select Committee and 
the Democratic Caucus as an opportunity to gauge the comfort level of 
our residential and business communities and their ability to perform 
their respective day to-day tasks in light of the ever-fluctuating 
terror threat level. While the lowering of the threat level to Code 
Yellow on May 30, 2003 from Code Orange is a small improvement, we must 
continue to recognize that the Code Yellow still represents a 
``heightened threat.'' Therefore, it is incumbent upon us, as leaders 
in the effort to maintain emergency preparedness, not to undervalue the 
experiences and testimony to which we will bear witness. Today, we 
strategize on how best to provide facilities and services necessary to 
achieve a level of security that will lower the anxiety that we all 
feel in connection with a Code Yellow threat level as well as encourage 
the free flow of commerce that is vital to our ability to finance these 
facilities.

        MAINTAINING SECURITY AND RESPECTING INDIVIDUAL LIBERTIES

    We in the United States have some of the longest undefended and 
undisputed borders in the world. However, we simply do not offer the 
most effective physical barriers to a potential determined terrorist 
attempt to infiltrate the United States from Canada or Mexico. To the 
north, the 5,500-mile U.S.-Canada border has few gates and no fences. 
While none of the September 11 hijackers entered via Canada, several 
unsuccessful plots to attack American targets have been planned by 
foreign terrorists operating out of Canada. Canadian intelligence 
officials estimate that some 50 known terrorist organizations have 
cells in Canada. But before September 11, U.S. border agencies were 
focused almost exclusively on stopping drugs and illegal migrants from 
crossing the Mexican border. Both the INS and the Customs Service had 
shifted staff from the Canadian border to the Mexican border, despite a 
90 percent increase in the volume of u.S.-Canada trade since 1990.
    To the southwest, the 2,000-mile U.S.-Mexico border has fewer gates 
and more fences, but remains largely open and unpatrolled. Through 
these gates, more than 398 million people, 128 million cars, and 11 
million trucks entered the United States last year.
    With respect to aviation security, the Federal Transportation 
Security Administration (TSA) has allocated the majority of its budget 
on aviation as compared to highways, rails, and pipelines. It channeled 
some $6 billion and much of its personnel into federalizing airport 
screeners by November 2002 and screening all bags with bomb detection 
machines by December 2002.
    Therefore, our government clearly must work to find the right 
formula for allocating its funding, personnel, and technology 
development plans so that we do not leave ourselves in a precarious 
situation despite the resources that we have. Just as importantly, in 
finding the right formula for mapping our homeland security plan, we 
must ensure that we adhere to the individual liberties principles set 
forth in the United States Constitution. An example of the ambiguities 
in our laws that create the potential for the violation of those 
liberties is 8 CFR Part 235 regarding entrance procedures. While 
Sec. 235.7 outlines general rules for screening individuals for 
acceptance into automated inspection service programs, subsection 
235.7(a)(4)(x) sets forth that no appeal lies for denial of acceptance 
into these programs. However difficult it is to implement tight 
security.

                FREE FLOW OF COMMERCE WITH WATCHFUL EVE

    Since the North American Free Trade Agreement (NAFTA) entered into 
force in 1994, the number of commercial vehicles crossing the U.S.-
Mexico border has increased by 41 percent, while two-way trade between 
the United States and Mexico has almost tripled. Cross-border trade now 
averages more than $650 million a day, two-thirds of it through ports 
of entry in Texas, and nearly 70 percent of truck traffic coming from 
Mexico into the United States enters through Texas. The current 
Administration proposed in this year's budget approximately $11 billion 
for border security, an increase of $2.2 billion from the 2002 budget. 
The U.S.-Mexico border in Texas covers some 1,951 miles and is the 
busiest in the world. Each year, the United States' southern border 
allows in more than 300 million people, approximately 90 million cars, 
and 4.3 million trucks, and upon entering NAFTA, the number of 
vehicular crossing of this border increased by 41 percent. Mexico, as 
our second-largest trading partner, shares the border as well as a 
wealth of unique history with the United States. The need for border 
infrastructure and border management systems that facilitate the 
continued integration of the North American economic region is vital. 
These systems should protect the citizens of both nations from 
terrorism, illegal drugs, and other dangers; facilitate and expedite 
legitimate cross-border travel and commerce; and allow our governments 
to determine who crosses the borders.
    With respect to the U.S.-Canadian border, we executed a joint 
declaration to create a ``Smart Border for the 21st Century.'' This 
Declaration contained 30 points that deal with ascertaining and 
addressing security risks and expediting the legitimate flow of people 
and goods back and forth at the border crossing between Sarnia, 
Ontario, and Port Huron, Michigan. Part of this joint effort includes 
the ``NEXUS'' program, which is a ``fast-lane'' system for verified 
low-risk travelers to additional land-border ports of entry along the 
northern border. The United States and Canada have joint teams of 
customs officials in the ports of Vancouver, Montreal, Halifax, 
Seattle-Tacoma, and Newark. Similarly, plans are being made for the 
implementation of a joint NEXUS-Air program for air travelers, which 
would be piloted at Ottawa and Dorval International Airports.
    As the foregoing illustrates, a significant amount of our revenue 
comes from trade at the Northern and Southern U.S. borders. Many of the 
federal mandates for the Transportation Security Administration related 
to trade have not yet been fully followed. We must complete the 
reconfiguration of our largest airport terminals to add space for 
baggage screening. Also, the Transportation Security Administration 
must cover the maritime security that the U.S. Coast Guard currently 
provides. Moreover, in the area of roadways, the TSA must relieve the 
federal, state, and local officials from their monitoring of major 
facilities.
    For example, until the TSA creates teams of personnel to work 
locally, the State Department of Public Safety must utilize regional 
operation centers that have limited funding. Relative to railways, 
while Amtrak received $100 million in federal defense funding in 2002, 
the allocation of this funding has been uneven, that is, a majority of 
he funds were allocated to the East Coast. In addition, individual 
railroad companies have had to inspect their rail lines for sabotage 
and inspect their internal systems against computer-based attacks at 
their own expense. As to pipelines, the individual operators are 
responsible for increased patrols of sensitive oil and gas pipelines 
when notified of a threat through an informal agreement with the U.S. 
Department of Transportation. Hence, many aspects of our transportation 
and infrastructure systems have privatized maintenance. In order to 
ensure the most thorough security measures as well as to keep our 
government abreast of the status of each system, we must allocate the 
proper funding, legislation, and enforcement mechanisms to ensure that 
no biological weapons or other hazardous materials enter our borders.
    Once again, I thank the Chairman and Ranking Members of this 
Subcommittee for convening this hearing, and I look forward to hearing 
the testimony of our witness.

    Mr. Camp. Thank you, Commissioner Bonner. You can summarize 
your testimony. You will have 5 minutes. We all have your 
written testimony that will be made part of the record. 
Welcome, and you may begin.

   STATEMENT OF MR. RICHARD BONNER, COMMISSIONER, BUREAU OF 
 CUSTOMS AND BORDER PROTECTION, DEPARTMENT OF HOMELAND SECURITY

    Mr. Bonner. Thank you, Chairman Camp, Ms. Sanchez and the 
other Members of the Committee. I am very pleased to appear 
before the Subcommittee to discuss the issue of increasing 
security at our Nation's borders, including our country's ports 
of entry, without choking off legitimate trade and legitimate 
travel.
    As this Committee knows, the Subcommittee knows, on March 1 
of this year, all of the immigration inspectors of the former 
INS, the agricultural border inspectors of the Department of 
Agriculture, the entire Border Patrol merged with United States 
Customs to form the Bureau of Customs and Border Protection. 
And by the way, Mr. Chairman, it is Customs and Border 
Protection, even though a big part of the new agency is the 
Border Patrol.
    But Customs and Border Protection then is an agency within 
the Border and Transportation Security Directorate of the 
Department of Homeland Security. Importantly, for the first 
time in our country's history, all agencies of the United 
States Government with significant border responsibilities have 
been unified into one agency, Customs and Border Protection. 
And as the lead border agency of the Federal Government, 
Customs and Border Protection is and will be, in my judgment, 
far more effective in securing our Nation's border than we were 
on February 28 when we were four separate agencies and three 
different Departments of government.
    And I have to say that the creation of Customs and Border 
Protection is the largest actual merger, if you will, of 
personnel that is taking place within the Department of 
Homeland Security. Approximately 40,000 employees, or over one-
fifth of the personnel, of the Department of Homeland Security 
are and will be in Customs and Border Protection. And this, by 
the way, I don't think is particularly surprising, given the 
importance of the security of our border to the security of our 
homeland.
    The priority mission of Customs and Border Protection is 
homeland security. That is the priority mission. And for an a 
border agency, that priority mission, then, is nothing less 
than preventing terrorists and terrorist weapons from entering 
the United States, plain and simple.
    Customs and Border Protection has all of the important 
traditional missions of its predecessor agencies, including 
apprehending individuals illegally entering the United States, 
interdicting illegal drugs and contraband, protecting our 
agricultural and economic interests from harmful diseases and 
pests, regulating and facilitating international trade, 
collecting import duties, and enforcing at the border all laws 
and regulations of the United States, be they Customs, trade, 
immigration or any other law of the United States at our 
Nation's borders. And because we must perform both our priority 
antiterrorism mission and our traditional missions to the 
maximum extent possible without stifling the flow of legitimate 
trade and travel, we have twin goals, and they are, one, 
increasing security; and, two, facilitating legitimate trade 
and travel. And these twin goals don't have to be mutually 
exclusive.
    As we develop ways to make our borders more secure against 
terrorism, we can also develop ways to expedite the flow of 
legitimate trade and travel. The question is how do you do 
this? You do this by building smarter borders, what Secretary 
Ridge has described as smarter border initiatives. One of the 
very important components of the smarter border involves 
pushing our borders out, and that is pushing our zone of 
security out beyond our physical borders so America's borders 
are the last line of defense, not the first line of defense, 
against terrorism, and that is a big part of our mission.
    The Container Security Initiative and the Customs-Trade 
Partnership Against Terrorism that Mr. Markey mentioned are two 
initiatives that do this; that is to say, push our border 
outward. Under the Container Security Initiative, or CSI, 
Custom and Border Protection is identifying high-risk cargo 
containers. In partnership with other governments, we are 
prescreening those containers with protection technology at 
foreign ports before those cargo containers are shipped to our 
ports. Customs and Border Protection officers are stationed at 
foreign CSI seaports, and we are using our advanced information 
and automated targeting system to identify and target high-risk 
containers at these foreign ports.
    CSI adds substantial security to the primary system of 
global trade, which is containerized shipping, to the United 
States and to U.S. seaports, but it does so without slowing 
down the flow of legitimate trade. That is because these 
containers that are screened at CSI ports would ordinarily not 
need to be screened again by Customs and Border Protection when 
they arrive at U.S. seaports.
    The goal of U.S. Customs and now Customs and Border 
Protection for the first phase of CSI, the Container Security 
Initiative, was to implement that at the top 20 ports in terms 
of volume of cargo containers shipped to the United States, 
because over two-thirds of the containers are shipped from just 
these top 20 ports. And to date let me just tell you, Mr. 
Chairman, that the governments representing 19 of these top 20 
ports have agreed to implement CSI, and CSI is already 
operational at 13 foreign seaports worldwide, and will become 
operational soon at other CSI ports.
    I want to wrap this up and I want to mention the Customs-
Trade Partnership Against Terrorism, and I want to stress this 
is not the Known Shipper Program. The Known Shipper Program is 
a TSA program, as I understand it, and I can't speak to that. 
But C-TPAT, or Customs-Trade Partnership Against Terrorism, is 
entering into agreements with now over 3,400 companies 
partnered with U.S. Customs and Border Protection to meet 
security standards for the terrorist supply chain from the 
foreign loading docks to the U.S. As part of that effort, we 
are validating--you are validating that these security 
standards are being met, but in exchange for meeting the 
security standards, yes, we will and are going to give 
expedited processing through our border entry points.
    Let me just conclude by saying, Mr. Chairman, the merger of 
all of the U.S. border agencies into one agency is a good 
government reform that will make us and is making us more 
effective in protecting our country by better protecting our 
borders. I thank you for this opportunity to testify, and I 
would be pleased to answer any questions that you or other 
Members of the Committee may have.
    Mr. Camp. Thank you very much for your testimony.
    [The statement of Mr. Bonner follows:]

               PREPARED STATEMENT OF MR. ROBERT C. BONNER

    Chairman Camp, Ranking Member Sanchez, Members of the Subcommittee, 
thank you for this opportunity to testify. I am pleased to appear 
before you today to discuss the strategy for securing our nation's 
ports of entry while ensuring a free flow of legitimate trade and 
travel.

I. Introduction
    As you know, on March 1, 2003, immigration inspectors of the former 
Immigration and Naturalization Service, agricultural border inspectors 
of the Animal and Plant Health Inspection Service, the Border Patrol, 
and the U.S. Customs Service merged to form the Bureau of Customs and 
Border and Protection (BCBP) within the Border and Transportation 
Security Directorate of the Department of Homeland Security. Now, for 
the first time in our country's history, all agencies of the United 
States government with significant border responsibilities have been 
brought under one roof. With our combined skills and resources, we will 
be far more effective than we were when we were separate agencies. For 
example, immediately after BCBP was established, we were able to ensure 
for the first time that all primary inspectors at our ports of entry 
were provided with radiation detection equipment. In addition, this 
unified chain of command, when coupled with Departmental emphasis on 
information sharing throughout the law enforcement and intelligence 
communities, will ensure that BCBP personnel have and share the 
information they will need to do their job. I was honored to be 
appointed by the President to serve as the Commissioner of U.S. Customs 
in September 2001, and now I have the great privilege of serving as the 
first Commissioner of Bureau of Customs and Border Protection.
    The priority mission of BCBP is the homeland security mission. That 
means BCBP's priority mission is to prevent terrorists and terrorist 
weapons from entering the United States--plain and simple. And we are 
doing everything we reasonably and responsibly can to carry out that 
extraordinarily important priority mission.
    BCBP also is continuing to perform the traditional missions of the 
predecessor agencies that make up BCBP. These missions include 
apprehending individuals attempting to enter the United States 
illegally; stemming the flow of illegal drugs and other contraband; 
protecting our agricultural and economic interests from harmful pests 
and diseases; protecting American businesses from theft of their 
intellectual property; regulating international trade; collecting 
import duties; and enforcing U.S. trade laws.
    At BCBP, we know that we must perform both our priority and 
traditional missions without stifling the flow of legitimate trade and 
travel. We have twin goals: (1) increasing security, and (2) 
facilitating legitimate trade and travel. These twin goals do not have 
to be mutually exclusive. They can and should be achieved 
simultaneously. As we develop ways to make our borders more secure 
against terrorism, we also have an opportunity to develop ways to 
ensure the speedy flow of legitimate trade and travel. How do we do 
this? We do it by building a smarter border. Three components of a 
smarter border that I will discuss today are the use of advance, 
electronic information; the extension of our zone of security beyond 
our physical borders; and the use of non-intrusive detection 
technology. I will also briefly discuss the US VISIT program that was 
recently announced by Secretary Ridge and that will be overseen by the 
Border and Transportation Security Directorate.

II. Using Advance, Electronic Information
    One of the most important keys to our ability to build a smarter 
border--to increase security without stifling legitimate trade--is 
information. Good information, received electronically and in advance, 
enables us to more accurately and more quickly identify--or target--
what is ``high risk,'' defined as a potential threat, and what is low 
risk or absolutely no risk whatsoever. The separation of high risk from 
no risk is critical because searching 100 percent of the cargo that 
enters the United States is not possible, wise, or necessary. Even if 
the resources were made available to do so, it would unnecessarily 
cripple the flow of legitimate trade to the United States. When 
inspections were increased on September 11th, the impact was immediate. 
Commercial trucks waited for as long as 10 to 12 hours to get into the 
U.S. on the land border. This nearly brought our economy to its knees.
    What is necessary and advisable is searching 100 percent of the 
high-risk cargo that enter our country. To do this, we need to be able 
to identify what is high risk, and do so as early in the process as 
possible.
24-Hour Rule--Advance Information for Oceangoing Cargo
    This past year, we worked closely with the trade community to 
develop an advance manifest regulation addressing that issue with 
respect to oceangoing cargo. The final version of that regulation, the 
so-called ``24-hour rule,'' took effect on December 2, 2002. It 
requires the presentation of accurate, complete manifest information on 
cargo destined for the United States 24 hours prior to loading of a 
container on board a vessel at the foreign port. The regulation also 
improves the quality of information presented, because under the 
regulation, vague descriptions of cargo such as ``FAK'' (Freight All 
Kinds) are no longer acceptable. When we receive the information, the 
data is processed through BCBP's Automated Targeting System, and 
reviewed by our National Targeting Center, to identify high-risk 
oceangoing cargo.
    On February 2, 2003, BCBP began a strategy to ensure compliance 
with the 24-hour rule, following a 90-day grace period (which included 
30 days following the date of the rule's publication) to permit the 
trade to adjust its business practices. The compliance strategy has 
involved, for the first time, issuing ``no-load'' orders and denying 
permits to unlade in the event of non-compliance. We are seeing 
significant compliance with the rule.
Trade Act of 2002--Advance Information for All Commercial Modes
    Successful targeting of high-risk goods transported through other 
commercial modes is as important as successful targeting of high-risk 
goods transported by sea. As with oceangoing cargo, good information 
received earlier in the process is the key to that successful targeting 
and the application of sound risk management principles.
    In the Trade Act of 2002, Congress recognized the importance of 
such advance information by mandating presentation of advance data on 
all commercial modes, both inbound and outbound. BCBP has worked 
through the consultative process called for in the Trade Act of 2002 to 
determine the most appropriate advance information requirements for 
land, rail, and air cargo. During this process, we have met 
continuously with all segments of the trade. This will help us ensure 
that the final rule for requiring this information meets the security 
objectives of BCBP while also taking into account the realities of the 
businesses involved in the different transport modes. We anticipate a 
proposed rule being issued shortly, and a final rule being issued by 
the end of the calendar year.
Advance Passenger Information System
    Advance information is also critical to our efforts to identify 
individuals who may pose a security threat. Before September 11th, 
2001, air carriers transmitted information on international airline 
passengers in advance of their arrival to the Advance Passenger 
Information System (APIS) on a purely voluntary basis. Legislation 
enacted by Congress in late 2001 made submission of this information 
mandatory. This information is obtained prior to arrival in the U.S. 
for all passengers, and is transmitted electronically to BCBP's APIS.
    An informed, enforced compliance plan instituted by BCBP has 
resulted in 99 percent of all passenger and crew information (including 
those pre-cleared outside the United States) now being transmitted 
through APIS in a timely and accurate manner. BCBP, through its 
combined customs and immigration authorities, uses advance passenger 
information to evaluate and determine which arriving passengers pose a 
potential terrorist risk.

III. Extending our Zone of Security Outward
    Another important key to building a smarter border is extending our 
zone of security, where we can do so, beyond our physical borders--so 
that American borders are the last line of defense, not the first line 
of defense. We have done this on a far reaching basis by partnering 
with other countries on our Container Security Initiative, one of the 
most significant and successful initiatives developed and implemented 
after 9-11. We have also done this by partnering with Canada on the 
Free and Secure Trade Program and the NEXUS program, by expanding 
programs, like SENTRI, on the U.S./Mexico Border, and by partnering 
with the private sector with our Customs-Trade Partnership Against 
Terrorism.

Container Security Initiative (CSI)
    Oceangoing sea containers represent the most important artery of 
global commerce--some 48 million full sea cargo containers move between 
the world's major seaports each year, and nearly 50 percent of all U.S. 
imports (by value) arrive via sea containers. Approximately 6 million 
cargo containers arrive at U.S. seaports annually. Because of the sheer 
volume of sea container traffic and the opportunities it presents for 
terrorists, containerized shipping is uniquely vulnerable to terrorist 
attack.
    In January, 2002, the Container Security Initiative (CSI) was 
unveiled to address this threat. Under CSI, which is the first program 
of its kind, we are identifying high-risk cargo containers and 
partnering with other governments to pre-screen those containers at 
foreign ports, before they are shipped to our ports.
        The four core elements of CSI are:
        <bullet> First, identifying ``high-risk'' containers, using 
        advance electronic information, before they set sail for the 
        U.S. The 24-hour rule, discussed above, has been a critical 
        part of this element of CSI.
        <bullet> Second, pre-screening the ``high-risk'' containers at 
        the foreign CSI port before they are shipped to the U.S.
        <bullet> Third, using technology to pre-screen the high-risk 
        containers, including both radiation detectors and large-scale 
        radiographic imaging machines to detect potential terrorist 
        weapons.
        <bullet> Fourth, using smarter, ``tamper-evident'' containers--
        containers that indicate to BCBP officers at the port of 
        arrival whether they have been tampered with after the security 
        screening.
    CSI also involves stationing BCBP officers at the foreign CSI 
seaports to do the targeting and identification of high-risk 
containers.
    Importantly, CSI adds substantial security to containerized 
shipping without slowing down the flow of legitimate trade. Containers 
that have been pre-screened and sealed under CSI will not ordinarily 
need to be inspected again by BCBP when they arrive at United States 
seaports. As I mentioned earlier, currently 100 percent of the 
containers identified as high-risk are being screened on arrival to the 
United States. With CSI, it will usually be unnecessary to do this 
screening here, if it has been done ``there''--at a CSI port.
    Since CSI was announced in January 2002, the program has generated 
exceptional participation and support. The goal for the first phase of 
CSI was to implement the program at as many of the top 20 foreign 
container ports--in terms of volume of cargo containers shipped to 
United States seaports--as possible, and as soon as possible. Those 
ports account for nearly 70 percent, over two-thirds, of all cargo 
containers arriving at U.S. seaports. To date, the governments 
representing 19 of the top 20 ports have agreed to implement CSI. CSI 
has been implemented and is already operational in Le Havre, France; 
Rotterdam, the Netherlands; Antwerp, Belgium; Bremerhaven and Hamburg, 
Germany; Felixstowe, England; Yokohama, Japan; Singapore, Hong Kong, 
and Gothenburg, Sweden. We are also operational at the Canadian ports 
of Halifax, Montreal, and Vancouver. CSI will be operational at other 
CSI ports soon.
    Just last week, Secretary Ridge and I announced Phase 2 of CSI. 
Under CSI Phase 2, we will implement the program at other foreign ports 
that ship a substantial volume of containers directly to the U.S., and 
at ports of strategic importance in the global supply chain. To be 
eligible for CSI, ports must meet the minimum standards for the 
program, that is, have acquired the detection equipment and have the 
capacity and will to implement CSI with us.
    Our expansion goals for Phase 2 include ports in the Middle East 
and other strategic locations, such as the first Arab CSI port, in the 
United Arab Emirates; ports in Turkey, Malaysia, and Sri Lanka; ports 
in Africa, such as Durban, South Africa; and ports in Latin American 
countries such as Panama, Argentina, and Brazil. Under Phase 2, we will 
also seek to include many additional European ports, such as Gioia 
Tauro, Italy; Barcelona, Spain; and Marseilles, France.
    We believe that Phase 2 of CSI will have the same success of Phase 
1. Governments in many of these countries have already expressed an 
interest in participating in CSI, and once we ensure that they meet the 
minimum standards necessary for participation in CSI, we will conduct 
port assessments, sign agreements, and begin implementation as rapidly 
as possible. In fact, as part of Phase 2, we have already signed CSI 
agreements with Malaysia and Sweden, covering the two major ports of 
Malaysia and Gothenburg, Sweden, the main container port for the Nordic 
countries. By the end of Phase 2, CSI will cover about 80 percent of 
all containers coming to the United States. We'll cover nearly 100 
percent of all Europe/U.S. transatlantic trade, and over 80 percent of 
transpacific trade to the U.S. By the end of Phase 2, we will be well 
on our way to thwarting any terrorist attempts to hijack our trading 
system.

Partnership with Canada
    Since the terrorist attacks of September 11, 2001, we have worked 
closely with Canada to develop and implement initiatives that increase 
security and facilitate travel and trade at our shared 4,000 mile 
border. Many of these initiatives have been implemented under the Smart 
Border Declaration entered into between the U.S. and Canada in December 
2001. This Declaration focuses on four primary areas: the secure flow 
of people; the secure flow of goods; investments in common technology 
and infrastructure to minimize threats and expedite trade; and 
coordination and information sharing to defend our mutual border. By 
benchmarking our security measures and sharing information, we are able 
to relieve pressure and congestion at our mutual land border.

Free and Secure Trade (FAST)
    One of these initiatives is the Free and Secure Trade, or FAST, 
program. Through FAST, importers, commercial carriers, and truck 
drivers who enroll in the program and meet our agreed to security 
criteria are entitled to expedited clearance at the Northern Border. 
Using electronic data transmission and transponder technology, we 
expedite clearance of approved trade participants. The FAST program 
fosters more secure supply chains, and enables us to focus our security 
efforts and inspections where they are needed most--on high-risk 
commerce--while making sure legitimate, low-risk commerce faces no 
unnecessary delays.
    FAST was announced by President Bush and Prime Minister Chretien in 
Detroit in September 2002, and it is currently operational in 27 lanes 
at six major crossings along the northern border. Eventually, FAST is 
projected to expand to all 25 commercial centers located throughout the 
northern border.
    NEXUS
    With Canada, we have also implemented a program that enables us to 
focus our resources and efforts more on high-risk travelers, while 
making sure those travelers who pose no risk for terrorism or 
smuggling, and who are otherwise legally entitled to enter, are not 
delayed at our mutual border. This is the NEXUS program, under which 
frequent travelers whose background information has been run against 
crime and terrorism indices are issued a proximity card, or SMART card, 
allowing them to be waived expeditiously through the port of entry.
    NEXUS is currently operational at six crossings located at four 
major ports of entry on the northern border: Blaine, Washington (3 
crossings); Buffalo, New York (Peace Bridge); Detroit, Michigan; and 
Port Huron, Michigan. We also recently opened a new NEXUS lane at the 
International Tunnel in Detroit. This summer, NEXUS will be expanded to 
the Rainbow, Lewiston, and Whirlpool Bridges in New York. Other 
upcoming expansion sites for NEXUS include Alexandria Bay, New York; 
and Sweetgrass, Montana.

Partnership with Mexico
    We have continued important bilateral discussions with Mexico to 
implement initiatives that will protect our southern border against the 
terrorist threat, while also improving the flow of legitimate trade and 
travel.
    With respect to cargo crossing our border with Mexico, for example, 
we will be implementing a pilot FAST program on the southern border in 
El Paso, Texas by September 2003. We also continue to work on a 
possible joint system for processing rail shipments and on shared 
border technology.
    SENTRI is another smart border initiative on our southern border. 
SENTRI is a program that allows low-risk travelers to be processed in 
an expedited manner through a dedicated lane at our land border with 
minimal or no delay. SENTRI is currently deployed at 3 southwest border 
crossings: El Paso, San Ysidro, and Otay Mesa, and expansion plans are 
being considered. In fact, our SENTRI team met with their Mexican 
counterparts this spring to discuss expansion logistics.
Customs-Trade Partnership Against Terrorism
    Any effort to ``push our zone of security outwards'' and protect 
global trade against the terrorist threat must include the direct 
involvement of the trade community. The Customs-Trade Partnership 
Against Terrorism, C-TPAT, is an initiative that was proposed in 
November 2001 began in January 2002, to protect the entire supply 
chain, against potential exploitation by terrorists or terrorist 
weapons. Under C-TPAT, companies sign an agreement with BCBP to conduct 
a comprehensive self-assessment of their supply chain security and to 
improve that security--from factory floor to foreign loading docks to 
the U.S. border and seaports--using C-TPAT security guidelines 
developed jointly with the trade community.
    Companies that meet security standards receive expedited processing 
through our land border crossings, through our seaports, and through 
our international airports, enabling us to spend less time on low-risk 
cargo, so that we can focus our resources on higher risk cargo. C-TPAT 
is currently open to all importers, air, sea, and rail carriers, 
brokers, freight forwarders, consolidators, non-vessel operating common 
carriers (NVOCCs), and U.S. Marine and Terminal operators. As of 
October 1, 2002, C-TPAT eligibility for trucking companies along the 
U.S./Canada border has been made available through the Free and Secure 
Trade Program. (Participation in C-TPAT is a requirement for bringing 
goods from the U.S. into Canada through the FAST lane.) We are 
currently developing the mechanism and strategy to enroll foreign 
manufacturers and shippers into C-TPAT. The intent is to construct a 
supply chain characterized by active C-TPAT links at each point in the 
logistics process.
    To date, over 3,422 companies are participating in C-TPAT to 
improve the security of their supply chains. Members of C-TPAT include 
71 of the top 100 importers and 32 of the 50 largest ocean carriers. To 
make sure that C-TPAT is realizing its promise, BCBP is developing 
expertise in supply chain security. In December 2002, we began 
providing training in the security validation process to ten 
supervisory customs inspectors. We will provide training to a second 
group of validators beginning June 16, 2003. In January 2003, these 
individuals started the validation process in cooperation with our C-
TPAT partners. To date, over 50 validations have been initiated.

    IV. Using Non-Intrusive Inspection Technology
    Non-Intrusive Inspection (NII) technology provides for a more 
effective and efficient, as well as less invasive, method of inspecting 
cargo, compared with drilling or dismantling of conveyances or 
merchandise. As we deploy additional NII technology throughout the 
country, we increase our ability to detect conventional explosives, 
nuclear weapons, radioactive components, and other weapons of mass 
destruction. NII equipment includes large-scale x-ray and gamma-ray 
imaging systems, portal radiation monitors, and a mixture of portable 
and handheld technologies to include personal radiation detection 
devices that greatly reduce the need for costly, time-consuming 
physical inspection of containers and provide us a picture of what is 
inside the container.
    We are in the process of adding radiation detection systems and 
isotope identifiers on the southwest border, radiation detection 
systems and Mobile Vehicle and Cargo Inspection Systems (VACIS) on the 
northern border, Mobile VACIS at seaports, isotope identifiers and x-
ray equipment for international mail, and isotope identifiers at 
Express Courier hubs, as well as additional inspector positions for 
deploying and operating this equipment. This technology will detect 
anomalies and the presence of radiological material in containers and 
conveyances, with minimal impact to port operations in a fraction of 
the time it takes to manually inspect cargo. CBP is also working 
closely with the Department of Homeland Security's Science and 
Technology Directorate to assure that the best equipment is procured 
and deployed in a cost-effective manner, and that lessons learned from 
the current deployments are applied to the development the next 
generation of technology.

    V. US VISIT
    Another border-related program that is currently being implemented, 
and that will rely on sophisticated technology and quick access to 
critical data, is the recently announced US VISIT program. Under this 
program, the Department of Homeland Security will implement a number of 
legislative requirements related to the entry and exit of visitors to 
the U.S. Once implemented, US VISIT will provide BCBP personnel with 
the capability to use biometric features--such as fingerprints, 
photographs, or iris scans--to identify accurately people that are 
traveling into and out of the United States. In this way, US VISIT will 
strengthen and increase the reliability of our terrorist and other 
database checks on such individuals when they enter and exit the United 
States. As the Secretary has announced, US VISIT will be implemented at 
air and seaports by the end of calendar year 2003.

    VI. Conclusion
    Mr. Chairman, I have outlined today several of the BCBP initiatives 
that are helping us create a smarter border, one that enables us to 
carry out our twin goals of increasing security and facilitating the 
flow of legitimate trade and travel. The merger of all of the U.S. 
border agencies into one agency, BCBP, in the Department of Homeland 
Security, creates new opportunities for us to continue to build even 
smarter borders that strike the appropriate and necessary balance 
between security and commerce. With the continued support of the 
President, DHS, and the Congress, BCBP will do just that.
    Thank you again for this opportunity to testify. I would be happy 
to answer any of your questions.

    Mr. Camp. The gentlewoman from California may inquire.
    Ms. Sanchez. Thank you, Mr. Chairman.
    And thank you, Commissioner. I have a lot of questions to 
ask and probably won't have enough time to ask them all, and 
maybe you can take some notes and answer what you can, and then 
I anticipate anything you can't at this point, you will give to 
us in writing.
    The first thing I want to talk about is the Container 
Security Initiative. As of March of this year, 18 of the 20 
largest ports were supposed to--had agreed to participate in 
this program with us. I believe about 10 of them are now--as 
someone in your Department mentioned--are now operational. I 
would like to know what does operational mean with respect to 
that? How many people do you have assigned to this? For 
example, what does an average port location look like with 
respect to people? What kind of technology, new technology, is 
there? Who paid for that technology? What are they using it 
for? What part of the four element targets are they looking at? 
What about this whole issue of cargo manifests and old 
databases? Are you still using that information in which to 
wean out who you should be taking a look at?
    And then the second line of questioning has to do with 
respect to the U.S. VISIT system, which is supposed to be a 
high priority, and one that Secretary Ridge had announced that 
he would put in place. It is supposed to be implemented by the 
end of this year. The SEViS system is supposed to be 
operational by August, and your immigration inspectors are 
supposed to use both of these systems. Will they be ready to 
use these systems effectively by the deadlines? Have they been 
trained on them? Do you have any recommendations on the 
implementation of these systems either in time line or 
suggestions to improve the system? And given the well-
publicized technical problems with SEViS, for example, what 
assurances can you give us that U.S. VISIT will not suffer from 
the same problem?
    That should be good enough to begin with.
    Mr. Bonner. Let me start with CSI. It is now in 19 of the 
top 20 ports. We just signed the CSI agreement with Thailand, 
which had one of the top 20 ports. We are operational in a 
total of 13 ports worldwide right now, and operational means 
this. It means that we have U.S. Customs, U.S. Customs and 
Border Protection personnel, which is a small team, that are 
stationed at these CSI seaports. They are there to work with 
the host nation, but essentially to target and identify, using 
information that we have looking at anomalies to target 
containers that pose a potential risk.
    Ms. Sanchez. How many people do you have at a particular 
port, and what information are you using to figure should we be 
looking at this and targeting it?
    Mr. Bonner. We are trying to determine how to right-size 
this, but typically when we started deploying the teams to make 
CSI operational, we were deploying teams of about five to six 
U.S. Customs and Border Protection personnel. I can tell you 
that there are certain ports where that number is going to have 
to be perhaps increased, perhaps even doubled. For example, in 
the Port of Hong Kong, just because of the volume at that port, 
and perhaps at the Port of Singapore. But we started out with 
teams of about five or six. And operational means that we are 
actually using our automated targeting system, working with the 
host nation to identify containers that pose a potential risk. 
Then the host nation, let us say in the case of the Dutch at 
Rotterdam or the Singapore customs authorities in Singapore, 
then are conducting what I call a security inspection of that 
container. The equipment that is being used is radiation 
detection equipment and large-scale X-ray-type equipment that 
can take an X-ray image essentially of the entire cargo 
container.
    Ms. Sanchez. Is that provided by the host country?
    Mr. Bonner. That is being provided--in each and every 
instance, in each and every country that has agreed to CSI, 
they are providing large-scale detection equipment. In fact, 
some of them already had equipment, just as the United States 
Customs has that kind of equipment. Some of them already had 
the equipment. Some of the countries have had to purchase and 
acquire that equipment. For example, the Government of 
Singapore has purchased at least three mobile X-ray or gamma 
ray-type machines to participate in the Container Security 
Initiative.
    Ms. Sanchez. But are your people still using the databases 
or manifests that are provided to them by the cargo shipper?
    Mr. Bonner. Until I promulgated the 24-hour rule, we didn't 
even get advanced manifest information on a mandatory basis. We 
are getting that information now. That information is put into 
our database system; that is, the automated manifest system, or 
AMS. That data is being used together with certain rules-based 
targeting principles, some of which are drawn from strategic 
intelligence, some of which are drawn upon anomalies or things 
that are unusual about the shipment, to identify high-risk 
containers. So we are using that system to identify the high-
risk containers.
    Now, look, we are in the process, too, of getting the 
Automated Commercial Environment, or the ACE system, it is just 
not there yet, which will also improve our capability for doing 
this kind of targeting. But we do have an automated targeting 
system. It is sophisticated. It has rules in it to help us 
identify the containers that pose a potential risk.
    Mr. Camp. Thank you. Her time has expired. The gentleman 
from Florida may inquire.
    Mr. Diaz-Balart. First of all, welcome, and thank you very 
much for your testimony.
    You talked with regard to CSI that 13 ports are already 
operational. When will the other 7 of the top 20 be 
operational?
    Mr. Bonner. We will be operational within about several 
weeks in the two major container ports in Italy, La Spezia and 
Genoa. So within several weeks, those two ports. We just went 
operational in Felixstowe, which is the major container port in 
the U.K. I would have to look at the exact schedule. I know 
there are many of the remaining ports, because 19 of 20 are on 
board. We are going to be operational in implementing CSI at 
those ports very soon and we are looking to do this over the 
next several months. There may be one or two that for a variety 
of reasons--we just signed the agreement with the Thais, so it 
is going to take a bit longer to go over and do the port 
survey, make the assessment we need, and do the preliminary 
groundwork we need before actually deploying a team there. But 
I can tell you we are moving very rapidly on this to all of the 
ports in what I would call Phase 1 of the security initiative.
    Mr. Diaz-Balart. Being from south Florida, we have a 
tremendous amount of trade and commerce with Latin America. 
What countries in Latin America other than Panama, Argentina 
and Brazil that I am informed now you already have CSI 
agreements with are you considering for the CSI?
    Mr. Bonner. We do not have agreements with Brazil or Panama 
or Argentina, but just last week Secretary Ridge indicated that 
we would be expanding the Container Security Initiative beyond 
the top 20 ports to additional ports throughout the world, both 
based upon the volume of cargo containers shipping to the U.S. 
Seaports and their strategic location, and, of course, their 
capacity and the political will to join with us and partner 
with us in the Container Security Initiative. In that context 
we are looking and will be looking at ports in Latin America, 
and they could include one or more ports in Brazil, Argentina 
and Panama, but we do not have agreements with any of those 
three countries yet.
    Mr. Diaz-Balart. Or any other Latin American countries.
    Mr. Bonner. That's right. Interestingly enough, by the way, 
when we look at the top 20 ports in terms of the shipment of 
cargo containers to the U.S., all of those ports were in Asia 
and Europe. There wasn't one Latin American port that was in 
the top 20. The top 20 represents almost 70 percent of the 7 
million ocean-going cargo containers to the U.S. But there are 
some as we look down the list. I certainly anticipate we are 
going to be adding some of the significant ports in Latin 
America to CSI.
    Mr. Diaz-Balart. Thank you, Mr. Chairman.
    Mr. Camp. I thank the gentleman, and now I would yield to 
the gentleman from Texas, the Ranking Member, if he would like 
to inquire.
    Mr. Turner. Thank you, Mr. Chairman. Mr. Bonner, last month 
we received a report from the General Accounting Office which 
shared with us the results of an undercover operation they 
conducted out of their Office of Special Investigations. I know 
you are familiar with it because the agents of the General 
Accounting Office successfully entered the United States from 
Mexico, Canada, Jamaica and Barbados using counterfeit 
identification such as drivers' licenses and birth 
certificates, which, according to the GAO, can be produced 
using off-the-shelf software. Can you explain how these 
undercover agents found it so easy to pass through our borders 
and past our inspectors in entering the United States? What do 
you intend to do to stop it?
    Mr. Bonner. Let me answer, first of all, I am aware of the 
report that there were four different places, if I remember, in 
which GAO entered the United States. It wasn't the Canadian 
border, and I think you named the places. You know, one reason, 
by the way, I think that they were able to enter fairly easy 
was not counterfeit documents, because typically an immigration 
inspector doesn't necessarily look at documents in terms of 
making a determination at the Canadian land border or Mexican 
border as to whether someone is a U.S. citizen. And one of the 
reasons I think it was easy for these GAO investigators was to 
get in is that at least some of them had New York accents.
    But we have a system right now, and we need to look at this 
system, where a person that is a U.S. citizen that is entering 
the United States from the Western Hemisphere as opposed from 
anyplace in the world, but Canada, Mexico, and that sort of 
thing, is not required to present any documentation to the 
immigration inspector at the port of entry. And the immigration 
inspector at the point of entry, as you know, Mr. Turner, has 
very limited time to make an assessment as to whether that 
person is indeed a citizen of the United States, and it is 
usually by asking a number of questions and making an 
assessment as to whether that person is a citizen.
    So the real issue here is--not to me, anyway; I am telling 
you the way I look at it--is not so much whether somebody had a 
counterfeit driver's license, because you are right, anybody 
can counterfeit a driver's license and other kinds of 
documents. The real issue is should we have a secure document 
that is required to be presented when you are entering the 
United States from someplace in the Western Hemisphere coming 
back to this country or not. So that is the issue to me.
    But the reason they were able to get in so easily ,at least 
based upon my analysis, is that the immigration inspector--this 
was the INS at the time, by the way; this happened before March 
1, when I was still the Commissioner of Customs--but from my 
analysis was that they were doing their jobs, they were asking 
questions, and they made a determination that they believed 
that these people were entitled to enter because they were U.S. 
citizens.
    Mr. Turner. Well, in reading the report, it seems the 
inspectors didn't ask for any identification or ask any 
questions. I find it hard to understand how we are going to 
ever be able to say that our borders are secure if we don't 
have any better system in place than we have now. You have 
suggested, perhaps, that the system needs to be changed or 
there needed to be some identification document, but apparently 
there is no current proposal for this type of change.
    Mr. Bonner. I am not aware of one, but the most important 
part of the system actually is to have a trained inspector, who 
has limited time, but does ask questions, at the land border, 
the Canadian land border and the Mexican land border, to make a 
determination. That probably is the most important thing to do 
to determine whether this person appears to be a U.S. citizen 
and, therefore, entitled to enter the country. If no questions 
are asked, then I have a problem with that.
    You are looking at a number of things. You are looking at 
the car and the license plate. In some cases you are running 
that license plate. You are asking a few questions to satisfy 
yourself that one, these individuals are entitled to enter the 
United States because they are a U.S. citizen; and, two, to 
make sure that you are not allowing somebody to enter the 
United States that would particularly pose a terrorist threat 
to our country.
    Mr. Turner. I believe my time is up. Thank you, Mr. 
Chairman.
    Mr. Camp. Thank you.
    The gentleman from Texas may inquire.
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Bonner, seems to me we clearly all have the same goal, 
which is to make it more difficult for individuals to come into 
the United States for the wrong reason, and to make it more 
easy for them to come in for the right reason, whether it be 
trade, tourism or traffic, all the legitimate types of entry 
that we do encourage. And it also seems to me, having looked at 
it in the past a little bit, that technology is going to be the 
key to success in many ways. And you mentioned in your written 
statement examples of where you are using technology to 
facilitate that rapid entry into the United States by those 
individuals who are coming for the right reason.
    You also mentioned in your prepared remarks that you sort 
of have the dual challenge of preventing terrorists from coming 
into the country while you are continuing to perform the 
traditional missions of trying to apprehend individuals who are 
coming into the United States illegally. And it strikes me that 
if you don't know who is coming into the country, then you 
don't know what is coming into the country, be it terrorist 
weapons, terrorist plans, and even individuals who are engaged 
in the illegal drug trade, which is another way of saying you 
really can't tell whether someone is coming into the country 
illegally. You can't always discern who is a terrorist and who 
is coming in for other reasons, which means we have to secure 
our border with regard to everyone who would come in illegally.
    At the same time it seems to me that the administration is 
sending mixed signals, because your job is made infinitely more 
difficult to the extent that we are sending signals that we are 
encouraging individuals to come into the country illegally. I 
think we are doing that in several ways. I know in south Texas 
that an individual has to be apprehended six to eight times 
before he or she is actually charged with violating immigration 
laws. That is the wrong signal to send. At the same time, my 
friends on the border, one border sector chief told me they 
estimate they are only apprehending 15 percent of the people 
coming into the country illegally. So when you figure what the 
odds are of actually being charged with immigration violations 
and actually being checked, having your background check or 
whatever, the odds are so small that it encourages people to 
come in for the wrong reason.
    We have, for example, the Department of Treasury now 
issuing regulations on matricular cards, and I would like to 
ask your opinion whether you recommended for that or against 
it. We have a situation where we are basically not deporting 
anyone from the interior unless they are convicted of a serious 
crime. And we also have the added statistic that I think is 
absolutely telling and devastating, and that is 20 percent of 
all Federal inmates today who are people in the country 
illegally and who have been convicted of serious felonies, 20 
percent.
    All that adds up to we are trying our best, I am sure, to 
keep out the terrorists and keep out individuals who come into 
the country for the wrong reason, but at the same time, in my 
judgment, we are making our job more difficult because of these 
mixed signals that we are sending. Would you comment both on 
the mixed signals and how you think we might change those mixed 
signals so as not to encourage illegal immigration and so as 
not to make your job more difficult than it already is?
    Mr. Bonner. First of all, I wasn't consulted with respect 
to the matricular cards that are issued by Mexican consulates. 
It is something that was run through the Treasury Department as 
to whether that was an acceptable form of identification for 
some purposes.
    Mr. Smith. Did you take a stand on that? It was my 
understanding that it was only the Treasury Department; that 
all the other departments were opposed to it.
    Mr. Bonner. In terms of a border document and establishing 
identity, it is not a document that is of significance, in my 
judgment, for the purposes of entering the United States.
    Mr. Smith. It legitimatizes the presence of people who are 
here in the country illegally.
    Mr. Bonner. This is a question of whether you should make 
it easier for persons to identify themselves for purposes of 
opening up bank accounts, and that is how I understand the 
issue. It is a little bit beyond my province in terms of a 
border agency, and that is why I am a little bit hesitant.
    I take your point that we have to be very, very careful 
about giving mixed or inconsistent signals in terms of what we 
do. I think frequently over the years we have been sending out 
mixed signals in terms of the position and policy of the United 
States.
    Having said that, look, I think what is very, very 
important for us is to establish better and actual control over 
the borders of this country, and I think that is one of the 
most important things we do, and it is not easy. It is an issue 
that I am just beginning to grapple with because as part of 
this reorganization I described to you, Mr. Smith, we are 
essentially merging U.S. Customs the Border Patrol and 
immigration inspectional elements and the like. But I think one 
of the most important things we can do is to make sure through 
a combination of technology and staffing and otherwise that we 
do have significant real control over our borders. 
Unfortunately, there are places, as you well know, on our 
border with Mexico that it would be a little difficult to, with 
a straight face, say that we actually have control of them.
    I actually don't have a particular position; that I don't 
know precisely what the position of the Department of Homeland 
Security is with respect to the cards that are being issued by 
the Mexican consulates.
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Camp. The gentleman from Massachusetts may inquire.
    Mr. Markey. Mr. Bonner, the senior manager in charge of 
overseeing security at the Frankfurt airport has said that, 
quote, you have to have better background checks of known 
shippers. At Frankfurt there is no such thing as a known 
shipper. Let us then put ourselves in Frankfurt. That is where 
Mohammed Atta was before he came to Boston with the rest of his 
gang into my district. Let us assume that his gang is in 
Frankfurt, and they are trying to figure out, after this guy 
says this, how they are going to put cargo on a passenger plane 
and fly it in from Frankfurt to Logan. What would be the 
screening process to make sure that amongst a shipment of 
computers on that passenger plane, after 250 international 
passengers have been screened, that underneath them inside that 
cargo they haven't put nuclear materials? What is the screening 
process?
    Mr. Bonner. The screening process is that screening process 
that is in place under the IATA treaties with respect to the 
loading--
    Mr. Markey. Would there be an actual physical screening of 
the cargo that went onto that plane?
    Mr. Bonner. I don't believe there is.
    Mr. Markey. You don't believe there is? How would they 
detect the nuclear material that is mixed in with the boxes of 
computers that would be on that passenger plane then, Mr. 
Bonner?
    Mr. Bonner. You would--first of all, one way you might do 
it, it seems to me, is to use some sort of a managing of risk 
in terms of looking at screening those air cargo shipments or 
containers that are of concern.
    Mr. Markey. We are assuming that all 250 passengers on the 
plane have been screened. So there is a decision made that 
every passenger is at potential risk. You are saying that you 
might decide that you won't screen 95 percent of all the cargo 
that goes onto the plane based upon paperwork, but what if 
there is no warning? What if you don't have one of Mohammed 
Atta's gang that tips you off? What would be the mechanism that 
you would use in order to ensure that the plane isn't used as a 
carrier of nuclear materials?
    Mr. Bonner. A tip-off would be specific intelligence, and I 
was suggesting more of a risk management. Mr. Markey, first of 
all, I can't speak for Admiral Loy.
    Mr. Markey. I know you are saying specific intelligence, 
but the head of security at the Frankfurt airport is saying 
that there is no such thing as a known shipper program.
    Mr. Bonner. First of all, the Known Shipper Program is a 
TSA program. It is not my program. Number two--.
    Mr. Markey. Are you saying that that cargo that goes on 
planes, you have no role in it at all?
    Mr. Bonner. Of course we have a role in it.
    Mr. Markey. What is Customs' role?
    Mr. Bonner. The role of Customs is to examine and inspect 
as appropriate. We do it on risk.
    Mr. Markey. It is your program. Why are you putting it off 
on TSA? It is your decision to use this intelligence rather 
than actual screening of the cargo.
    Mr. Bonner. What I am trying to tell you is that, as I 
think you know, Customs usually inspects things on arrival into 
the United States. So in the case--by the way, the exception is 
we have moved out with the Container Security Initiative with 
respect to ocean-going cargo containers, but we have a 
responsibility for screening any high-risk container or a 
container that might contain contraband upon arrival.
    Mr. Markey. What percentage of all containers on planes do 
you screen?
    Mr. Bonner. I don't have the figure. I know nationwide of 
all containers--.
    Mr. Markey. I think you only screen about 2 percent of all 
the containers that go on planes.
    Mr. Bonner. I doubt that that figure is right because that 
figure is largely met.
    Mr. Markey. What do you think is the number?
    Mr. Bonner. If you are talking about all containers that 
are arriving in the United States, the number that are screened 
or inspected--.
    Mr. Markey. Only talking about passenger planes now. What 
percentage of containers going on passenger planes are 
screened?
    Mr. Bonner. I don't have that number. I don't know.
    Mr. Markey. I mean, is it 5 percent or 95 percent? Do you 
know that much?
    Mr. Bonner. Nationwide for all containers is about 10.5 
percent. So it could be above that number or below that number.
    Mr. Markey. Ninety percent of all containers flying in on 
passenger planes from overseas under the passengers' feet is 
unscreened?
    Mr. Bonner. No, because you are assuming that it hasn't 
been screened at the point of origin, which is at Frankfurt 
airport. And I do not know. There is an IATA treaty that is 
between the United States and being overseen by the Security 
Administration, as I understand it, and our allies as to what 
is screened in terms of being placed upon an airplane, a cargo 
airplane or a passenger airplane, taking cargo.
    Mr. Markey. I have to take off my shoes.
    Mr. Camp. The gentleman's time has expired.
    I did want the witness to have a chance to answer the 
question and hopefully have time for another round.
    Mr. Bonner. So I don't know exactly myself, but--as to 
whether it is 100 percent or 1 percent or what is screened 
overseas, because it is not something that I have been directly 
involved with. We are obviously screening things upon arrival 
in the United States.
    Mr. Markey. I think you should know that number, Mr. 
Bonner. I think the American people should know the number of 
what percentage of cargo is screened coming into the United 
States.
    Mr. Camp. The gentleman from California may inquire, the 
Chairman of the full committee.
    Chairman Cox. Thank you, Commissioner Bonner.
    I don't think there is anything more important in the war 
against terrorism than port security and ultimately security 
over all our ports of entry, and I appreciate you taking on 
this job. I know you are in the beginning of what is going to 
be a long process.
    At the end of this week, this full committee is going to 
conduct an on-site review and a field hearing on port security 
in Los Angeles and Long Beach, as I am sure you know, which 
represents our Nation's largest port. So this subcommittee 
hearing is an important predicate for what we expect to 
continue to learn over the next several days.
    I want to ask you, if I may, about--with respect to the CSI 
program, do we have the proper threat analysis in place now in 
the Department of Homeland Security and in particular within 
your jurisdiction, or do you have access to it? And second, 
where are we headed with the development of that capability in 
the Department and within your jurisdiction?
    Mr. Bonner. First of all, let me say that we have--both 
before and after March 1, I have been--as Commissioner of 
Customs, receiving on a regular basis intelligence briefings 
from the Intelligence Community and the CIA with respect to the 
threat insofar --and particularly insofar as it impacts 
potentially either terrorists or terrorist weapons attempting 
to enter or be smuggled into the United States. And we have had 
the benefit of analyses with respect to that threat. We have 
used that analysis and that information and strategic 
intelligence in a number of ways, including building it into 
our risk management targeting systems.
    Chairman Cox. Where is the analysis coming from?
    Chairman Cox. As compared to when you ran Customs, where is 
that information coming from these days?
    Mr. Bonner. These days the way it is coming, first of all, 
it is coming principally from the Intelligence Community 
through the IAIP Director, which is the Information Analysis 
Infrastructure Protectorate Directorate, which is being 
developed and stood up within the Department of Homeland 
Security and to my Office of Intelligence.
    Chairman Cox. So is your information coming to you from IA?
    Mr. Bonner. IA is an intermediary, as I put it, Chairman 
Cox.
    Chairman Cox. Is that all the time, most of the time, half 
of the time?
    Mr. Bonner. It is obviously evolving given the fact that 
the Department itself and IAIP are both standing up. It is an 
evolving process. But we are pushing forward, essentially, 
intelligence and information that we pick up in terms of 
attempts potentially for terrorists to enter through our land 
borders or across through our ports of entry. We are pushing 
intelligence out, it goes out. And we are also drawing down 
now, more and more, is the way I would put it, through IAIP 
intelligence, which is essentially being generated by the 
intelligence collections agencies. And when we are talking 
about an international terrorist threat that may penetrate our 
border, we are talking about the United States Intelligence 
Community. But also there is some information that also comes 
in from the FBI as well. But it is mainly from the Intel 
Community through IAIP to Customs and Border Protection.
    Chairman Cox. I ask this question because CSI relies on the 
integrity of intelligence and automated information in order to 
work. That information, in the first instance, is provided by 
the carriers. There has got to be some check on that, and so 
the quality of our intelligence matters a great deal. How can 
we be sure that the information that we are getting on the 
cargo manifests is accurate and are we reliant entirely on 
intelligence for that? Do we have other means? I know, with 
respect to radiological threats, we are expecting to use and 
currently do in incipient ways use technology for that purpose.
    Mr. Bonner. It is important to some degree that we have 
accurate information. It is even more important that we have 
complete information about what is being shipped to the United 
States, who is shipping it, where it is coming from, who it is 
going to and so forth. We have our own databases with respect 
to the international trade community, who the importers are, 
how often they have imported, who the shippers are, who the 
freight forwarders are. We have a tremendous amount of 
information that goes beyond just what someone is declaring and 
being required to give us in advance manifest information.
    So we have a lot of ways of triangulating that ourselves, 
and we are looking for, in many instances, what we call 
anomaly, something that is unusual about this trade pattern or 
this particular shipment.
    I do not want to get into all the targeting rules we use, 
here at a public hearing, but the real thing that we are 
looking for, and we are searching for, and is going to be 
helpful, is establishing and getting the Intelligence 
Community, and this is through IAIP as our agent, if you will, 
to better meet the collection needs of a principal border 
agency of the United States Government, and that is Customs and 
Border Protection, and that is getting better. Look, are we all 
the way home there yet? No, not by my means. And as you know, 
part of this is going to be a process, as I understand it, of 
IAIP, which will essentially plug into an InterLink into the 
TTIC, which is the U.S. Intelligence Community and the FBI. So 
we are not all the way there yet, but we are starting a process 
and have started a process where IAIP, the Information Analysis 
Infrastructure Protection, is playing a more important role in 
our being able to get the general intelligence and specific 
strategic intelligence, and, of course, you know it would be 
great to have tactical intelligence, who, where and when there 
are terrorists or terrorist weapons coming in. But we are in 
that process and it is moving forward. And we clearly have a 
ways to go to get this to the point where I think we would all 
like it, and that is a really well-oiled machine where that 
intelligence is being drawn out and then filtered down to, in 
this case, Customs and Border Protection.
    Obviously, there are other customers and components of the 
Department of Homeland Security that also need intelligence 
besides just my agency, but, in particular, we are working on 
making this happen.
    Chairman Cox. That is why I asked the question because the 
analysis suited to your purpose and your needs and your 
requirements is what we are seeking and what Congress had in 
mind when we created the Department of Homeland Security. If 
you are getting secondhand analysis that is prepared for 
another customer for another purpose, then we are not going to 
achieve our objective.
     Working from the paradigm of shipper, who is illicit, who 
wants to defeat the system, I take it there is no reason in 
nature that that person or entity could not use a perfectly 
reputable shipper, take one of our own companies operating 
overseas that we all highly regard, ship your package with that 
outfit, lie about what is in the package and there is really no 
way, is there, for the shipper or for the carrier to know what 
is wrong with that package?
    Mr. Bonner. I do not know that there is any foolproof 
system, but I think there are, even under the scenario you 
describe, I think that there are ways in which, based upon a 
combination of factors, we would increase our likelihood of 
being able to identify a shipment; let us say where a terrorist 
weapon was concealed into that shipment.
    Secondly, by the way, we do have overlaying strategies. I 
started off by talking about what we do, well, I did not really 
talk about what we do in terms of inspecting cargo containers 
upon arrival at seaports or international airports. We started 
to discuss that with Mr. Markey, but in targeting and screening 
every high risk container that is coming and arriving in the 
United States. And by the way, I would like to see us push the 
border out just as we are doing for sea containers to 
potentially for air cargo. I think that would be a worthy thing 
to look at and try to do.
    But there is another feature and that is the Customs Trade 
Partnership Against Terrorism. You are actually describing a 
situation in which the importer or shipper has some weakness in 
their supply chain and there is the ability for a terrorist 
organization to conceal something inside a container of what 
appears to be an otherwise valid shipment. That is why we have 
a layered strategy. That is why we are trying to work with the 
now over 3,000 companies to improve their supply chain security 
and not just accept their word for it that they have done it. 
We have started a process of validating that they have taken 
the steps to close out security gaps along the entire supply 
side chain. There have to be layers to this, and, ultimately, 
if one asks is there going to be a perfect system that gives us 
100 percent guarantee, of course, we will never reach that. But 
we can, I think, through doing a number of these different 
things, we can measurably decrease the ability or likelihood 
that a terrorist organization is going to be able to 
successfully conceal or use a container as a terrorist weapon.
    Mr. Camp. The gentleman's time has expired.
    Chairman Cox. I thank the chairman. Just to be sure, I did 
use my entire 8 minutes I believe?
    Mr. Camp. Yes. You were given 8 minutes . The gentlewoman 
from New York may inquire, Ms. Slaughter.
    Ms. Slaughter. Mr. Bonner, I am delighted to see you here 
today. I represent the Niagra frontier so my questions will be 
somewhat parochial.
    Obviously, it is important for us, the U.S.-Canada border. 
A billion and a half dollars worth of commerce passes that 
border every day, and we are very much concerned about it, and 
I am pleased and I am sure you already mentioned this before I 
got here, my plane was a little late, the VACIS system, which I 
am told reduces the amount of time in which to check the cargo 
in a truck, from eight hours to two and a half minutes. That is 
quite a remarkable achievement. Is that your assessment of it, 
and do you think is it working well?
    Mr. Bonner. It is. Because somebody mentioned the fact that 
it is only with better detection technology and better advance 
information that we can identify and select out for inspection 
the potentially risky shipments. Frankly, we do not want to 
spend a lot of our efforts and resources on things that are not 
at risk whatsoever. The VACIS machine, which is a large-scale 
gamma ray machine, allows us to more quickly and more rapidly 
inspect much faster than trying to do a full physical 
inspection of a container. Obviously, if there is an anomaly we 
discover, then we go to the full physical inspection. This 
equipment, which we have deployed more since 9/11, we had it 
initially on the Mexican border, to the northern border and to 
our U.S. Seaports, is definitely helping us do a better job of 
security. And, at the same time, do it without choking off the 
flow of trade that is so important to our economy.
    Ms. Slaughter. Is that system applicable for railroad cars 
and airplanes as well?
    Mr. Bonner. We have put what we call a rail VACIS or large-
scale x-ray system on some of the most significant border 
crossings on the Mexican border. After some lengthy discussions 
with our Canadian friends, we are going to be rolling out a 
similar type of technology which is a rail VACIS. It actually 
gives you an image of every rail car coming from Canada into 
the United States at the major crossing points. That is a 
process we are just starting, but we have agreed to it. I have 
the funding. We will be rolling that out, and we will be 
implementing it as quickly as possible.
    Ms. Slaughter. This border is over 5,000 miles long. A lot 
of it is very remote, very difficult, I would think, to secure 
it. We have spent a lot of time, since I have been in Congress, 
on our southern border, but have never really had to worry 
about the northern border.
    The Peace Bridge alone has over 8 million people, 
commercial and passenger vehicles passing across it every year. 
A Customs agent in Niagra Falls recently told me they did not 
have the equipment they needed, and they were short of 
personnel. Are you aware of that and can you tell me what is 
being done to correct it?
    Mr. Bonner. I am not specifically aware of that. I know we 
have been increasing, through staffing and through 
appropriations that the Congress has given us, the level of 
staffing and a large chunk of that increased staffing, 
inspectional officers and the like, has been going to the 
northern border ports of entry. So I will need to look into 
that, but I know we have added significant staffing to what we 
call the general Buffalo ports of entry, the Peace Bridge and 
the Lewiston Bridge and the other major ports of entry and 
crossing points. I will look into that. My impression is that 
our staffing levels have increased. If they have not, they are 
in the process of being increased.
    Ms. Slaughter. I can keep in touch with you on what we know 
about that.
    We had an anomaly, I assume, I do not really know the 
statistics before 9/11, on how many children crossed the 
bridges. Last month a Canadian teenager cross the Lewiston-
Queenston Bridge totally undetected. But two weeks before that, 
a seven-year-old got his sister's tricycle and rode across the 
bridge and just ended up in Niagra Falls, and nobody seemed to 
observe them either crossing the bridge or at the point of 
Customs or INS. Obviously, this was something these children 
did. And I wonder if you have any system in place to try to 
stop that. Again, I am not aware, I am fairly new in that part 
of the district, how much foot traffic there is across those 
bridges. I would suspect not much.
    Mr. Bonner. There is not much. I have asked to take a look 
because I have heard those reports, and we are looking into 
them. So I understand how this could happen and why an 
immigration inspector or a Customs inspector, as the case may 
be, it is now one agency so there is no more finger pointing 
from one to the other, but why it is they did not stop and 
inquire with respect to this. I remember a relatively young 
child walked across one of the bridges. Let me look into that. 
It is something, clearly, we need to tighten up on.
    Ms. Slaughter. We were not sure whether that indicates not 
enough attention was being paid or what action we should take.
    Give me some idea how much of the 30 points of the Smart 
Border Accord have been implemented between the U.S. and 
Canada.
    Mr. Bonner. We have done very well with the Smart Border 
Accord. About 16 of those action items of the Smart Border 
Accord, from December of 2001, are what I call border 
management or are at our mutual border between Canada and the 
U.S., or ease some of the physical burden on the border itself. 
We have implemented a significant number of those. I believe it 
is a majority. Part of that is the Free and Secure Trade 
Program that we have implemented binationally with Canada, the 
FAST program.
    We have implemented and expanded the NEXUS program for 
vetting, and, clearly, people who are vetted to get a proximity 
card, again, technology and a reader to cross the border.
    We have placed U.S. Customs personnel, that is part of the 
Smart Border Accord, at the two major Canadian ports, Halifax, 
Vancouver, Montreal, to prescreen there using targeting and 
technology on cargo containers that are arriving at those 
Canadian ports that are in transit for the United States, just 
to name a few. We have not only talked about, but we have 
implemented a substantial number of the Smart Border 
initiatives, and we are continuing to work this process. I meet 
formally, at a minimum of every three months, with our Canadian 
counterparts to make further progress on implementing the Smart 
Border initiatives.
    Ms. Slaughter. I hear that NEXUS is not going well, that 
not enough people know about it or are applying for it. That is 
a concern, but another concern I have because we have an 
extraordinary number of recreational boaters between our border 
and Canada and particularly on the Great Lakes. And my 
understanding from them is, that with the system as it stands 
now, that should they be in the water when an Orange Alert is 
declared, that they cannot go back to their home port without 
the ability to be seen by a Customs or INS office, which is 
going to be extremely difficult in the case of the Rochester 
area, which I also represent. They might have to go as far away 
as Alexandria Bay to accomplish that. That may not sound so 
drastic, but you can almost walk on the boats in the 
summertime. And it is very important that we can try to 
straighten that out so we do not have an extraordinary 
bottleneck on that.
    We are very much impressed with our Canadian friends. I am 
a member of a U.S.-Canadian Parliamentary group that meets 
every year. We met in May and our Canadian friends gave us the 
assurance that any container of anything coming over from 
Canada into the United States would be declared clean. That was 
comforting to know that they really believe, that they are on 
it, and that they will take care of their side of the border 
and we will take care of ours.
    Mr. Bonner. Absolutely. They have been forthcoming in 
actually taking some actions. I have personally spoken to some 
Canadian Customs and Revenue when we went to Level Orange 
several times. They have initiated some action on their side of 
the border, as you probably know, to do some outbound 
inspections of people and vehicles coming into the U.S., and we 
are very appreciative of what they have done.
    The NEXUS enrollment, we need to do better in the Buffalo 
area. It is doing very well in Blaine, Washington and some 
other areas. We need to work to increase the enrollment and 
perhaps give some greater incentives for people to join into 
that program, and we are working on that.
    Ms. Slaughter. We should because at the best of times the 
bottleneck at those bridges is just an absolute hindrance of 
everything we try to do up there. Truck traffic is enormous, 
and you can wait three or four hours just to try to get across 
that border.
    Mr. Camp. I have just a couple of organizational questions. 
There is now two agencies with the word customs in them, 
Customs and Border Protection and Immigration and Customs 
Enforcement, and I wonder, just briefly, how the two agencies 
are working together to make our borders safer.
    Mr. Bonner. It is very important that they work together 
and the links maintain because there are interrelationships 
that result from essentially the trifurcation of the INS, which 
was abolished under the Homeland Security Act. But here is what 
we have done: on March 1st, or very shortly thereafter, we 
proposed and implemented, a permanent working group between 
Customs and Border Protection on the one hand, which inherited 
about 55 percent of all of the INS employees--over 20,000--and 
BICE, which is the Bureau of Immigration and Customs 
Enforcement, which has the special agent criminal 
investigators, including those that were in U.S. Customs--3,000 
or so--went over to BICE in the Interior/Immigration 
Enforcement functions. For certain issues it is important to 
include within this yet the third bureau, which is the Bureau 
of Citizenship and Immigration Services. So we also have, in 
addition to the working group between BICE or CBP or Customs 
and Border Protection, a trilateral that includes BCIS.
    We identify these touchpoints between these two, or in the 
other case three, agencies that we make sure have the 
coordination mechanisms that are required and needed to make 
sure that we are moving forward in a coordinated way, 
particularly with respect to what I will call legacy 
Immigration issues. That is essentially what we have done.
    Now, also within the Department you have oversight of, at 
least at the Departmental level, an ability to coordinate any 
issues that arise, that required a coordination between what we 
would call, I guess, the legacy INS pieces that are now in the 
Department of Homeland Security.
    Mr. Camp. I also know the administration's fiscal 2004 
budget proposed and outlined a reorganization plan that created 
Homeland Security Regional Offices, and years ago Customs had a 
regional system that was disbanded because of the problems with 
standard enforcement. And I was wondering, are there any plans 
that you have to reorganize the Bureau of Customs and Border 
Protection based on a regional organizational model? And if you 
do, could you address the uniformity issue that I think caused 
for disbanding of these regional offices in the past?
    Mr. Bonner. You are absolutely right. I mean Customs at one 
point actually 10 years ago or so had six or seven regional 
offices, do not hold me to it, with a regional commission. That 
was thought, and I think correctly so, to be something that did 
not promote, let's say, the efficiency that a national-level 
organization needs to make sure that their uniform rules are 
applied at the ports of entry, and there are over 300 ports of 
entry into the United States, land border, seaports and the 
like. So they were gotten rid of. I have no plans to 
reorganize.
    U.S. Customs had a structure in which there were 20 
Directors of Fields Operations throughout the country that 
oversaw some of the 300 or so ports of entry. And it is a short 
chain of command, right into headquarters and to the Assistant 
Commissioner of Field Operations, who reports to me. I do not 
contemplate changing that structure.
    Now, having said that, at the Department level, there is 
some consideration being given, and I do not believe any 
decisions have been made, but some consideration being given to 
what kind of structure should the Department itself have 
regionally. And that is an issue I know that is being looked 
at, but I do not believe, at this juncture, that any decisions 
have been made with respect to what that structure would look 
like and how the component agencies or bureaus, like Customs 
and Border Protection, would fit into that structure. I believe 
it is something being looked at. I do not believe any decisions 
have been made.
    Mr. Camp. Thank you very much. The gentleman from New 
Jersey may inquire.
    Mr. Pascrell. Commissioner, I have to say that I wish that 
the other areas, many of the other areas under the jurisdiction 
of Homeland Security would have made the progress I believe you 
have made. Your folks from Customs have come into New Jersey on 
three different occasions and done a terrific job. There is a 
real honest synergism there. They are not afraid to say this is 
what they need, because that is our job to do what we possibly 
can and not give them lip service. We have done that a lot. 
That is not for you to answer. That is for me to say.
    I think they have done an excellent job. They have been 
candid. They have been professional, and I like working with 
them. We had a major problem in this country with the large 
trucks that were coming in from Mexico before 9/11. In fact, 
Congress addressed that issue and then the administration 
addressed that issue. The administration's solution to the 
problems that were occurring and the recommendations to 
precipitate commerce was to allow the trucks to go beyond the 
20-mile radius over the border. Some of us agreed with that; I 
did not; many of us did not.
    Now, we have gone through that policy change, and I want 
you to tell us, honestly, what you think has happened and has 
that made your job any more difficult now that these trucks, 
many of which cannot pass muster, you know that many of them 
are driven by unlicensed drivers, these trucks have not been 
inspected in God knows when, has that made your job any more 
difficult?
    Mr. Bonner. The main concern that I have as Commissioner 
for Customs and Border Protection is the ability to conceal 
terrorist weapons to be sure, but also illegal drugs and even 
potential aliens. When I say that, let me hasten to add that 
the utterly deplorable deaths of 19 illegal migrants in Texas, 
that truck did not come through the border. They came across in 
ones and twos, and then a tractor trailer truck picked them up 
in Harlington, Texas and put them in a situation where some of 
them suffocated.
    But having said that, look, we are concerned about the 
ability to bring in illegal drugs and other contraband and the 
like. I was just down in Nogales, Arizona just about a week 
ago, and the question of the safety of these Mexican trucks is 
a question for the Federal Transportation Safety 
Administration. And I do not believe these trucks are actually 
going through yet. So I have heard there is a change of policy, 
but, it looks like they are still switching trucks within the 
20-mile radius right now. Ultimately, you are asking me the 
question are these trucks safe. It is the job of the Federal 
Transportation Security Administration to make sure they are 
safe, that the brakes are safe, that the drivers are trained 
and the like, and it is important that we do that for the 
safety of our highways and the safety of our people.
    Mr. Pascrell. It seems to me, Commissioner, there is a 
contradiction here that we have been so concerned with folks 
that--who, particularly, have their origin from other 
countries, and at the same time allowing these vehicles to 
liberally come through our boarders. We do not know what is in 
those trucks. We know that the DEA and Customs have found, in 
many cases, in vegetable trucks that have come over the border 
that they have been able to examine, only two percent of them, 
and have found contraband in the middle of lettuce or whatever. 
And yet we are worried about a few people coming across the 
border, and we should be because we want to know who is coming 
into this country; we have every right to know that. Because of 
their country of origin, we give them a more difficult time 
than anybody else. To me it does not make any sense. I would 
like you, if not today, to give us a report on that, if you 
would, through the Chair. I think we deserve to know who and 
what is coming across the border.
    Mr. Bonner. I would be happy to do that. I would make the 
point, the critical point, in terms of smuggling of drugs or 
contraband, is the truck passing through the port of entry? 
With all due respect, we inspect more than two percent of those 
trucks.
    Again, it is a risk-management basis. We do not inspect all 
of them, but we do inspect a larger percentage of that, and we 
do it based upon an analysis of drug smuggling, sometimes with 
some specific intelligence from the DEA, but frequently most of 
the illegal drugs that are seized by Customs are based upon our 
efforts at the southwest border. Customs seizes about one 
million pounds of drugs, a lot of that is marijuana, every year 
coming across the Mexican border. Last year it was a million 
pounds. If you add the Border Patrol between the ports of 
entry, that is another million pounds. It was two million 
pounds of illegal drugs coming across the Mexican border that 
we seized.
    Mr. Pascrell. One more question.
    Mr. Camp. The gentleman's time has expired.
    We will try to go to another round, and you will have two 
minutes at that time, but there have been a lot of members with 
a lot of questions.
    Commissioner, thank you for the generosity of your time, 
and we are going to do another round. It will be two minutes 
each so it will move a little more quickly.
    At this time, I yield to the ranking member from 
California, Ms. Sanchez.
    Ms. Loretta Sanchez of California. Commissioner, I have one 
quick question, and then I want to get to the U.S. VISIT that 
you did not get a chance to answer in the first round.
    First of all, has the seaside caught a container yet that 
contained a terrorist weapon or a precursor?
    Mr. Bonner. I would not say a terrorist weapon, certainly, 
in the sense of a weapon of mass destruction, but we have 
intercepted, through CSI, a shipment of automatic weapons. We 
have intercepted and identified and intercepted some other 
things that were contraband. By the way, I am not here saying 
they were related to a terrorist group. But I do think that, to 
some degree, they do demonstrate the efficacy of having a 
system where you are targeting and actually screening cargo 
containers.
    Ms. Loretta Sanchez of California. Maybe you could give us 
a one or two-page report of some of the types of things that 
you have found that have been somewhat alarming with respect to 
cache of weapons or what have you, so we have a knowledge of 
what you were able to find.
    Mr. Bonner. I will be happy to do that.
    Ms. Loretta Sanchez of California. I want to go back to the 
U.S. VISIT because in your testimony before the House 
Appropriations Subcommittee, you discussed that program and you 
testified that you have U.S. VISIT in the budget for BCBP, but 
you do not have programmatic control. So if you do not have 
control over the program, then why is it in your budget? That 
is my first question, and the second question would be, the 
House Appropriations Subcommittee actually downgraded the 
amount of monies going towards U.S. VISIT by about $130 million 
because $375 million previously appropriated that still remains 
available has not been used and because the Department of 
Homeland Security has been very slow in providing a 
comprehensive spending plan for that, if it is such a high-
priority program. If Secretary Ridge said that it would be done 
by the end of this year, why is there no comprehensive spending 
plan, when will one be completed and can you commit, today, to 
a specific completion date? Thank you.
    Mr. Camp. Commissioner, if you could answer briefly so we 
can get to the other questions.
    Mr. Bonner. Let me tell you that the Secretary, I know, is 
committed to implementing U.S. VISIT. The budget for that has 
been shifted because I do not own the program at Customs and 
Border Protection. Obviously, my agency will be involved in how 
it is designed and built and will be the ones that will be 
doing a lot of it in terms of people at least entering the 
United States. So the budget has been shifted. I do not know 
the status of the spending plan on that and where that is and 
whether that has been submitted or not. I would be happy to 
check for you, and I will look into it, but I do not know the 
status here today.
    Ms. Loretta Sanchez of California. Who would we talk to? 
Who is responsible for it?
    Mr. Bonner. As I understand it, pragmatically the U.S. 
VISIT program is being developed within the Border and 
Transportation Security Directorate of the Department. And, 
specifically, Jim Williams and Bob Mockney are the two key 
program guys, people that are putting together and developing 
the program. And as you know, the goal is to at least have the 
capability of doing entry at U.S. international airports and 
seaports by the end of this year, calendar year I might note. 
So I know that the Secretary is strongly committed to this.
    Ms. Loretta Sanchez of California. If you can find out and 
we will ask also from our end. I just want to know, how is it 
being spent, when is it getting done, what is the plan for? 
Thank you very much.
    Mr. Bonner. We will do that. Thank you.
    Mr. Camp. Thank you very much. The gentleman from 
California may inquire.
    Chairman Cox. Thank you, Mr. Chairman. Just on behalf of 
Congressman Lamar Smith, who had to leave, he asked me to 
follow up with a question regarding the Treasury regulations 
that he inquired about. Did the Department of Homeland Security 
comment on those proposed regulations in the interagency 
process?
    Mr. Bonner. I can tell you this, Mr. Cox, I did not 
directly participate in those, either as Customs when it was in 
the Treasury Department or since it has gone to the Department 
of Homeland Security. I assume that the Department of Homeland 
Security, at some level, participated in the interagency 
process to comment on the position taken by Treasury and 
adopted. But as I sit here, I do not know the answer. I will 
find out for you and be happy to submit it for the record.
    Chairman Cox. Do you know which part of the Department 
would be responsible for commenting on the proposed 
regulations?
    Mr. Bonner. I would think a personal counsel would be 
involved in that process and given that, essentially, these 
were an issue of whether to accept a form of identification 
with respect to vis-a-vis financial institutions in the United 
States banks and so on, I would think that, the policy 
component of the Department of Homeland Security would have 
been involved in considering and thinking about those things 
and formulating a position for the Department. But I am 
speculating a bit, Mr. Cox, I have to tell you.
    Chairman Cox. Unless I am mistaken, I see this as an issue 
of identify forgery, and I take it that that falls within the 
Bureau of Customs and Border Protection responsibility.
    Mr. Bonner. We are not accepting this card as proof of the 
identity for purposes of getting into the United States. That 
was not the issue, as I understand it, that was being asked on. 
It was really whether or not U.S. financial institutions could 
use this as a form of identifying individuals that are quite 
possibly or maybe illegally residing in the United States for 
purposes of opening up a bank account and establishing an 
identity.
    Chairman Cox. But is the use of fraudulent identification 
and identify forgery something that the Department of Homeland 
Security and you are concerned with?
    Mr. Bonner. Absolutely.
    Chairman Cox. Where in the Department is that? Is that not 
with you?
    Mr. Bonner. We are particularly concerned about that on a 
number of levels. Obviously, part of the point of US VISIT is 
to incorporate a biometric to establish identity with respect 
to at least nonimmigrant aliens that are entering the United 
States and being able to determine when they are exiting. I 
guess on another level, U.S. Immigration inspectors, which are 
now part of Customs and Border Protection, have always been 
concerned, and we continue to be concerned, with respect to 
document fraud. These are entry documents. These are fraudulent 
passports. These are fraudulent U.S. visas and the like that 
someone might attempt to use to gain entry into the United 
States.
    Chairman Cox. Mr. Chairman, I know we are on a two-minute 
string here, so I will request on behalf of Mr. Smith, that the 
Department, in whatever form, either through you or some other 
appropriate exponent, let the committee know, subsequent to the 
hearing, in writing, what position the Department did take, 
because I infer from your response that the Department did take 
a position and, Mr. Chairman, I would just observe that our 
concern, from a homeland security standpoint, is people 
transiting through Mexico in this case. They do not need to be 
Mexicans. In fact, by all indications, we have the whole world 
to be concerned with. But if someone can use documentation that 
is formally approved by the United States Government to 
establish bank accounts, if they have driver's license, if they 
have bank accounts, they can get credit cards, they can 
fabricate an entire identify, they can move money around. This 
is something about what is, the reason Treasury is so concerned 
about movements of money among terrorists. It is one of the 
ways that we have to get after them. So the fact that this 
relates, as you say, merely to the establishment of bank 
accounts, does not seem to me to leave it out of the orbit of 
what we should be concerned with here.
    Mr. Bonner. I know what the debate is, and I have some 
views here. Mr. Cox, I do have to say one thing just to be 
perfectly accurate, and that is I assume the Department of 
Homeland Security took a position on this. I do not know that 
for a fact. I did not participate in it any way. I just assumed 
that.
    Chairman Cox. Of course, if there is no position taken, and 
there is no position of the Department that would be a suitable 
response.
    Mr. Camp. Does the gentleman from New York seek to inquire? 
The gentleman is recognized for two minutes.
    Mr. Sweeney. Mr. Chairman, thank you for the time. I 
apologize for being late. I just got back into town. 
Commissioner Bonner, welcome. I have a number of other 
questions that I will submit for the record, and I will seek 
unanimous consent at the appropriate moment to have a statement 
read into the record.
    I represent a district greatly impacted, if not indeed 
directly impacted, by northern border issues. I see my friend 
Ms. Slaughter here. We share a lot of common concerns and 
interests. And I suppose the first, as one who has advocated 
for a number of years improvement of northern border 
facilities, as it relates to both security and as it relates to 
economic needs, I am wondering if you could very briefly give 
me a general statement on your view of the northern border 
issues, especially northern New York border issues, in terms of 
reducing wait times and the need for improvements and 
infrastructure and facilities.
    Mr. Bonner. It clearly became more important to increase 
our security posture with respect to our northern border, but 
we have been attempting to do so with, I think, considerable 
success bilaterally with Canada. We are not putting all the 
security at the physical border itself which would choke off 
the flow of trade across that border and the legitimate people 
who want to move back and forth across that border. So there is 
a threat. We saw that threat very dramatically. My formative 
experience as Commissioner of Customs, I was here on 9/11, that 
was horrendous. My formative experience was September 12, 13 
and 14, when we were developing the 10 to 12-hour wait times at 
our northern border at the Ambassador Bridge over in Detroit 
and the Peace Bridge and other places along our border. We have 
been adding personnel, staffing and technology to do better 
detection and to be able to essentially meet these twin goals I 
described of both adding the security we need with respect to 
our mutual border with Canada.
    Mr. Sweeney. If I could interrupt, since I am limited in 
time. I ask unanimous consent to submit for the record a 
statement and other questions.
    Mr. Camp. Without objection.
    Mr. Sweeney. You talked about the multinational 
multijurisdictional approach. How do we handle, there is a 
situation in upstate New York relative to the Saint Regis 
Indian Reservation and the notion of who has jurisdictional 
authority. The State folks say it is the Feds. The Feds say it 
is the State and or the Indians. The Indians have, to varying 
degrees, been involved or not involved in the coordination of 
that. Can you tell us what you have done, what Customs has 
done, to better obtain a handle on that situation and 
circumstance?
    Mr. Camp. The gentleman's time has expired. If you could 
answer briefly so we can get to other questioners.
    Mr. Bonner. I believe this is what I call the Akwesasne 
Reservation in New York. It is a big security hole in our 
border both for smuggling and potential terrorists. We are 
working with the Canadians to try to shore that up. We are 
trying to add additional Border Patrol resources to the 
northern border to give us a better security perimeter and to 
be in a better position to better secure what is an area of 
vulnerability.
    Mr. Sweeney. I would like a briefing from your staff more 
completely. I know we do not have time here, but if you could 
provide that for me I would appreciate that.
    Mr. Bonner. Okay.
    Mr. Camp. Thank you. The gentleman from Texas may inquire.
    Mr. Turner of Texas. Thank you, Mr. Chairman.
    Mr. Bonner, in your next fiscal year budget are you going 
to need more money or less money to operate?
    Mr. Bonner. I am trying to get my budget gears here. We, of 
course, we have the 2004 budget request in that is the 
President's request. It does involve an increase in resources 
or funding. But if you are looking at the 2005 budget, Mr. 
Turner--.
    Mr. Turner of Texas. Actually, I was looking at the 2004. I 
was wondering if, under your particular jurisdiction, under 
your Bureau of Customs and Border Protection, will you need 
more money, less money, the same money? Which way are your 
needs indicating you need to go?
    Mr. Bonner. Overall, we are looking for some specific 
increases in budget requests. Part of those are, just for 
example, $65 million to fund the Container Security Initiative 
in 2004. There are some additional items that we are seeking to 
fund, Customs Trade Partnership Against Terrorism, it is a 
rather minor amount of funding. It is about $12 million 
additional funding for that, but there are a number of items.
    Mr. Turner of Texas. Are you aware that the Homeland 
Security Appropriations Subcommittee, this last Thursday, 
adopted a budget for your bureau that is a billion dollars less 
than the President's request, and, in fact, would fund you at 
$216 million less than you are currently being funded in this 
fiscal year?
    Mr. Bonner. No, I was not aware of that. The overall 
request, I believe, is pretty close to $6 billion for the 
Customs and Border Protection. I do not believe that represents 
a decrease in the funding levels, but we are-- and the reason I 
hesitate, Mr. Turner, just so you know, is that we are taking 
Customs or most of Customs and then we are integrating and 
unifying in it the Border Patrol and other parts of the INS and 
even part of the Department of Agriculture. I am not saying you 
are wrong either. My understanding is not that we were getting 
a decrease, but that we certainly have initiative requests that 
are in the order of $330 million more or less for initiatives 
under the President's request for the 2004 budget for the 
Customs and Border Protection.
    Mr. Camp. Thank you. The gentleman from Massachusetts may 
inquire.
    Mr. Markey. Thank you, Mr. Chairman.
    I am very concerned about radioactive packages being 
illegally shipped to the United States by terrorists. In 
January of 2002, FedEx shipped a 300-pound package containing 
9,400 curies of radioactive iridium-192 from Paris to 
Louisiana. For some reason, the radiation leak went undetected 
by officials at both U.S. Customs and FedEx. Obviously, this 
raises serious questions. And you and I have had a series of 
letters and correspondence over the last year and a half on 
this subject. In one of these letters, you told me that you 
were going to seek funding for nonintrusive-radiation-detection 
technology that would be able to screen all packages for 
nuclear radioactive materials coming into the United States. 
Where are we now, a year later after you responded to me, that 
you would put that program in place?
    Mr. Bonner. Well, we are a long way down the road in terms 
of radiation detection capabilities from where we were a year 
ago in a number of ways. One is we have added literally 
thousands of radiation detection devices. These are personal 
radiation detection devices so that now--.
    Mr. Markey. Actually, in an earlier letter to me, you told 
me that the personal radiation devices did not work and that 
they only respond to directional radiation and that the agents 
wearing them were not in the right location with respect to a 
leaky package, the personal radiation devices would not go off. 
And that was the point of my correspondence with you, that you 
said you were going to actually purchase nonintrusive radiation 
devices to go around the packages. How many of those devices 
have you purchased in the last year?
    Mr. Bonner. If I could complete my answer, Mr. Markey. It 
is a combination of technology that we have added. And first of 
all, gamma detecting radiation devices are effective to detect 
most radiological material, so there is that. We have purchased 
and deployed, now, well over 200 isotope identifiers, so that 
when you get radiation rates, you can actually determine what 
the nature of the substance is through a container or through a 
package to determine whether it is an innocuous radiological 
source consistent with the shipment or whether it is 
potentially weapons-grade material and the like. Thirdly, we 
have purchased and have deployed, now, radiation portal 
detection systems that go beyond simply gamma detection 
capabilities. We have deployed 54 portal radiation devices 
along the northern border. We have a few at seaports and we 
have, working with both UPS and FedEx, we have developed and 
implemented and are in the process of implementing radiation 
detection capabilities with respect to those kinds of air 
couriers.
    Mr. Markey. What percentage of all packages coming into the 
United States are now screened with nonintrusive technology 
like the isotope identifier or the portal monitors?
    Mr. Bonner. Well, virtually 100 percent of all of the 
packages--well, I take that back because, if you are using a 
portal radiation device, you have to be in proximity to the 
material. That means you have to have sorted it out in some way 
to do it. You started off with talking about express couriers 
and their packages, and I do not know that you are limiting it 
to that, but they are putting in place, and I will get you 
exactly where it stands, but they are putting in place systems 
that will screen 100 percent of the packages that are moving 
through FedEx and United Parcel Service. We have also 
established radiation detection devices at the mail facilities, 
so that we are screening now 100 percent of packages that are 
coming in through our international mail facilities. And, as I 
said, we are in the process of rolling out beyond these 
personal radiation detection devices, portal detection devices 
at many of the prominent land border points of entry into the 
United States. And by the way, when you do that, you get 100 
percent screening for radiation.
    Mr. Markey. Thank you, Mr. Chairman.
    Mr. Camp. The gentleman from Arizona is recognized for two 
minutes.
    Mr. Shadegg. Thank you, Mr. Chairman.
    Commissioner Bonner, thank you very much for being here and 
for your efforts to protect our Nation's border. I want to 
apologize for being late. My plane just landed, so I could not 
be here for all of your testimony.
    As a representative of a border State, I have grave 
concerns about our borders. And I represent Arizona, and along 
with my colleague Mark Souder, who chairs the Subcommittee on 
Border Security on the Government Reform Committee, I have 
spent a lot of years on the Arizona/Mexico border but also on 
our other borders looking at the drug issue and other issues 
since 9/11.
    I am, as I think you know, also intensely interested in the 
Shadow Wolves Program. I have spent some time with them and 
seen them in operation. I am very impressed with them. And we 
will have an opportunity to discuss that tomorrow, but I would 
hate to lose that capability.
    What I would like to discuss with you today is the issue of 
unmanned aerial vehicles. As you know, Secretary Ridge was 
before this committee several week ago and indicated his desire 
to support and implement, as soon as this summer, a pilot 
program on unmanned aerial vehicles for use along our borders 
to deal with how porous they are. I am intensely interested in 
that. The entire Arizona Delegation has expressed, in writing, 
its support for such an effort. Our border, I think, is, quite 
frankly, out of control. You were recently at the Arizona/
Mexico border; is that right?
    Mr. Bonner. I was down in Nogales, both sides.
    Mr. Shadegg. Did you go east or west?
    Mr. Bonner. I was in the Sonoran Desert. I went out about a 
hundred miles west to a Border Patrol camp that is in the 
middle of the Sonoran Desert.
    Mr. Shadegg. So you went west of Nogales?
    Mr. Bonner. Yes.
    Mr. Shadegg. You saw a very porous section of the border 
where we have an Indian reservation on one side that actually 
crosses the border. We also have a national park. In that 
visit, were you convinced that UAV's are a viable option or are 
at least an important strategy?
    Mr. Bonner. I am convinced we need better detection 
capabilities and UAV's may well be a good answer for stretches 
of the border where we do not have sensors, enough sensors and 
detection capability. The same may be true at the northern 
border, but I do need a specific brief, which I will be getting 
in the next week or two, with respect to how UAV's would fit in 
and what their capabilities are, what kind of UAV's would be 
best and also a cost comparison between the UAV's and operating 
and maintaining them, as opposed to let's say using 
conventional helicopters and the like.
    Mr. Shadegg. The helicopters we have and use but they are 
so expensive to operate that we cannot keep them in the air 
very long, so they do not fulfill, I think, the real need.
    Who will be giving you that brief, if I might ask, and who, 
in your Department, is in charge of UAVs at this point?
    Mr. Bonner. Primarily the part of Customs and Border 
Protection that is specifically looking into this issue for me 
is the Border Patrol with our Applied Technology Division, 
which is part of our Office of Information Technology. But we 
are going to go to the military. And, by the way, I do believe 
that it will make sense to do some sort of pilot as soon as we 
can do that, and we will be working with the military and JTF-
6, which is out of El Paso to pilot and actually demonstrate 
the capabilities of the UAV for better detection capability in 
terms of the movement of people entering unlawfully into our 
country, illegal aliens as well as drug smugglers.
    Mr. Shadegg. My time is expired, but could you provide me 
either now, or as soon as you can, the name of someone on your 
staff who would be in charge of assessing UAV's, can you do 
that?
    Mr. Bonner. I can do that.
    Mr. Camp. Thank you. The gentleman from New Jersey.
    Mr. Pascrell. Commissioner, the Border Patrol says it needs 
11,700 people on the border. Therefore, we are 2,200 agents 
short. What are you doing it--.
    Mr. Bonner. I just inherited the Border Patrol on March 
1st. The first thing I did was to tell them we need, as a 
minimum, 1,000 Border Patrol agents on the northern border. 
That is being implemented right now.
    I am looking at the overall question of what is the need, 
and, by the way, it is the combination of things like sensor 
technology, air surveillance, whether that is unmanned or 
manned, as well as staffing. I do not know exactly what that 
number is, and I do not know where that 11,700 number comes 
from.
    Mr. Pascrell. It comes from the Border Patrol.
    Mr. Bonner. Yes, but when it came from the Border Patrol--
the Border Patrol is now part of Customs and Border Protection. 
They were part of the INS on February 28. I am the one, 
ultimately, that will determine what number of additional 
Border Patrol agents are needed and where they are needed. That 
is something I am looking at. By the way, I will tell you, my 
preliminary analysis is we need more Border Patrol agents.
    Mr. Pascrell. I think we do.
    Mr. Bonner. Part of the 2005 budget process will be to work 
this, as I must and should, within the Department and within 
the Administration as to what that number is.
    Mr. Pascrell. One final question. We are establishing a 
database in terms of what comes into this country in the 12 
million containers throughout the major parts of ports of this 
Nation. It is quite obvious we will not examine every container 
that comes into this port. We will profile those that are 
necessary and pull them out and do the examination. Yet, we 
will rely on what other countries are telling us about what is 
being shipped from these those countries. Which countries are 
not cooperating?
    Mr. Bonner. Well, I am not relying upon other countries 
telling us which containers we should look at. I promulgated 
with respect to sea containers, and, by the way, I am in the 
process of looking at promulgating a rule under the Trade Act 
of 2002 for other modes which are air cargo and rail and so 
forth, but we are carrying gathering this information. We have 
a database of information.
    Now, we were getting, in addition to that, through CSI and 
other means, information that is being shared with us by the 
countries that we are partnering with the Container Security 
Initiative. We started essentially a process here with the 
Container Security Initiative of going to every country that 
had one of the largest major container foreign ports that was 
shipping containers to the United States and so far every 
country has been willing to participate wit us.
    Mr. Pascrell. Including China?
    Mr. Bonner. Including China. In fact, the President of the 
China, both Presidents, by the way, President Jiang Jemin last 
October, and, more recently I understand, the President of 
China when he met with President Bush, have committed to 
joining the Container Security Initiative with us. It is very 
important because, as you know, Shanghai is one of the largest 
ports in the world in terms of shipment of cargo containers 
into the U.S. and the other port in China, Yantian, is also a 
very sizeable port, in terms of shipments to the west coast.
    So they have indicated that they are prepared to join with 
us. It is not operational at either one of those two ports now. 
So we have some work to move as promptly as we can working with 
the Chinese Government to get, to actually get, CSI implemented 
in those places. Those are two of the ports we do have not it 
implemented yet and it is very important we get CSI implemented 
in those ports.
    Mr. Pascrell. Thank you very much.
    Mr. Camp. Thank you, Commissioner Bonner, for your 
testimony. We appreciate your time and your statement. This 
concludes Panel I.
    Mr. Bonner. Thank you, Mr. Chairman.
    Mr. Camp. I will now call Panel II. Mr. Richard M. Stana, 
Director Homeland Security and Justice, United States General 
Accounting Office.
    Thank you, Mr. Stana. Your written testimony has been made 
available to the committee members. We have copies of it. It 
will be part of the record, and you have 5 minutes to summarize 
your testimony if you would so like.

 STATEMENT OF RICHARD M. STANA, DIRECTOR OF HOMELAND SECURITY 
      AND JUSTICE, UNITED STATES GENERAL ACCOUNTING OFFICE

    Mr. Stana. Thank you, Mr. Chairman, Ms. Sanchez and members 
of the subcommittee, I am pleased to be here today to discuss 
challenges facing the Bureau of Customs and Border Protection 
as it attempts to balance our Nation's security and commercial 
needs. Addressing these challenges is especially important in 
the aftermath of 9/11 terrorist attacks that changed the 
Nation's security environment and within the context of the 
modern supply chain and its demands for just-in-time inventory 
deliveries. To be sure, BCBPs cargo and traveller-related 
workload is substantial and likely to grow. Last year it 
processed almost 25 million trade imports entries valued at 
over 1.1 trillion dollars. It also processed about six million 
cargo containers arriving at U.S. seaports. Also, its 
inspectors at over 300 ports of entry inspected nearly 450 
million travelers, while the Border Patrol apprehended nearly 
960,000 aliens trying to enter the U.S. illegally between the 
ports of entry. Whether we are talking about cargo or 
travelers, BCBP has long recognized the need to identify what 
and who is high-risk, to do so as early in the process as 
possible, and to target its enforcement efforts accordingly. 
Not only does this enable efficient use of limited enforcement 
resources, but it also minimizes the impact on the flows of 
legitimate trade and travelers.
    My prepared statement outlines the results of our most 
recent work that address BCBP's various cargo and traveller 
inspection programs, as well as the transformation issues posed 
by the creation of DHS.
    In my oral statement, I would like to briefly discuss four 
key challenges that cut across both cargo and traveller 
inspections.
    Mr. Stana. The first challenge involves intelligence. 
Simply put, the more advanced information BCBP has on incoming 
cargo and travelers the better able it is to make a reliable 
risk determination and take an appropriate action. Our work 
shows that more needs to be done to improve the availability of 
actionable intelligence.
    For example, while manifest information on incoming cargo 
has improved in the wake of the 24-hour rule, too often 
inspectors have to rely on incomplete or inaccurate manifest 
data to make inspection decisions. This raises the risk that 
dangerous or unlawful cargo could enter the country undetected. 
As for travelers, many enter at land ports where advance 
manifest information is not available and others attempt 
illegal entry between the ports, sometimes with the assistance 
of smugglers.
    So having reliable intelligence on potentially dangerous 
individuals or smuggling schemes is particularly important. But 
BCBP lacks an integrated, uniform structure in the field to 
gather, analyze and disseminate intelligence information to 
inspectors at land border ports. Moreover, issues regarding how 
the legacy Customs and INS intelligence functions will be 
merged and how the Bureau of Customs and Immigration 
Enforcement intelligence units are to work with BCBP inspectors 
and Border Patrol agents has yet to be fully resolved.
    The second challenge involves staff training. The influx of 
new staff, the emergence of new threats and new technologies 
and the need to learn additional duties in the wake of the DHS 
reorganization underscore the importance of providing timely 
and rigorous training. Yet, neither the former INS nor Customs 
had a standard on-the-job training program for their inspectors 
working at land border ports. Also, inspectors told us the 
increased inspection demand in the post-9/11 environment didn't 
afford them time to take training even if it were offered. In 
particular, some new inspectors told us that the lack of 
training diminished their confidence in their abilities to do 
their jobs.
    The third challenge involves the use of technology. While 
many inspectors over time develop a sixth sense for detecting 
unusual or abnormal behaviors or circumstances that suggest a 
potential threat of unlawful activity, our Nation's security 
should not hinge on this sense alone. Large-scale x-ray 
machines, handheld radiation detection devices and computerized 
data can reduce the need for intensive inspections and help 
detect or verify a potential threat.
    Important as these are, there are limitations. In some 
cases, inspectors told us the equipment can't see all 
potentially troublesome items, yet in other cases, the 
technology simply isn't available. At land border ports 
checking several databases for information about travelers was 
cumbersome and time-consuming.
    The last challenge involves the management controls needed 
to ensure that policies and procedures are well designed and 
implemented. I know that Members' eyes glaze over at the 
mention of internal controls, but all too often important 
things don't get done due to faulty procedures, lack of follow-
through or lack of supervision. For example, we heard that more 
intensive traveler inspections weren't done at some land ports 
because controls over traveler whereabouts and departures were 
inadequate. We also found that supervisors were not walking the 
line to help assure their subordinates were doing their jobs 
correctly, because staff shortages required them to perform 
inspections themselves. And inspector best practices were not 
shared among ports, in part because there was no consistent 
process to assure that such sharing occurred.
    In closing, let me say that BCBP personnel make crucial 
security decisions every day. They stand on our Nation's line 
of defense, and failure to effectively carry out their duties 
would expose us all to potentially very serious consequences. 
BCBP faces numerous and difficult challenges--some are long-
standing like managing cargo and traveler risks, and some are 
new like transforming legacy agencies with preexisting problems 
into a new organization. In the final analysis, its success 
will depend largely on dedicated and sustained leadership and 
management attention to addressing challenges that we and 
others have identified. This concludes my oral statement. I 
would be happy to answer any questions you or other members of 
the subcommittee may have.
    [The statement of Mr. Stana follows:]

               PREPARED STATEMENT OF MR. RICHARD M. STANA

Mr. Chairman and Members of the Subcommittee:
I am pleased to be here today to discuss the longstanding challenge of 
balancing our nation's security and commercial needs, an issue that is 
especially important in the aftermath of the September 11, 2001, 
terrorist attacks that changed the nation's security environment. 
Addressing this challenge now falls principally to the Department of 
Homeland Security (DHS) and its Border and Transportation Security 
directorate. Within this directorate, the responsibility has been 
assigned primarily to the Bureau of Customs and Border Protection 
(BCBP). BCBP consists of the inspections component of the former U.S. 
Customs Service; the Border Patrol and Inspections components of the 
former Immigration and Naturalization Service (INS); and a former 
component of the U.S. Department of Agriculture, the Animal and Plant 
Health Inspection Service (APHIS).\1\
---------------------------------------------------------------------------
    \1\ Following the creation of DHS and its absorption of Customs, 
the Secretary of the Treasury retained authority over Customs' revenue 
functions.
---------------------------------------------------------------------------
Achieving the balance between security and commercial needs is greatly 
affected by BCBP's commercial and border and immigration control 
workload. Regarding commercial workload, in fiscal year 2002, the 
former U.S. Customs Service processed 24.9 million trade import entries 
valued at over $1.1 trillion and collected $23.8 billion in duties and 
fees; it also processed about 6 million cargo containers arriving at 
U.S. sea ports. While the cargo workload has stabilized somewhat as a 
result of the recent global economic slowdown, it is likely to begin 
growing again when an economic recovery is underway at some point in 
the future, thus exacerbating the challenges BCBP faces. Regarding 
border and immigration control workload, in fiscal year 2002, 
inspectors at over 300 ports of entry inspected nearly 450 million 
travelers while the Border Patrol apprehended nearly 960,000 aliens 
trying to enter the U.S. illegally between the ports of entry.
BCBP faces many challenges as it performs its important missions. In my 
testimony today, I make the following points:

<bullet> With respect to cargo, BCBP has attempted to select and 
inspect the highest-risk incoming cargo, while enabling legitimate 
cargo to be cleared in a timely manner. These efforts pose a range of 
challenges, from the availability of threat assessments and actionable 
intelligence to the capability of nonintrusive inspection technology to 
detect potentially harmful contraband. BCBP has made some progress in 
implementing initiatives that are designed to improve the efficiency of 
its regulation of legitimate commercial activities. But, additional 
challenges remain, including the need to improve its trade compliance 
program and to successfully implement its new trade processing 
information system.

<bullet> BCBP also faces many challenges with respect to preventing 
illegal entry by individuals into the United States. These challenges 
impact BCBP's ability to detect and deter illegal entry between ports 
of entry and to identify those individuals who should not be permitted 
entry at the ports. BCBP is faced with continuing to implement its 
southwest border strategy while simultaneously addressing emerging 
concerns over illegal entry along the northern border, mitigating the 
negatives affects the strategy may have on communities, and responding 
to continuing concerns over the safety of aliens who cross in remote 
and desolate areas. At our nation's borders, the challenges include 
detecting false admissibility documents, unifying and enhancing 
inspector training, providing timely intelligence to the field, and 
successfully implementing the new entry-exit system.

<bullet> In our recent Performance and Accountability series report, we 
designated implementation and transformation of DHS as high risk based 
on three factors. First, the implementation and transformation of DHS 
is an enormous undertaking that will take time to achieve in an 
effective and efficient manner. Second, components to be merged into 
DHS, including those forming BCBP, already face a wide array of 
existing challenges, some of which are described in this statement. 
Finally, failure to effectively carry out its mission would expose the 
nation to potentially very serious consequences.
My testimony today is intended to provide an overview based primarily 
on the results of work that we have completed in recent years, namely, 
our Performance and Accountability Series and High-Risk reports related 
to DHS, Justice and Treasury; \2\ DHS's international mail and package 
inspection processes; \3\ DHS's acquisition and deployment of radiation 
detection equipment; \4\ the Border Patrol's southwest border strategy; 
\5\ DHS's spending plans for its planned system to monitor the flow of 
foreign nationals in and out of the United States; \6\ and our 
investigators' efforts to enter the country using fraudulent 
documents.\7\ My testimony also highlights our ongoing work related to 
cargo inspections and individual inspections at land ports of entry.\8\
---------------------------------------------------------------------------
    \2\ U.S. General Accounting Office, Major Management Challenges and 
Program Risks: A Governmentwide Perspective, GAO-03-95 (Washington, 
D.C.: Jan. 2003); Major Management Challenges and Program Risks 
Department of Homeland Security, GAO-03-102 (Washington, D.C., Jan. 
2003); Major Management Challenges and Program Risks: Department of the 
Treasury, GAO-03-109 (Washington, D.C.: Jan. 2003); and High-Risk 
Series: An Update, GAO-03-119 (Washington, D.C.: Jan. 2003).
    \3\ U.S. General Accounting Office, U.S. Customs Service: 
International Mail and Package Inspection Processes at Selected 
Locations, GAO-02-967 (Washington, D.C.: Aug. 2002).
    \4\ U.S. General Accounting Office, Customs Service: Acquisition 
and Deployment of Radiation Detection Equipment, GAO-03-235T 
(Washington, D.C.: Oct. 2002).
    \5\ U.S. General Accounting Office, INS' Southwest Border Strategy: 
Resource and Impact Issues Remain After Seven Years, GAO-01-842 
(Washington, D.C.: Aug. 2001).
    \6\ U.S. General Accounting Office, Information Technology: 
Homeland Security Needs to Improve Entry Exit System Expenditure 
Planning, GAO-03-563 (Washington, D.C.: June 2003).
    \7\ U.S. General Accounting Office, Weaknesses in Screening 
Entrants into the United States, GAO-03-438T (Washington, D.C.: Jan. 
30, 2003) and Counterfeit Documents Used to Enter the United States 
from Certain Western Hemisphere Countries Not Detected, GAO-03-713T 
(Washington, D.C.: May 13, 2003).
    \8\ The cargo inspection work was requested by the House Committee 
on Energy and Commerce. The individual inspections at land ports of 
entry work is being done pursuant to a mandate in the Illegal 
Immigration Reform and Immigrant Responsibility Act of 1996. Since this 
work is ongoing and involves information that BCBP considers to be law 
enforcement sensitive, we are precluded from further discussing it in 
this unclassified statement.

Challenges Related to Cargo Processing
BCBP has undertaken efforts to focus its enforcement on selecting and 
inspecting the highest-risk incoming cargo, while enabling legitimate 
cargo to be cleared in a timely manner. It has a number of initiatives 
underway aimed at improving its ability to identify potentially risky 
cargo for inspection. BCBP and Customs before it have longstanding 
efforts to use information, personnel, and technology to identify such 
cargo. These efforts pose a range of challenges, from the availability 
of threat assessments and actionable intelligence to the capability of 
nonintrusive inspection technology to detect potentially harmful 
contraband. From a trade facilitation perspective, BCBP has made some 
progress in implementing initiatives that are designed to improve the 
efficiency of its regulation of commercial activities. But additional 
challenges remain, including the need to improve its evolving trade 
compliance program and acquire a new trade processing system.

Major Cargo Security
According to the Commissioner of BCBP, the priority mission is to 
prevent terrorists and terrorist weapons from entering the United 
States. This Initiatives important mission means improving security at 
our physical borders and ports of entry, as well as extending the zone 
of security beyond our physical borders. BCBP has a number of 
initiatives underway aimed at improving security, including:

<bullet> Container Security Initiative, which stations BCBP personnel 
in key international ports to examine high-risk cargo before it is 
placed on ships bound for the United States.

<bullet> Customs-Trade Partnership Against Terrorism and the Free and 
Secure Trade Program, which are designed to increase supply chain 
security and expedite the clearance of legitimate trade.

<bullet> Non-Intrusive Inspection technology, which increases the 
ability to detect conventional explosives, nuclear weapons, radioactive 
components, and other weapons of mass destruction.

<bullet> Automated Targeting System, which is used by the National 
Targeting Center and field targeting units in the United States and 
overseas to help target high-risk cargo and passengers entering the 
United States.

We have work underway to review most of these initiatives and will make 
our results available to the Subcommittee as soon as the work is 
completed.

Selecting Highest-Risk Cargo for Inspection
Separating high-risk cargo from low- or no-risk cargo is extremely 
important to BCBP because searching each and every cargo and traveler 
that enters the United States would cripple the flow of legitimate 
trade and travel and would require a huge resource commitment. Over the 
years Customs has recognized that it needed to identify what is high 
risk--and to do so as early in the process as possible--and target its 
limited resources accordingly. To select, or ``target,'' and inspect 
the highest-risk cargoes and travelers, BCBP relies on the use of 
threat assessments and actionable intelligence, the ability of 
inspectors to quickly discover or sense an unlawful cargo, and the use 
of nonintrusive inspection technology to detect potentially harmful 
contraband. Each of these poses challenges to BCBP.

Information is key to identifying high-risk cargo. Such information can 
come from manifests for air and sea shipments, from importers, or from 
intelligence units within or outside DHS. Accurate information can help 
BCBP make reliable risk determinations, particularly when it is used in 
DHS computerized models that help assess cargo risk. Obviously, when 
information or intelligence is incomplete or unreliable, it can 
adversely impact on BCBP's ability to identify potentially risky cargo 
for inspection.

We are currently reviewing how BCBP is targeting cargo for further 
inspection and how such cargo is inspected at ports. In this regard, we 
are reviewing how BCBP developed the model used in targeting, how BCBP 
is handling the targets generated by the model at sea ports, and 
whether and how BCBP intends to evaluate targeting. Since this work is 
ongoing, and involves information that BCBP also considers to be law 
enforcement sensitive, we are precluded from discussing specific 
aspects of this matter in this unclassified statement. However, in the 
broadest terms, our work to date shows that BCBP's targeting efforts 
face a range of challenges relating to threat assessments, actionable 
intelligence, and nonintrusive inspection technology.

Having sufficient numbers of well-trained and motivated staff is also 
key to identifying high-risk cargo. Inspectors and canine officers are 
trained to detect unusual or abnormal behaviors or circumstances that 
suggest a potential threat or unlawful activity. Many have developed a 
``sixth sense'' in that they pick up on latent clues and unconnected 
information. Nevertheless, these inspectors are challenged by the tight 
timeframes and pressures they work under to move legitimate cargo 
through the ports.
Our recent work on the inspection of international mail showed that 
relying on inspectors alone can increase the risk that contraband 
enters the country. The inspection of incoming foreign mail remains 
largely a manual process that relies primarily on physical examination. 
We found several challenges relating to this process, but BCBP's 
determination that our results were law enforcement sensitive precludes 
our discussing them here. However, at the time our work was completed, 
one courier was working with the former Customs Service to pilot test 
an advance manifest system--a computerized database that receives cargo 
manifest information. The database is intended to allow Customs to 
analyze incoming package information and make more informed decisions 
about what packages to inspect.

In addition to information and staff, technology provides for a more 
effective and efficient process. Large-scale x-ray and gamma-ray 
imaging systems, portal radiation monitors, and portable and hand-held 
radiation detection devices can reduce the need for costly, intensive 
inspections and save inspection time and resources.

As important as the use of technology is, there are certain limitations 
and challenges that need to be considered. For example, we reviewed 
Customs' acquisition and deployment of radiation detection equipment. 
We found that some of the radiation detection equipment being used--
radiation pagers--have a limited range and are not designed to detect 
weapons-usable nuclear material. Furthermore, experts we contacted did 
not view pagers as search instruments but rather as personal safety 
devices. We plan to report later this summer on BCBP's acquisition and 
deployment of radiation detection equipment.

Assuring the Timely Flow of Legitimate Cargo
In trying to achieve the commercial-security balance, BCBP is 
challenged to ensure that antiterrorism efforts do not slow the flow of 
legitimate international commerce and travel. According to BCBP, it has 
worked with importers on concerns such as where their goods originated, 
the physical security and integrity of their overseas plants and those 
of their foreign suppliers, the background of their personnel, the 
means by which they transport goods, and those who they have chosen to 
transport their goods into the country. BCBP has reaffirmed to 
importers the importance of knowing their customers and has examined 
the security practices of their freight forwarders and the routes their 
shipments travel.

Although BCBP has made some progress in implementing initiatives that 
are designed to improve the efficiency of its regulation of commercial 
activities, additional challenges remain, particularly in view of the 
new and heightened emphasis on terrorism. These challenges include (1) 
continuing to improve its evolving trade compliance program and (2) 
acquiring a new trade processing system.
Implementing the Customs Modernization Act
Although tempered recently by the global economic slowdown, growth in 
the volume and value of imports continues to create profound challenges 
for BCBP to facilitate and enforce U.S. trade laws and regulations. The 
volume of trade is expected to surpass $2 trillion in the year 2006. To 
speed the processing of imports and improve compliance with trade laws, 
specifically, the Customs Modernization and Informed Compliance Act of 
1993 (also known as the ``Mod Act''),\9\ BCBP's predecessor, Customs, 
developed an ``informed compliance strategy.''
---------------------------------------------------------------------------
    \9\ P.L. 103-183, title VI. The Mod Act fundamentally altered the 
relationship between importers and, at the time, Customs by giving the 
importer the legal responsibility for declaring the value, 
classification, and rate of duty applicable to merchandise being 
imported into the United States. Customs, however, is responsible for 
determining the final classification and value of the merchandise. The 
Mod Act also gave Customs and importers a shared responsibility for 
ensuring compliance with trade laws.

In 1999, we recommended that the Customs Service develop and implement 
an evaluation of the effectiveness of its informed compliance strategy. 
Customs agreed with our recommendation and completed its Trade 
Compliance Strategy Study on May 24, 2001. The study indicated that the 
strategy improves compliance, but the impact on overall compliance 
rates is small. For example, one initiative, the Company Enforced 
Compliance Process (CECP), was to address large importers' 
noncompliance that had a significant negative impact on the overall 
national compliance rates. According to the study, Customs was to 
punish noncomplying companies by imposing ``confirmed risk'' 
designations, increasing examinations, removing privileges, and 
referring for penalties. However, the confirmed risk status was only 
used six times, and loss of privileges and referral for penalties were 
never used. The study concluded that CECP was not much of an enforced 
---------------------------------------------------------------------------
compliance process, and it was discontinued.

On the other hand, the study found that the companies' compliance rates 
increased after they participated in the other initiatives such as 
compliance assessment and account management initiatives. While it is 
not possible to attribute the increase in compliance totally to these 
initiatives, the study concluded that these programs had a positive 
impact.

Acquiring a New Trade Processing System
Customs' ongoing effort to acquire a new trade processing system is key 
to modernizing how Customs tracks, controls, and processes all 
commercial goods imported into and exported out of the United States. 
This large and complex system, known as the Automated Commercial 
Environment (ACE), is expected to cost about $1.7 billion and is to 
replace Customs' antiquated system. Expected benefits from ACE include 
speeding the flow of legitimate commerce into and out of the United 
States, identifying and targeting high-risk commerce requiring greater 
scrutiny, and providing a single interface between the trade community 
and the federal government for trade data. In April 2001, Customs 
awarded a 5-year contract, with options to extend the contract to not 
more than 15 years, to a system integrator responsible for developing 
and deploying ACE.

Successfully managing a project as large and complex as ACE is a 
challenging undertaking. Over the last 4 years, we have reported on ACE 
and recommended steps Customs needed to take to minimize project risks. 
To its credit, Customs has taken action to implement our 
recommendations, as follows:

<bullet> We recommended Customs incrementally justify the ACE 
investment. Customs defined and committed to implement process controls 
for justifying and making ACE investment decisions incrementally. After 
implementing the first ACE release, Customs plans to verify that actual 
costs and benefits meet expectations and plans to continue this 
incremental investment approach for the remaining ACE releases.

<bullet> We recommended Customs ensure ACE alignment with its 
enterprise architecture. Customs ensured that its enterprise 
architecture contained sufficient detail to build the first ACE release 
and has aligned the release with the enterprise architecture. Customs 
plans to continue to extend its enterprise architecture as necessary to 
build subsequent ACE releases.

<bullet> We recommended Customs have sufficient human capital 
resources. Customs developed and plans to implement a human capital 
management strategy for the Customs modernization office, which is 
responsible for managing the ACE acquisition.

<bullet> We recommended Customs develop rigorous and analytically 
verifiable cost estimating. Customs began developing and plans to 
implement a cost-estimating program that employs the tenets of 
effective cost estimating as defined by the Software Engineering 
Institute (SEI).

<bullet> We recommended Customs employ effective software acquisition 
processes. Customs continues to make progress and has plans to 
establish effective software acquisition process controls, as embodied 
primarily in the second level of SEI's Software Acquisition Capability 
Maturity Model.\10\
---------------------------------------------------------------------------
    \10\ Capability Maturity Model SM is a service mark of Carnegie 
Mellon University, and CMM is registered in the U.S. Patent and 
Trademark Office. The SA-CMM identifies key process areas that are 
necessary to effectively manage software-intensive system acquisitions. 
Achieving the second level of the SA-CMM's five-level scale means that 
an organization has the software acquisition rigor and discipline to 
repeat project successes.

Customs has made progress in implementing some, but not all, of our 
recommendations. Moreover, because Customs is in the early stages of 
acquiring ACE, many challenging tasks remain before Customs will have 
---------------------------------------------------------------------------
implemented full ACE capability.

Challenges Related to Immigration Control
To prevent illegal entry of individuals into the United States between 
the ports of entry, BCBP has deployed significant resources but 
estimates significantly more are needed. Continued implementation of 
the southwest border strategy faces a range of challenges, including 
meeting hiring goals and obtaining needed approvals to deploy fencing 
and technology to implement its strategy while simultaneously 
addressing emerging concerns over illegal entry along the northern 
border, mitigating the negatives affects the strategy may have on 
communities that experience an increase in illegal alien traffic, and 
responding to continuing concerns over the safety of aliens who cross 
in remote and desolate areas. At our nation's ports, BCBP faces an 
array of challenges, including improving inspectors' ability to verify 
the identity of travelers and whether they can be admitted into the 
country, unifying and enhancing inspector training, and complying with 
the congressional mandate to implement a system to track the entry and 
exit of all aliens.

Deterring Illegal Entry between the Ports of Entry
Deterring illegal entry between the nation's ports of entry will 
continue to be a challenge for BCBP. In previous work, we reported that 
the Border Patrol had estimated that significantly more resources would 
be needed to fully implement its border control strategy and that 
various factors had impeded the Border Patrol's ability to implement 
its strategy as originally planned.
Since 1994, the Border Patrol has been implementing a phased strategy 
to increase deterrence to illegal entry beginning, first, with the 
areas that had the largest influx of illegal aliens. The strategy 
postulated that as resources were applied in one area, the flow of 
illegal alien traffic would shift to other locations along the 
southwest border where resources had yet to be applied.
In our last report on the southwest border strategy in August 2001, we 
reported that the Border Patrol estimated it would need between 11,700 
and 14,000 agents, additional support personnel, and hundreds of 
millions of dollars in additional technology and infrastructure to 
fully implement the Southwest border strategy.\11\ We reported that it 
would take at least 5 more years (until 2006) to reach the minimum 
number of agents the Border Patrol believed it needed along the 
Southwest border if (1) the administration's agent hiring goals at that 
time were maintained and met and (2) all new agents were deployed to 
the southwest border. However, this estimate was made before the 
September 11, 2001, attacks and the subsequent concerns regarding the 
need for additional resources to deter illegal entry along the northern 
border.
---------------------------------------------------------------------------
    \11\ See U.S. General Accounting Office, INS' Southwest Border 
Strategy: Resource and Impact Issues Remain After Seven Years, GAO-01-
842 (Washington, D.C.: Aug. 2001).
---------------------------------------------------------------------------
BCBP continues to face hiring challenges to meet its estimated needs. 
The Border Patrol currently has about 9,500 agents deployed along the 
southwest border. While nearly a 3-fold increase from the 3,400 agents 
the Border Patrol had along the southwest border in 1994, it is still 
about 2,200 agents short of the minimum number, 11,700, the Border 
Patrol said it needed to fully implement the southwest border strategy. 
Currently, the Border Patrol has 567 agents deployed along the northern 
border.

We also reported on various factors that had impeded the Border 
Patrol's ability to implement its strategy, some of which still appear 
to be problematic. For example, it had taken the Border Patrol longer 
to implement the strategy than originally planned because, among other 
things, the Border Patrol experienced difficulties hiring agents and 
delays in obtaining approvals needed to deploy technology and build 
fences.

The Border Patrol also recognized the need to make outreach efforts to 
communities because its initial failure to warn some communities about 
anticipated increases in illegal alien traffic caught community 
officials by surprise and angered some residents due to the negative 
effects the increased traffic had on the community. When apprehensions 
surged in communities into which the illegal alien traffic was 
reportedly pushed, officials and residents in one community reported 
experiencing loss of business, destruction of private property, and 
environmental degradation. Concerns have been raised over the 
environmental impact of current plans to build additional fencing along 
the border in Arizona. A recent news article described how some local 
residents in the border area southwest of Tucson, Arizona, are 
patrolling the border to report illegal crossings raising the concern 
of law enforcement officials. The Border Patrol has realized its goal 
of shifting illegal alien traffic away from urban areas into more 
remote areas. However, rather than being deterred from attempting 
illegal entry, many aliens have instead risked injury and death by 
trying to cross mountains, deserts, and rivers. This prompted the 
Border Patrol to implement a Border Safety Initiative consisting of, 
among other things, a media campaign to warn aliens about the dangers 
of crossing illegally, as well as establishing search-and-rescue units.
We further reported in August 2001 that although alien apprehensions 
had shifted along the border as expected, overall apprehensions along 
the southwest border had continued to increase to over 1.6 million in 
fiscal year 2000--raising questions about the strategy's effect on 
overall illegal entry along the southwest border. However, since then 
apprehensions along the southwest border have declined to less than 1 
million in fiscal year 2002.
While there may be many reasons for the decline in apprehensions, in 
response to our recommendation, the Border Patrol has developed a plan 
designed to evaluate the impacts of its southwest border strategy. 
However, the evaluation has yet to be completed.

Preventing Illegal Entry at Ports of Entry
Our recent work at ports of entry and our ongoing work specifically at 
land border ports, indicate that BCBP inspectors continue to face 
challenges that those from their predecessor agencies also faced in 
balancing the need to identify violators of immigration and other laws 
while facilitating the movement of lawful travelers. Today, I will 
touch on several issues relating to the inspection of entry documents, 
inspector training, intelligence information needs of the field, and 
BCBP plans for implementing the U.S. Visitor and Immigrant Status 
Indication Technology system, known as the U.S. VISIT system.

Determining Traveler Admissibility
At land border ports of entry, inspectors must quickly make decisions 
about whether to admit a traveler into the United States or refer 
travelers for more intensive inspection if admissibility cannot be 
readily determined. Two of the factors that challenge inspectors' 
ability to verify the travelers' identity and admissibility are that 
(1) some travelers may enter the United States without having to 
present a travel document and (2) travelers can present a variety of 
documents to gain entry into the United States, some of which can be 
easily counterfeited.

First, some travelers do not need to present proof of citizenship at 
the border. U.S. and certain Canadian citizens are exempt from having 
to present any document upon entry. Instead, they can make an oral 
claim of citizenship, if this satisfies the inspector. According to 
immigration data, inspectors at land border ports intercepted nearly 
15,000 people in 2002 who falsely claimed to be U.S. citizens in order 
to gain illegal entry, suggesting an unknown number of travelers 
successfully entered the United States this way.

Second, a variety of documents are accepted at ports, and many can be 
counterfeited or used fraudulently with apparent ease. With nearly 200 
countries issuing unique passports, official stamps, seals, and visas, 
the potential for document fraud is great. A wide variety of documents 
can be presented for inspection--including more than 8,000 state and 
local offices issue birth certificates, driver's licenses, and other 
documents, any of which could potentially be counterfeit. According to 
immigration data, inspectors at land ports intercepted nearly 60,000 
fraudulent documents in fiscal year 2002, including over 10,000 U.S. 
citizenship-related documents. Clearly, others have successfully gained 
access to this country using counterfeit documents. Earlier this year, 
we testified on how our investigators entered the country from Canada, 
Mexico, and Jamaica through land, air, and sea ports of entry using 
fictitious names, and counterfeit driver's licenses and birth 
certificates made using readily available software.\12\ INS and Customs 
Service inspectors never questioned the authenticity of the counterfeit 
documents, and our investigators encountered no difficulty in entering 
the country using them.
---------------------------------------------------------------------------
    \12\ U.S. General Accounting Office, Weaknesses in Screening 
Entrants into the United States, GAO-03-438T (Washington D.C.: Jan. 30, 
2003) and Counterfeit Documents Used to Enter the United States from 
Certain Western Hemisphere Countries Not Detected, GAO-03-713T 
(Washington D.C.: May 13, 2003).

Unifying and Enhancing Inspector Training
BCBP will also face an array of challenges in ensuring that its border 
inspectors are adequately trained, including ensuring appropriate 
training is provided in the detection of fraudulent documents. For 
example, former INS and Customs inspectors are still being trained at 
separate basic training academies using two different curricula. If 
border inspectors are to wear ``one face'' at the border, a unified 
curriculum and training approach will need to be developed and 
implemented. These training challenges will continue beyond the 
academy--BCBP will also need to ensure that a field training program is 
established that meets the needs of the newest as well as experienced 
inspectors at the ports. For example, neither the former INS nor 
Customs agencies had a standard on-the-job training program for their 
inspectors working at land border ports. The prior work I mentioned in 
which our investigators used counterfeit documents to enter the United 
States, as well as our ongoing work at 15 land border ports, suggest 
that one training challenge for BCBP will be to ensure that both new 
and experienced border inspectors are capable of readily detecting 
fraudulent documents.

Meeting Field Intelligence Needs
Our ongoing work at land border ports suggests that the Bureau will 
also face challenges regarding the collection, analysis, and use of 
intelligence information in the field. The former INS recognized the 
need for more intelligence support in the field. In 1997, an INS-
contracted study reported the lack of an intelligence capability at all 
INS locations, including districts and ports.\13\ More recent studies 
suggest needs in this area persist. Although some steps have been taken 
to bring the intelligence function to the field level, additional steps 
remain if the intelligence needs of the field are to be met. These 
challenges include, but are not limited, to decisions related to 
staffing and training, as well as merging intelligence positions from 
the former Customs and INS.
---------------------------------------------------------------------------
    \13\ INS Intelligence Program Strategic Plan, September 30, 1997 
(submitted by LB&M Associates, Inc.).

Implementing the New U.S. VISIT System
One of the most significant challenges facing DHS at ports of entry is 
the implementation of the U.S. VISIT system. This significant 
undertaking is intended to capture both entry and exit data on 
travelers. It will also have many implications for operations at U.S. 
ports of entry, including expenditures, staffing, inspection 
procedures, and infrastructure. We reviewed INS's fiscal year 2002 
expenditure plan and associated system acquisition documentation and 
system plans. We reported that INS's preliminary plans showed that it 
intended to acquire and deploy a system that will satisfy the general 
scope of capabilities required under various laws. However, we found 
that the initial plan did not provide sufficient information about INS 
commitments for the system, such as what specific system capabilities 
and benefits will be delivered, by when, and at what cost. We concluded 
that this lack of detail is a material limitation in the first plan 
that will become even more problematic in the future as the magnitude 
and complexity of the system acquisition increases, as will the 
importance of creating plans with the appropriate level and scope of 
information.\14\ Responsibility for implementing U.S. VISIT now resides 
in the Border and Transportation Security directorate. We are currently 
reviewing the fiscal year 2003 expenditure plan and will ascertain 
whether these problems were addressed.
---------------------------------------------------------------------------
    \14\ U.S. General Accounting Office, Information Technology: 
Homeland Security Needs to Improve Entry Exit system Expenditure 
Planning, GAO-03-563 (Washington D.C.: Jun. 2003).

Challenges Related to Implementing and Transforming DHS
We designated implementation and transformation of the new Department 
of Homeland Security as high risk based on three factors. First, the 
implementation and transformation of DHS is an enormous undertaking 
that will take time to achieve in an effective and efficient manner. 
Second, components to be merged into DHS--including those that now form 
BCBP--already face a wide array of existing challenges, some of which 
we have described in this statement. Finally, failure to effectively 
carry out its mission would expose the nation to potentially very 
serious consequences.

In the aftermath of September 11, invigorating the nation's homeland 
security missions has become one of the federal government's most 
significant challenges. DHS, with an anticipated budget of almost $40 
billion and an estimated 170,000 employees, will be the third largest 
government agency; not since the creation of the Department of Defense 
(DOD) more than 50 years ago has the government sought an integration 
and transformation of this magnitude. In DOD's case, the effective 
transformation took many years to achieve, and even today, the 
department continues to face enduring management challenges and high-
risk areas that are, in part, legacies of its unfinished integration.

Effectively implementing and transforming DHS may be an even more 
daunting challenge. DOD was formed almost entirely from agencies whose 
principal mission was national defense. DHS will combine 22 agencies 
specializing in various disciplines: law enforcement, border security, 
biological research, disaster mitigation, and computer security, for 
instance. Further, DHS will oversee a number of non-homeland-security 
activities, such as the Coast Guard's marine safety responsibilities 
and the Federal Emergency Management Agency's (FEMA) natural disaster 
response functions. Yet, only through the effective integration and 
collaboration of these entities will the nation achieve the synergy 
that can help provide better security against terrorism. The magnitude 
of the responsibilities, combined with the challenge and complexity of 
the transformation, underscores the perseverance and dedication that 
will be required of all DHS's leaders, employees, and stakeholders to 
achieve success.

Further, it is well recognized that mergers of this magnitude in the 
public and private sector carry significant risks, including lost 
productivity and inefficiencies. Generally, successful transformations 
of large organizations, even those undertaking less strenuous 
reorganizations and with less pressure for immediate results, can take 
from 5 to 7 years to achieve. Necessary management capacity and 
oversight mechanisms must be established. Moreover, critical aspects of 
DHS's success will depend on well-functioning relationships with third 
parties that will take time to establish and maintain, including those 
with state and local governments, the private sector, and other federal 
agencies with homeland security responsibilities, such as the 
Department of State, the Federal Bureau of Investigation, the Central 
Intelligence Agency, DOD, and the Department of Health and Human 
Services. Creating and maintaining a structure that can leverage 
partners and stakeholders will be necessary to effectively implement 
the national homeland security strategy.

The new department is also being formed from components with a wide 
array of existing major management challenges and program risks. For 
instance, one DHS directorate's responsibility includes the protection 
of critical information systems that we already consider a high risk. 
In fact, many of the major components merging into the new department, 
including the Transportation Security Administration (TSA), FEMA and 
the U.S. Coast Guard, face at least one major problem, such as 
strategic human capital risks, critical information technology 
challenges, or financial management vulnerabilities; they also confront 
an array of challenges and risks to program operations. For example, 
TSA has had considerable challenges in meeting deadlines for screening 
baggage, and the agency has focused most of its initial security 
efforts on aviation security, with less attention to other modes of 
transportation. The Coast Guard faces the challenges inherent in a 
massive fleet modernization.

DHS's national security mission is of such importance that the failure 
to address its management challenges and programs risks could have 
serious consequences on our intergovernmental system, our citizens' 
health and safety, and our economy. Overall, our designation of the 
implementation and transformation of DHS as a high-risk area stems from 
the importance of its mission and the nation's reliance on the 
department's effectiveness in meeting its challenges for protecting the 
country against terrorism.

Mr. Chairman, this concludes my prepared statement. I would be pleased 
to answer any questions that you or other Members of the Subcommittee 
may have.

                 Appendix: Contacts and Acknowledgments

                                                For further information 
                                                regarding this 
                                                testimony, please 
                                                contact Richard M. 
                                                Stana at (202) 512-
                                                8777. Individuals 
                                                making key 
                                                contributions to this 
                                                testimony included Seto 
                                                J. Bagdoyan, Michael P. 
                                                Dino, Darryl W. Dutton, 
                                                Barbara Guffy, E. Anne 
                                                Laffoon, and Lori 
                                                Weiss.

                This is a work of the U.S. government and is not 
                subject to copyright protection in the United States. 
                It may be reproduced and distributed in its entirety 
                without further permission from GAO. However, because 
                this work may contain copyrighted images or other 
                material, permission from the copyright holder may be 
                necessary if you wish to reproduce this material 
                separately.

GAO's Mission
The General Accounting Office, the audit, evaluation and investigative 
arm of Congress, exists to support Congress in meeting its 
constitutional responsibilities and to help improve the performance and 
accountability of the federal government for the American people. GAO 
examines the use of public funds; evaluates federal programs and 
policies; and provides analyses, recommendations, and other assistance 
to help Congress make informed oversight, policy, and funding 
decisions. GAO's commitment to good government is reflected in its core 
values of accountability, integrity, and reliability.

Obtaining Copies of GAO Reports and Testimony
The fastest and easiest way to obtain copies of GAO documents at no 
cost is through the Internet. GAO's Web site (www.gao.gov) contains 
abstracts and full-text files of current reports and testimony and an 
expanding archive of older products. The Web site features a search 
engine to help you locate documents using key words and phrases. You 
can print these documents in their entirety, including charts and other 
graphics.

Each day, GAO issues a list of newly released reports, testimony, and 
correspondence. GAO posts this list, known as ``Today's Reports,'' on 
its Web site daily. The list contains links to the full-text document 
files. To have GAO e-mail this list to you every afternoon, go to 
www.gao.gov and select ``Subscribe to daily E-mail alert for newly 
released products'' under the GAO Reports heading.

Order by Mail or Phone
The first copy of each printed report is free. Additional copies are $2 
each. A check or money order should be made out to the Superintendent 
of Documents. GAO also accepts VISA and Mastercard. Orders for 100 or 
more copies mailed to a single address are discounted 25 percent. 
Orders should be sent to:

U.S. General Accounting Office
441 G Street NW, Room LM
Washington, D.C. 20548

To order by Phone: Voice: (202) 512-6000, TDD: (202) 512-2537, Fax: 
(202) 512-6061

To Report Fraud, Waste, and Abuse in Federal Programs
Contact:
Web site: www.gao.gov/fraudnet/fraudnet.htm
E-mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6d0b1f0c18090308192d0a0c02430a021b">[email&#160;protected]</a>
Automated answering system: (800) 424-5454 or (202) 512-7470

Public Affairs
Jeff Nelligan, Managing Director, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5c12393030353b3d32161c3b3d33723b332a">[email&#160;protected]</a> (202) 512-4800
U.S. General Accounting Office, 441 G Street NW, Room 7149
Washington, D.C. 20548

    Mr. Camp. Thank you. Thank you very much for your 
testimony.
    I would recognize the gentlelady from California.
    Ms. Sanchez. Thank you. Thank you, Mr. Chairman, and thank 
you, Mr. Stana, for being here today. I have a variety of 
questions to ask you about.
    I am interested in the report that you did on the southwest 
border strategy in August of 2001, when you talked to the 
Border Patrol and it estimated that 11,700 agent need that my 
colleagues from New Jersey cited. Actually, your report says 
11,700 to 14,000 additional support personnel and hundreds of 
millions of dollars in additional technology.
    Can you talk to us at this point about where you see the 
shortfall as far as personnel happening, what you think is 
being left behind or not done or falling through the cracks, 
because we don't have the right number of personnel there yet.
    I also want to know if you are doing anything with respect 
to the Customs agents and how many personnel are needed with 
respect to that. And so that would be my first series of 
questions, the number of personnel.
    Then I would like you to elaborate a little on something 
that you said about the lack of training or the discussion that 
you had with the people, that they felt that they weren't--that 
they didn't have the training in order to do their job 
correctly, and how that--they feel that manifest itself. What 
is it that is not being done, or the confidence level of them 
being able to do their job? And then I also wanted to ask you 
what type of a report you are doing on the U.S. VISIT program 
and what you have found so far, if anything.
    Mr. Stana. Okay. Let me take these in the order that you 
posed them.
    The southwest border strategy emerged in the mid-90s when 
it was recognized that the Nation had, in effect, lost control 
of its immigration policy. The strategy began to unfold in two 
cities, San Diego and El Paso, attempting to secure those 
cities which were major transit points for economic migrants 
looking for work in the United States. And so they started 
there, posting more Border Patrol and INS inspections personnel 
around those areas.
    Next, INS moved along the border from those points to 
secure more and more portions of the border and attempt to 
divert the flow of illegal aliens from those popular transit 
points to other more remote locations where aliens might think 
it was too remote, too desolate, too dangerous, or otherwise 
too difficult to cross at those points so they wouldn't try. So 
it was a matter of detecting and deterring illegal immigration.
    Before merging into DHS, the Border Patrol and INS had 
gotten into about the latter portion of Phase 2 in a four-phase 
process. So they had much more land to gain control over. Mr. 
Shadegg mentioned that the Arizona border is one of the last 
areas to get the increased staffing and that there is a 
considerable flow still going through that area. INS estimated 
that 11 to 14,000 agents were needed to control the southern 
border. We did not take issue with the estimate. But we note 
that in trying to achieve that number, there are challenges, 
not the least of which is the turnover in agents. INS hired so 
many, but others leave. Often they leave for higher pay or they 
leave because it is a tough job being done in a desolate 
location. So that is really the problem with personnel.
    Now, with respect to the northern border, which was also of 
interest to Mr. Pascrell, Ms. Slaughter and Mr. Sweeney, trying 
to beef up the northern border is also a challenge. It is a 
longer border with more remote locations, but at the same time 
it does not have the same alien flow and, therefore, the need 
for the 11 to 14,000 agents that you have on the southwest 
border, but security is a challenge nevertheless.
    With respect to the lack of training, this was talked about 
primarily by inspectors from both legacy INS and legacy Customs 
at the land border ports of entry. They were concerned for a 
number of reasons. Mr. Turner mentioned that our investigators 
entered with faulty documents and that they weren't detected, 
and this is a major challenge. The inspectors told us that they 
definitely need more training on how to detect false documents. 
It is a major challenge, a major challenge.
    Also they need other training on how to gather and analyze 
intelligence. They need training on how to use the latest 
equipment, how to query computerized watch lists. Training is 
needed across the board. When inspectors get out of the 
academy, they are trained in a generic sense to do the job, but 
they need more on-the-job training, and that training simply 
isn't being provided in the amount that is needed.
    With respect to U.S. VISIT, we are just beginning to look 
at the expenditure plan that was given to us about 10 days ago. 
I think you asked the commissioner about that. We received it 
about 10 days ago with a 45-day suspense to review the 
expenditure plan to see if this meets the criteria that 
Congress set for an acceptable plan to release funds. We are 
very early in that process.
    Given the deadlines for U.S. Visit that we have talked 
about today--going to the land and seaports by the end of this 
year, to the 50 largest land ports next year and then the 
remaining land ports after that--it is a very ambitious 
undertaking to meet those deadlines.
    Will something be fielded by the end of this year? 
Probably. Is it what they expect to be fielded by the end of 
this year? It is going to be a challenge.
    Ms. Sanchez. I would be interested in that report. Mr. 
Stana, and in particular with respect to the whole issue of 
funding as we continue to cut back and the monies haven't been 
spent. But we will follow up with that.
    Mr. Stana. We expect a briefing to be given to the 
appropriators, like I say, in about 45 days or so, followed up 
eventually by a full report.
    Ms. Sanchez. Thank you. Thank you for being here.
    Mr. Camp. Thank you. The gentleman from California, the 
chairman of the full committee may inquire.
    Chairman Cox. Thank you, Mr. Chairman. I appreciate your 
report to the subcommittee and the full committee, and I want 
to ask you a bit about your conclusions concerning the hiring 
of border agents.
    You cited the GAO's report covering 7 years in arrears and 
looking 5 years forward. Do you still think, based on 9/11 on, 
which was the point that you mentioned in your report to the 
committee, that that changes the estimates? Do you think that 
we are still 5 years off from where we need to be?
    Mr. Stana. I can speculate on that, and that is that 9/11 
probably increased the need for staff rather than decreased it.
    Will it take 5 years? I think it may take more than 5 years 
simply because legacy INS was as behind schedule in hiring new 
agents before 9/11. And given the additional need for security 
and inspectional personnel and given the challenges that accrue 
from merging the two agencies, it wouldn't surprise me if they 
didn't meet that deadline.
    Chairman Cox. And at some point, doesn't this become just a 
Sisyphean? Are we just looking or attempting to look over the 
edge of an endlessly receding horizon? Is it fair to say at 
this point, since 7 plus 5 is already 12 years, and you are 
thinking maybe it is longer than that, that this is just never 
going to happen.
    Mr. Stana. Well, I don't know what resources that BCBP and 
BICE will be given in the future. I think a lot is contingent 
on that.
    But there are so many factors that enter into how many 
staff are needed. We talked about the fielding of UAVs. We 
talked about sensors and cameras, and there are problems with 
the cameras and sensors that are already fielded. I wish I 
could say that all problem areas were going to be fixed.
    Certainly, at the ports of entry, the fact that staff can't 
take time away to do training if it were available suggests 
that there aren't sufficient staff there to do the job now. 
Although I understand that that is improving. I am not hopeless 
that BCBP will reach a reasonable level of staffing. At the 
same time, it has been a long haul, and I don't think it is 
going to be fixed next year.
    Chairman Cox. You are a patient man.
    Let me ask you just briefly about the container security 
initiative, since your report contains very useful information 
on that topic.
    You properly observed that information is key to making 
this work, and you mentioned that perhaps as important as 
anything, we have among many inspectors a developed sixth 
sense. Can we rely on our current apparatus indefinitely into 
the future or is it just going to be too episodic in nature? 
Are we going to have to routinize a little bit better the way 
we go after this problem?
    Mr. Stana. We have work under way in two areas that would 
answer your question. Unfortunately, I don't have the results 
available right now. One area deals with the CSI program and 
the C-TPAT program. The other deals with the sufficiency of the 
technology itself, the gamma and x-ray machines and so on.
    But I will say this: Customs has tried over the years to 
find ways to segregate high risk from low risk; for example 
they did it with line release. You may be familiar with that 
program; it was piloted, I believe, in California. They tried 
it with other cargo identification initiatives; and time and 
again it all came back to information, and it often came back 
to faulty information on manifests and from the intelligence 
sources.
    I think one of the key areas to addressing this is somehow 
getting more reliable, actionable intelligence and reliable 
manifests so that you can separate the wheat from the chaff and 
focus on just the higher-risk cargos. I know that sounds 
awfully simplistic, but that really is the key.
    Customs has worked on it one way or another and has had 
some successes. In some instances, shippers themselves have 
brought to the attention of Customs things that looked funny to 
them because they didn't want to get in trouble by having 
shipped these faulty manifested cargos.
    Aside from the technology issues and aside from the 
personnel issues--which are significant--I think that the 
information intelligence is something I would want to act on 
soon.
    Chairman Cox. Did you have a chance in your analysis to 
look at how in the Information Analysis Directorate this is 
maturing and whether or not Commissioner Bonner is getting what 
he needs.
    Mr. Stana. In fact, we have work under way for Energy and 
Commerce right now along those lines: how container cargos are 
targeted, what algorithms are used in their computerized 
programs, what actionable intelligence is used. That report 
should be out later this year.
    Chairman Cox. Are those algorithms being developed in 
Commissioner Bonner's area or in Mr. Redmond's area?
    Mr. Stana. I think mostly, it is in Mr. Bonner's area.
    In fact, I think he mentioned it in his testimony. It has 
to do with the National Targeting Center which is under him.
    Chairman Cox. Mr. Chairman, I appreciate the generosity of 
the time.
    Mr. Camp. Thank you.
    The gentleman from New Jersey may inquire.
    Mr. Pascrell. Mr. Stana, thank you for being here today--
and to the Chair.
    We know what the mission of GAO is or your examining the 
mission of Commissioner Bonner's department, and I find that to 
be very interesting. I read quickly through your report.
    We know that this is going to be difficult because this 
department is the third largest-- Homeland Security, the whole 
department is the third largest agency in the Federal 
Government, so it is not going to be an easy task and it hasn't 
been in existence.
    But I must say, in your report--and I respond to this 
report. There was a report provided to the Congress in August 
of 2001; that report from the GAO was very specific about 
Border Patrol. In fact, the recommendations of that report talk 
about close to 14,000 agents being necessary to do the job.
    I want you to respond to the fact that we don't expect that 
we--we will have to wait until 2006 in order to see appreciable 
response to the shortages that exist.
    Now, how can we--and you look, your job is to look at the 
efficiencies of the agency, whether it can do the job, whether 
it is structurally able to do the job. I mean, we--you have 
leeway, if there is structure in place that you have confidence 
in, it is going to take time to get the objective. If the 
structure is something dubious, then we perhaps will never get 
to the objective.
    Along our northern border there is only 567 agents. Now, we 
have heard some questions here about the northern border. How 
are 567 agents within this structure that are you now looking 
at, over which we have oversight, going to do that job? You 
tell me.
    Mr. Stana. It would be very difficult for 567 agents to 
cover the 4,000 miles of open territory using just the 
agents--.
    Mr. Pascrell. Well, we knew this back in August of 2001. 
How many agents exist right now?
    Mr. Stana. How many agents are on the northern border right 
now?
    Mr. Pascrell. On the northern border.
    Mr. Stana. I think the number you cited was accurate as of 
earlier last week.
    Mr. Pascrell. Not very much different than what was there 
in August of 2001, before 9/11?
    Mr. Stana. No. Before August 11, 2001, I believe there was 
a lesser number than that.
    Mr. Pascrell. There was a few lesser number and we need how 
many on the northern border alone?
    Mr. Stana. The commissioner a few minutes ago said he 
thought they needed 1,000. I don't know if that is the correct 
number. We haven't done an analysis of that.
    Mr. Pascrell. So we are talking about almost a doubling of 
that number.
    Mr. Stana. About a doubling of the current staffing.
    Mr. Pascrell. And when is that going to happen? What is the 
schedule of progress to get to that point?
    Mr. Stana. I know that when additional resources become 
available, they are splitting them between the northern border 
and the southern border. It could take a while.
    Mr. Pascrell. I think this is the more important question, 
Mr. Stana: Is the structure there? Is the structure there and 
is the infrastructure there within the Department to get this 
done?
    Mr. Stana. I think it really matters how many resources the 
Department is given. They can't hire all 14,000 because they 
don't have the funds or the appropriation to have all 14,000. 
Even if they were given the appropriation to hire all 14,000, 
there is a question of how quickly BCCP could fully absorb that 
kind of increase.
    Mr. Pascrell. And that has to do with the very structure 
that you are examining. Mr. Stana. It has to do with how well 
can you train them, can you get the proper supervision so that 
they do their jobs well, can you equip them. It is not unlike 
if you had that kind of an increase in the Armed Forces. You 
have to equip, you have to train, you have to field and you 
have to have a support trail.
    Mr. Pascrell. Any time there is a merger of this many 
departments in one, you know that there is going to be a loss 
of productivity, and that is something you look at. Your 
history is very specific about looking at merging and then what 
happens, too--you know, if the new structure, if pro forma can 
handle, you know, the problems that-- whatever the new 
department has to face.
    Mr. Stana. Right.
    Mr. Pascrell. Are we losing productivity as we try to get 
to these objectives that we have?
    Mr. Stana. Well, let me put it two ways. First, the GAO has 
put the transformation of the Department of Homeland Security 
on a high-risk list, and that means it bears watching by 
Congress and others.
    Mr. Pascrell. You bring up the word ``high-risk,'' and I am 
sorry for interrupting, but my time is contracted here.
    You bring up ``high-risk.'' How can we spend one dime in 
any of these areas without risk assessments? In fact, isn't 
that the major point of your report, Mr. Stana, that there 
haven't been adequate risk assessments made, so we don't know 
what to do?
    So, you know, the question about these handheld pagers, 
radiation pagers, which have been a farce, who contracted these 
things? Who decided that we are going to get those pagers? Was 
this on an accelerated rate so that somebody had the inside 
track?
    They didn't work. If they worked, it would be different, 
but they didn't work. Who decides that?
    Mr. Stana. That was done by legacy Customs, and within 
legacy Customs I am not sure who approved the purchase of those 
pagers. They go for about $1,200 each.
    Mr. Pascrell. How many were there?
    Mr. Stana. I believe they had about 5,000 of them purchased 
as of the end of--.
    Mr. Pascrell. I don't have any other questions, Mr. 
Chairman. Thank you. Thanks for your candidness.
    Mr. Camp. Thank you. The gentleman from New York is 
recognized.
    Mr. Sweeney. Thank you, Mr. Stana, for your testimony, and 
as an appropriator, I am looking forward to your briefing as we 
make decisions in this current calendar.
    I read your testimony. I agree with you on the four 
principal areas that we need to focus our attention on. And as 
a means of really making the point at how early we are in this 
process, I want to ask you what is maybe an incredibly 
subjective question, but I think of note when we consider how 
earlier in the establishment of this agencies and in the 
establishment of this new world.
    In the calendar we are on, in terms of my calculation, 
roughly we are in about our sixth month of this experiment, 
maybe a little bit less. It is not a year and a half since the 
attacks of September the 11th, because Congress couldn't act 
quickly enough for one reason or the other; and I am interested 
in hearing your evaluation on how far we have progressed, 
because I think that is the important evaluation that Congress 
needs to do at this point in time.
    We have already created delay. Now we need to figure out 
how far along the process we are as it relates to intelligence 
and the establishment of an intelligence system, whether it is 
for DHS or any of the subsidiaries in--on a scale of 1 to 10, 
or 1 to 5, make it simple, how far--what did we have prior to 
this and where are we today?
    Mr. Stana. On a scale of 1 to 5, we are probably at about a 
3 and about the same level we were when all of this began to be 
put together. A couple of challenges exist of putting the 
intelligence units together.
    Mr. Sweeney. Meaning establishment of the--.
    Mr. Stana. Of the Department of Homeland Security from the 
legacy organizations.
    One is, where do you place the intelligence functions? BCBP 
operations at the border; but DHS put intelligence functions 
with the Interior Enforcement component of the organization. 
DHS has to make sure the organizational crosswalks solidify.
    I think some of the dust is beginning to settle on these 
relationship questions. I think the initial merger had some of 
the staff asking questions like, who is going to win out? Is 
the INS side going to win out? Is the Customs side going to win 
out? Who is going to be my next boss? Who is going to be forced 
to leave? How are the boxes on the org chart going to be moved 
around? Those questions are beginning to be resolved.
    And so now you might say, organizationally, the more 
serious questions are being addressed, like setting up the 
organizational crosswalks, making sure that the--.
    Mr. Sweeney. Is your answer, we have made no progress; or 
is your answer, we have made what progress?
    Mr. Stana. No, I think any time you have these kinds of 
mergers, whether it is in the public sector or the private 
sector, some unsettling is to be expected. And that is one 
reason why we placed this on the high-risk list, that there is 
some unsettling yet to be addressed.
    Mr. Sweeney. Is there greater capacity?
    Mr. Stana. I am sorry.
    Mr. Sweeney. Is there greater capacity today?
    Mr. Stana. There is the potential for greater capacity, but 
we are only in this about 3 months so far. I think we have got 
to get things lined up.
    Mr. Sweeney. As it relates to staff training, improved, not 
improved?
    Mr. Stana. I think that there are plans to improve it. I 
think it is going to take more than 3 months to get that taken 
care of.
    Mr. Sweeney. A more complex endeavor today, correct, 
than--.
    Mr. Stana. Well, it can be. I mean, it is a matter of just 
doing things that make sense, like merging the Border Patrol 
Academy and merging the Customs Academy with the Immigration 
Academy, getting a sensible OJT program so that the first 
agents on the line can be trained to do their job.
    You know, we can speculate about the higher-order 
organizational things, but so much of this turns on the 
individual at the border, who has 20 seconds to make a yes-or-
no decision on letting someone into the country. That person 
isn't so much concerned about whether the IT purchases are 
going well in Washington or who is in favor or who is not. What 
they are worried about is, do I have the training to detect a 
false document? Do I have the training to do what is needed to 
stop this, to field the technology, understand the technology?
    We talk about the VACIS trucks, and I strongly encourage 
you, when you go to the Long Beach/LA port, to ride on the 
truck and take a look at the screen that the inspector looks at 
and just see what a tough job it is to pick something out as 
particularly dangerous that could be entirely innocuous.
    Mr. Sweeney. We are on technology: We have improved, or not 
improved; or we are still a work in progress?
    Mr. Stana. I think technology is an important addition, but 
technology, like anything else, is no panacea.
    Mr. Sweeney. And let me get to the boring part, but I think 
it is the most important part.
    You mentioned it in your opening statement: the 
establishment of internal controls and policies and procedures. 
And we really are at the point in time where we are just 
developing that now, correct?
    Mr. Stana. Well, the legacy Customs and the legacy INS had 
internal controls. All too often they didn't work--they have 
travelers at ports walking in one door walking out another 
without required clearances; the inspector is too busy doing 
inspections to supervise, things like that.
    Mr. Sweeney. Is BCBP preparing--prepared in your--from your 
work, moving in the correct direction?
    Mr. Stana. Well, I think that they have identified many of 
the problems that were out there and we and others are helping 
them to do that.
    Are all the problems resolved in the last 3 months? No.
    Mr. Sweeney. Very quickly, final question and it relates to 
all of it--.
    Mr. Camp. Well, the gentleman's time has expired.
    Mr. Sweeney. I will submit. Thank you.
    Mr. Camp. Thank you.
    The gentleman from Arizona is recognized.
    Mr. Shadegg. Thank you, Mr. Chairman.
    Thank you, Mr. Stana, for being here. First of all, I want 
to express my appreciation for the candor of your description 
of the southwest border strategy. In some ways, I think you 
very honestly assessed that it pushed the traffic into the 
rural areas in Arizona. I want to put into the record some 
statistics.
    See Graph:

    [GRAPHIC] [TIFF OMITTED] T7926.001
    
    There are nine border sectors along the Southwest border of 
the United States with Mexico. Of those nine sectors, the 
Tucson sector has more than three times as many illegal 
crossings as the next highest sector. It is over 333,000. The 
next highest is the El Centro, California, sector at only 
108,000. So we have, quite frankly, through this strategy, 
created a crisis on the southern Arizona border with Mexico.
    I notice in your report that it says, and I quote, 
``Officials and residents in one community reported 
experiencing loss of business, destruction of private property 
environmental degradation.'' I hope you know that that is a 
dramatic understatement and not, in fact, correct.
    The entire southeastern border of Arizona, where there is a 
substantial population in every single one of those communities 
all the way across that sector of the border they are 
experiencing a dramatic decline in business. They are 
experiencing radical property damage. They are experiencing 
radical environmental damage. That is from Nogales east to the 
New Mexico border.
    From Nogales west to, essentially, Yuma, or at least a 
little short of Yuma, you have a dramatically less-populated 
area. There are virtually no towns. There is an Indian 
reservation and there is Organ Pipe Cactus National Monument, 
where Agent Khris Eggle was killed; and in that remote area, 
although business is not disrupted because there are 
essentially no businesses, the traffic across the desert is 
massive. The damage, environmental damage--I was at the park a 
few months ago to see where Chris Eggle was murdered. The 
environmental damage--there is trash strewn all the way across 
the border everywhere, from human feces to water bottles to 
tarps. You name it, everything possible across that portion of 
the desert.
    And then, of course, the devastation to the Tohono O'odom 
Indian Reservation is pretty severe. Have you looked at or 
studied or been asked to study the effect of having started at 
the outside edges with resources and pushed toward the middle 
and reached a conclusion as to whether or not trying to drive 
that policy from those two outside edges in was a success or an 
abject failure?
    Mr. Stana. Well, first let me say that we didn't mean to 
imply that there was only one community. We used that in the 
sense that that was one example. There are many communities not 
only in Arizona, but in Texas, New Mexico and California that 
have had this, mainly because they weren't expecting it.
    As a decision-maker in Washington, you may have well known 
that that was the strategy, to sort of funnel the traffic in 
areas where INS thought that could control it with fewer 
people. Did that happen? Not like they thought it might.
    Mr. Shadegg. Well, they didn't control it. I don't want to 
interrupt you, but when we were at Organ Pipe, looking at where 
Chris Eggle was murdered, we talked with the superintendent. He 
had within that week interviewed an individual who lived--whose 
home was in eastern Mexico and who worked in the United States 
in Chicago. And they had apprehended him crossing the border in 
the Organ Pipe National Monument and said to him, ``Well, why 
do you cross here? This is clear over in western Mexico.'' And 
he said, ``Well, here is where you can get across without 
getting caught.''
    Mr. Stana. Yeah. It is an issue, and it is a different 
issue than the terrorism issue, frankly. Although there may be 
terrorists interspersed with the alien flows, I don't know that 
for sure. But it is an issue of economic migrants, people 
coming here to work like the individual in your example. And on 
the way to places where they find employment, this is the 
impact.
    Unfortunately, I think that the border controls can only do 
so much. Without an effective internal enforcement strategy, 
the jobs magnet will not be neutralized.
    Mr. Shadegg. I absolutely believe that. I think the jobs 
magnet is a huge issue. The benefits magnet is a huge issue.
    Let me ask you specifically, have you evaluated again the 
effectiveness of forcing resources into a single area where 
there is--remote area. That is one question.
    Second, you heard the commissioner discuss UAVs, but also 
ground sensors. I am not a believer in ground sensors. I think 
they got fooled. They get set off by animals. Have you assessed 
that?
    I am interested in the answer to both those questions.
    Mr. Stana. Let me take the second part first.
    We are aware of the ground sensor and camera issue and we 
understand that there are problems with both. So again, I use 
the word ``panacea'' --I don't think they are panaceas with 
respect to the effectiveness of the strategy. What we attempted 
to do not only in the August 2001 report, but with other 
reports was to try to put some light on what is going on there. 
We recommended, and INS was supposed to do, an extensive 
evaluation of the southwest border strategy, engaging the best 
minds in the immigration area. They did not do it.
    Mr. Shadegg. My time has expired, but let me ask one last 
question if I might, Mr. Chairman.
    One of the strategies of the Border Patrol is these 
checkpoints that are several miles into the United States. Many 
people in Arizona find those highly offensive and I have grave 
doubts about whether they work. Has GAO looked at whether or 
not border checkpoints, either dozens of miles or in some cases 
as much as 100 miles into the United States, have any effect in 
deterring illegal immigration?
    Mr. Stana. Well, I don't know how well they detect or deter 
illegal immigration. My guess is--and we haven't looked at that 
specifically--. My guess is, they do find some people. Is that 
the most effective use of resources? I think that is open to 
question.
    Mr. Shadegg. I think that is a question we should ask you 
to look at.
    Thank you, Mr. Chairman.
    Mr. Camp. Thank you, Mr. Stana. I am going to ask about the 
part of your testimony that talks about illegal entry at ports 
of entry, or points of entry, and the variety of documents that 
an agent has to see.
    And tell me--clearly, there is a fair amount of fraud. 
First of all, for some folks, they don't even have to have 
documentation, but can just say where citizenship is and they 
are admitted. And there are a number of different kinds of 
documents that a Customs agent has to look at; and I think in 
the report you mention over 8,000 State and local birth 
certificates and driver's licenses.
    Tell me, how do you--just summarize how you think this 
should be addressed. And how can we make this problem less 
prevalent?
    Mr. Stana. Well, ultimately, I think the goal should be to 
find some way to positively link an individual to a document. I 
don't think you can do that with a birth certificate or some 
other document that doesn't have a biometric that you can 
check.
    Now, the state of biometrics today is such that with the 
volumes we are talking about, 450 million travelers, I wonder 
whether biometrics are mature enough to handle that kind of a 
throughput. But that is ultimately the goal.
    The second thing is, it is just so easy to come up with 
fraudulent documents. In that review that our investigators 
did, they intentionally did not try to make perfect-looking 
documents so that when they handed them to an inspector 
somebody would say, this looks like a dead-on driver's license 
or this looks like a dead-on traveler's document.
    They intentionally left them looking less than perfect--in 
fact, I had occasion to visit a Secret Service office recently. 
They made me a Nebraska--I don't think anybody is here from 
Nebraska--a Nebraska driver's license which, for the rookie who 
made it, it is okay, it is passable. But, I think I could 
detect it as a phony document.
    But the key is, inspectors at the border ought to know how 
to detect phony documents. I think if you gave it to a 
bartender down the street in Washington, D.C., he could tell in 
a second that this was a phony document. I wonder whether a 
border inspector could. And so I think getting training in the 
detection of false documents is key.
    They did raise the issue that you are raising about whether 
it should be the case that U.S. and Canadian citizens should 
not have to present some sort of a travel document. This is a 
policy decision which has been reinforced recently, so I am not 
going to take issue with that. But the challenge that creates 
is, people who are not U.S. or Canadian citizens come to a port 
of entry saying they are. And the example that Mr. Turner used 
and I think Commissioner Bonner mentioned--they sounded like 
they had New York accents--I don't know if that is good enough.
    The border inspectors have the right and actually the 
responsibility to request some identifying documentation if 
they suspect something is wrong or if a document does not look 
right; and they didn't do that in all cases, and when they did, 
they saw the phony document and they didn't detect it as phony.
    Mr. Camp. Okay. Thank you very much.
    The Subcommittee on Infrastructure and Border Security 
hearing is now concluded.
    [Whereupon, at 5:40 p.m., the subcommittee was adjourned.]

                                APPENDIX

                 QUESTIONS AND RESPONSES FOR THE RECORD

      Follow-up Questions for the Record from Chairman David Camp

Question: 1. Does the Bureau of Customs and Border Protection (BCBP) 
have a comprehensive plan for the Bureau to address vulnerabilities and 
risks; identify long term staffing needs; identify the complement of 
radiation detection equipment that should be used at each border point 
or port of entry; determine whether equipment could be immediately 
deployed; identify long term radiation detection needs and develop 
measures to ensure that the equipment is adequately maintained? If so, 
when will a copy of this plan be available for evaluation by the 
Subcommittee? (Sanchez)
BCBP Answer:
BCBP developed a Comprehensive Strategy to Address the Threat of 
Nuclear and Radiological Terrorism in December 2002 and it's associated 
Annex in January 2003. An integral part of this plan is BCBP's goal to 
screen all trucks, trains, cars, air freight, mail bags and express 
consignment packages with radiation detection technology prior to 
release, and to screen air and sea passengers and their luggage along 
with land border pedestrians with personal radiation detectors. It is 
envisioned that to achieve this goal BCBP will need to employ radiation 
portal monitors at ports of entry to screen for the presence of 
radioactive and nuclear materials.
This Comprehensive Strategy also describes BCBP's integrated multi-
layered defense that begins outside the United States where the 
movement of nuclear and radiological materials is initiated and 
continues all the way to the U.S. borders. This strategy aims to:
        <bullet> Prevent potentially dangerous and strategically 
        valuable materials from falling into the hands of terrorists;
        <bullet> Push our zone of security further away from the 
        physical border; and
        <bullet> Use risk-based targeting and a wide range of 
        technology.
The Comprehensive Strategy outlines BCBP's plans to train our workforce 
to ensure that our officers are armed with the knowledge and skills 
needed to detect and combat nuclear and radiological terrorist threats. 
The Annex to the Comprehensive Strategy includes detailed estimates for 
personnel and other associated costs in support of the Strategy 
including technology, international program support, Container Security 
Initiative expansion to additional locations, support to Project Shield 
America and additional training.
The Annex also addresses the types and number of radiation detection 
equipment needed by location for the first three phases of 
implementation. It also lists what type of non-intrusive inspection 
equipment is deployed by location. BCBP has determined that its 
effectiveness to secure the U.S. border should continue to be measured 
in both qualitative and quantitative terms.
BCBP will utilize performance-based contracting with identified 
maintenance performance standards, measures of those standards and 
incentives for meeting and exceeding the standards. The standards 
include figures of merit such as calculated Operational Availability 
and measured Customer Wait Time.

Question: 2. With the splitting of certain functions between DHS and 
the original Departments and the splits in authority, how can 
employees, or Congress, be sure of ``who's in charge'' of a particular 
issue? What assurances can DHS give that this will not lead to 
confusion and bureaucratic delay? (Turner)

BTS Answer:
Since the establishment of the DHS and the stand up of the Customs and 
Border Protection , Immigration and Customs Enforcement, and 
Citizenship and Immigration Service bureaus, the Department of Treasury 
has executed a delegation order clearly assigning reserved authorities 
between the two departments, and DHS and USDA have executed a 
Memorandum of Understanding describing each others responsibilities for 
APHIS functions. These documents are the guidance needed to establish 
accountability at the department level. At the field level, 
Undersecretary Hutchinson, Commissioner Bonner, and Assistant Secretary 
Garcia moved quickly to establish a unified command structure and unity 
of management over ports of entry and filed units by naming interim 
leaders, and then rapidly implementing permanent leaders.

Question: 3. How was the decision made to split the various components 
of Customs? How are line employees able to determine the split in 
responsibilities, and the chain of command? (Camp)

BTS Answer:
After the passage of the Homeland Security Act, the impacted agencies 
immediately began studying what assets and capabilities were within 
their agencies, and what best scenarios of merger existed. There have 
been a series of GAO and OMB sponsored reviews of this problem dating 
back decades. The most tangible benefit to accrue would be unifying 
port management of processing travelers, cargo and conveyances. This 
meant combining the three inspection functions. while combining 
investigative resources that expanded their responsibilities but 
focused their priorities. Undersecretary Hutchinson, Commissioner 
Bonner, and Assistant Secretary Garcia moved quickly to establish a 
unified command structure and unity of management over ports of entry 
and filed units by naming interim leaders, and then rapidly 
implementing permanent leaders.

Question: 4. What is the response of BCBP to the critics who claim that 
regional offices did not work, and that the performance of the Customs 
Service improved after abolishing regional offices in 1993? (Turner)

BTS Answer:
It is important to note that the plan for the construct and functions 
of regions is still not fully composed, however the Department's 
regional design team is aware of these concerns and are giving them 
full consideration as proposals are being developed. The Department is 
considering providing a regional structure to DHS in order to provide 
better connectivity with the various state and local entities, as well 
as the private sector , that come together to form the national 
response enhancing homeland security.

Question: 5. The DHS budget proposal for fiscal 2004 calls for the 
establishment of regional directors in BCBP, with employees reporting 
to their regions rather than a central headquarters. Trade groups have 
claimed that decentralization will lead to a lack of uniformity in how 
the BCBP policies are implemented. Would this proposed plan affect 
issues relating to uniformity of classification, issuance of rulings or 
policies relating to importing at particular ports?

BCBP Answer:
Establishment of regions would not impact uniformity of classification, 
issuance of rulings, or policies relating to importing at particular 
ports. Rulings interpreting the customs laws and regulations are issued 
by the BCBP Office of Regulations and Rulings (ORR) which is a BCBP 
Headquarters element.

The vast majority of rulings are in the area of classification of 
merchandise (approximately 10,000 per year) and are issued by the 
National Commodity Specialist Division (NCSD) of the ORR. While 
physically located in New York City, NCSD is a part of the Headquarters 
element of the ORR. The remaining approximately 3,000 rulings per year, 
which, in part, include complex classification matters, value issues, 
drawback, entry and carries rulings, value determinations, eligibility 
for special preference programs and marking matters, are issued by the 
Washington Headquarters component of the ORR.

The ORR under any regional concept would continue in its role of 
ensuring the uniformity of the application of the laws and regulations 
by maintaining the liaison the NCSD National Import Specialists have 
with the field import specialists. On a formal basis the ORR would 
continue to ensure uniformity by both monitoring issued rulings' 
correctness and entertaining appeals from the importing community. 
Appropriate action would be taken under both approaches to modify or 
revoke inconsistent rulings. The importing community also would be able 
to use current ``internal advice'' and ``protest'' procedures provided 
under the BCBP regulations to obtain further review of field 
determinations by the Headquarters ORR.

Question: 6. Has BCBP determined that 2 to 4 percent is the right 
number that should be inspected? If so, how did BCBP come to that 
determination? If BCBP has not come to a conclusion on what the right 
percentage is how does BCBP propose to determine it? How does BCBP 
weigh the improvement in security against the potential damage to 
commerce? Who provides BCBP the information, both on the improvement in 
security, and the costs in terms of lost commerce that would result 
from an increase in inspections? (Turner)

BCBP Answer:
The Bureau of Customs and Border Protection (BCBP) screens the data and 
information for all cargo containers arriving in the United States each 
year; and closely scrutinizes and examines all shipments identified as 
high risk. The BCBP goal is not to search 2 percent, 10 percent, or 
even 50 percent of the cargo. BCBP thoroughly screens and ultimately 
examines 100 percent of the shipments that pose a risk to our country.

BCBP has developed a multi-layered process to target high-risk 
shipments while simultaneously facilitating legitimate trade and cargo. 
Examination of sea containers is a part of this process.

A multi-layered approach is:
        <bullet> Electronic manifest information
        <bullet> Partnerships
        <bullet> Automated Targeting System (ATS)
        <bullet> The human factor
        <bullet> Non-Intrusive Inspection Technology
Different modalities present different potential risks. When specific 
intelligence is available we will act upon it and the impact on general 
commerce is negligible. Without specific intelligence we use all 
available data to assess the potential risk of the import cargo. Based 
on this risk, the decision to slow down or expedite specific commerce 
is made. Through the use of programs such as CTPAT and FAST and other 
programs that foster cooperative anti-terrorism efforts with our trade 
partners we are able to minimize the impact on legitimate commerce.
Under the C-TPAT initiative, BCBP is working with importers, carriers, 
brokers, and other industry sectors to develop a seamless security-
conscious environment throughout the entire commercial process. C-TPAT 
provides a forum in which the business community and BCBP exchange 
information designed to increase the security of the entire commercial 
process while continuing to facilitate the flow of legitimate trade and 
traffic. C-TPAT underscores the importance of employing best business 
practices and enhanced security measures to eliminate the trade's 
vulnerability to terrorist actions.
Our goal and outcome is to steadily increase our base container 
inspection capabilities yearly. We are exploring our resource needs 
constantly. Obviously as the risk fluctuates so does the impact on our 
resources, and likewise on our assessments and resource needs. Our 
major goals require elevating our use of physical and research 
technology. Physical technology such as more VACIS machines enhances 
our screening capabilities whereas research technology improves our 
risk scoring abilities.

Question: 7. Has BCBP examined the requirements of the Maritime 
Transportation Security Act of 2002? Will BCBP be able to meet its 
requirements with the current level of funding? (Turner)

BCBP Answer:
BCBP has examined the requirements of the Marine Transportation 
Security Act of 2002. BCBP has coordinated with the U.S. Coast Guard in 
their publication of Interim Final Rules published on July 1, 2003. 
BCBP has a support role in this Act and is coordinating with 
counterparts in the Department of Homeland Security. BCBP does not 
anticipate the need for additional funding to meet the requirements of 
the Marine Transportation Security Act of 2002.

Question: 8. How did BCBP make the decision that all Inspectors must 
have radiation detection devices? Was it informed by intelligence that 
terrorists have plans for attacks that could be thwarted by these 
devices? If so, please describe the threat. Who provided BCBP with that 
intelligence? What was the role of the Information Analysis/
Infrastructure Protection Directorate in making the decision that there 
was a threat that required this countermeasure? (Turner)

BCBP Answer:
The personal radiation detector (PRD) is a device capable of detecting 
minute traces of radiation. It serves to warn BCBP officers to take 
action to mitigate exposure to potentially harmful or dangerous levels 
of radiation. In 1998, the U.S. Customs Service began deploying PRDs to 
Customs Inspectors and Canine Enforcement Officers (CEO) nationwide at 
air, land and sea Ports of Entry. All officers were trained on the 
procedures for use of the PRDs to include detecting, securing and 
reporting the illicit importation and exportation of radioactive 
materials. In addition, all Inspectors at the Basic Inspector Training 
Program at the U.S. Customs Academy are currently trained on the 
procedures for use of the PRDs. BCBP plans to make PRDs, which are worn 
on a belt, a standard piece of equipment for every BCBP Inspector.
The PRD is an integral part of BCBP's radiation response protocol. The 
PRD alerts the Inspector to the presence of radiation, provides the 
ability to determine the level of radiation present, take the 
appropriate precautions and establish a safe perimeter area. The PRD 
alerts Inspectors to an increase in radiation on a scale from one, the 
lowest level, to nine, which alerts Inspectors to take necessary 
precautions against a potentially dangerous level of radiation.

The PRDs serve several purposes and play a role as part of the suite of 
radiation detection equipment. They alert Inspectors to the presence of 
harmful levels of radiation when they are conducting cargo and vehicle 
searches. Without a device to inform Inspectors of radiation levels, 
they would not be able to assure their own safety while conducting a 
search. In addition, because the PRDs are small enough to be worn on a 
belt, they free up Inspectors' hands for other tasks. Furthermore, PRDs 
can detect radioactive material that could be used in a radiological 
dispersal device and, in limited circumstances, weapons-usable nuclear 
material--the most difficult material to detect because of its 
relatively low level of radioactivity.
The handheld devices provided to BCBP Inspectors have limited range and 
capability. For instance, they were not designed to detect weapons-
usable radioactive material.

Question: 9. Have the remaining 2,500 inspectors been trained? If not 
when will they complete the training? Have all the inspectors been 
trained in using the radiation detection devices they have been given?

BCBP Answer:
Virtually all legacy Customs Inspectors had been trained in the eight-
hour Customs Inspection Anti-Terrorism Training (CIATT) course by 
February 2003. Once Customs became part of the Bureau of Customs and 
Border Protection (BCBP) on March 1, 2003, the BCBP Office of Training 
and Development moved quickly to establish a rapid method of providing 
a comparable level of knowledge to Border Patrol Agents and legacy 
Immigration and AQI Inspectors on identifying and detecting weapons of 
mass destruction. The CIATT material was condensed into 90-minute 
course on an interactive CD-ROM called ``Detecting Terrorist Weapons''. 
Every uniformed BCBP Inspector received a copy of the CD-ROM. Legacy 
Immigration and AQI Inspectors were required to complete the course by 
mid-May 2003 while Border Patrol Agents were given until the end of 
June 2003 to complete the training. It remains available to all BCBP 
officers as a useful reference tool. Moreover, the BCBP Academy 
received an ample supply for new recruits for the foreseeable future.

Question: 10. Aside from a so-called dirty bomb, which are somewhat 
easier to detect, what threat will the handheld devices protect us 
from? What detection procedures exist for other threats, such as highly 
enriched uranium, biological or chemical weapons? (Turner)

BCBP Answer:
BCBP Inspectors currently use two types of handheld devices to detect 
radioactive material. These devices are the Personal Radiation Detector 
(PRD) and the Radiation Isotope Identifier Device (RIID).

While the PRD was not designed specifically as a radiation search tool 
nor to detect weapons-usable radioactive material, it is a highly 
sensitive device capable of detecting minute traces of gamma ray 
radiation that would alert and warn the Inspector to the presence of 
radioactive material. This functionality allows Inspectors to 
intelligently react to the presence of radiation (e.g., protect the 
Inspectors and the general public from shipments emitting dangerous 
levels of radiation, assist the Inspectors in making informed decisions 
on the legitimacy of a shipment and source of the radiation, and allow 
the Inspector to interdict illicit shipments of radioactive materials).

With the use of the RIID, BCBP Inspectors have the capability of 
detecting weapons-usable radioactive material, as the RIID is a 
sophisticated electronic device capable of detecting both gamma and 
neutron radiation. The RIID is used by BCBP Inspectors to determine the 
type and strength of a radiation source. This allows Inspectors to make 
an informed determination and take appropriate action. The end result 
of using the RIID are to protect the Inspectors and the general public 
from shipments emitting dangerous levels of radiation, assist the 
Inspectors in making informed decisions on the legitimacy of a shipment 
and source of the radiation, and allow the Inspector to interdict 
illicit shipments of radioactive materials.

In addition, BCBP has deployed 6 chemical detector canine teams and 
plans to deploy 60 additional teams by the end of FY 2004.

BCBP uses several large-scale non-intrusive inspection (NII) systems in 
our inventory. One such system is the Vehicle and Cargo Inspection 
System (VACIS) unit, which uses gamma-ray-imaging technology. VACIS 
technology detects anomalies and provides us with an x-ray type picture 
of what is inside tankers, commercial trucks, sea and air containers, 
rail cars and other vehicles including contraband such as drugs, 
weapons and currency.

BCBP does not rely on one system or one set of procedures to interdict 
illicit items, such as enriched uranium, and biological or chemical 
weapons. To accomplish this, BCBP relies on its layered enforcement. 
Layered enforcement is made up of many programs and elements, such as 
advanced electronic information (including APIS and the 24 Hour Rule), 
several targeting systems (including the Automated Targeting System, 
OBS3, the National Targeting Center, the Container Security 
Initiative), intelligence gathering, the experience of its inspectors, 
and the use of Non-Intrusive Inspection (NII) technology (including 
radiation detection technology, large-scale x-ray/gamma ray systems, 
and small-scale technology).

BCBP is working with Johns Hopkins University to identify devices which 
could be used to assist inspectors in identifying chemical and/or 
biological weapons.

With regard to reacting to potential biological threats, BCBP has a 
laboratory system that includes special teams who are qualified in 
``level A Environment Suits'' who use immunoassay test equipment and 
Polymerase Chain Reaction (similar to DNA testing) test equipment that 
can detect the presence of biologics connected with Weapons of Mass 
destruction. These specially trained and equipped teams use high tech 
equipment such as portable Gas Chromatograph-Mass Spectrometers to 
detect both explosives and chemical agents used for WMD.

Question: 11. What threats can VACIS detect? How many ports have VACIS? 
Will every port eventually have this technology? When will you have 
enough personnel to fully use VACIS? (Turner)

BCBP Answer:
<bullet> The Vehicle and Cargo Inspection System (VACIS) is just one of 
several large-scale non-intrusive inspection (NII) systems in our 
inventory. VACIS units use gamma-ray-imaging technology to quickly 
perform thorough examinations of conveyances without having to resort 
to the costly, time-consuming process of manual searches or intrusive 
exams by methods such as drilling and dismantling. VACIS technology 
detects anomalies and provides us with an x-ray type picture of what is 
inside tankers, commercial trucks, sea and air containers, rail cars 
and other vehicles for contraband such as drugs, weapons and currency.
<bullet> There are currently 99 VACIS units deployed to 68 of our 
nation's air, land and sea Ports of Entry.
<bullet> BCBP proposes to continue deploying multiple large-scale NII 
systems, including VACIS units, to our large cargo and passenger 
vehicle processing Ports of Entry.
<bullet> NII technologies are viewed as force multipliers that enable 
us to more quickly screen or examine a larger portion of the stream of 
commercial traffic while facilitating the flow of legitimate trade and 
cargo.
<bullet> BCBP continues to annually increase the number of inspectional 
staff dedicated specifically to cargo inspections, including additional 
personnel in support of our deployed large-scale NII technology.
<bullet> The GAO stated in a November 2002 report on Container Security 
that ``Customs has not yet developed an overall plan that coordinates 
equipment purchases and personnel training''. The report stated such a 
plan should address vulnerabilities and risks; identify the complement 
of radiation-detection equipment that should be used at each border 
point or port of entry; determine whether equipment could be 
immediately deployed; identify long-term radiation-detection needs and 
develop measures to ensure that the equipment is adequately maintained.

Question: 12. Does BCBP have a comprehensive plan as described by GAO? 
(Turner)

BCBP Answer:
As noted in question #1, BCBP developed a Comprehensive Strategy to 
Address the Threat of Nuclear and Radiological Terrorism in December 
2002 and it's associated Annex in January 2003.

13. What intelligence informed the decision to expand the program to 
these particular countries? Who provided the intelligence? What role 
was played by the Department's IA/IP Directorate? (Turner)

BCBP Answer:
The Phase II selection process considered criteria extending beyond 
trade volume, which was the primary focus for the selection of the 
original, twenty ``mega-ports.'' Phase II selection included strategic 
considerations associated with the potential threat of terrorist 
actions in the commercial maritime domain. BCBP, Office of 
Intelligence, folded into the selection process information provided 
primarily by CIA Intelligence Assessments on terror groups operating at 
or transiting the proposed CSI Phase II ports. Also considered were 
locations representing a natural extension of the current CSI presence 
within a geographic region. Among the factors evaluated were the 
following:
1. Geographic Significance. This criterion relates to the geographic 
significance of the ports as origin, transshipment, transit or 
intermediary hubs serving regions of high-risk origins for WMD or 
terrorist activity.
2. Trade Volume. This criterion relates to the significance of the 
location as providing active vessel traffic and commercial trade with 
the United States or within contiguous reach of the US.
3. Terrorism Connections. This criterion relates to the presence of 
terrorist groups with the ability to plan or execute a course of action 
against the United States from this location. This may include support 
bases for funding, political sympathy, or historical action.
4. Feasibility for CSI Program. This criterion relates to the 
likelihood of a location providing receptivity and security for CSI 
deployments. As an example, Yemen proves to be significant as a 
strategic location, but the likelihood of a deployment of BCBP 
personnel to this region on the basis of personal security is remote.
5. Current Geographic Presence. This criterion relates to the 
desirability of extending CSI port presence in geo-political regions 
under existing Declaration of Principle agreements.
Selection was also based on achieving a degree of efficiency in 
deployment locations that cast a net around high-risk origins for 
materials or technology sources that could be utilized for WMD and 
terrorist actions. Consequently, transshipment risk and carrier 
services were considered in identifying the likely hubs or exit points 
for high-risk origins.

Question 14. What communications have been had with the World Bank 
regarding funding for the equipment? Do you expect the World Bank to 
provide funding? What other sources might fund such equipment? Since 
the equipment contributes to U.S. national security, has the Department 
of Homeland Security considered purchasing the equipment or 
contributing to such purchase? (Turner)

BCBP Answer:
It is not known at this time whether the World Bank will fund equipment 
in the future, as any requests for assistance from the World Bank would 
be initiated by the individual country. BCBP is planning to detail an 
officer to the World Bank for a period of six months beginning in 
August to establish a partnership to work on border and port security 
issues. This officer will participate as part of a core team that the 
World Bank is establishing to address trade logistics and facilitation 
and the security needs of their client countries. Through this 
partnership, we hope that CSI and other DHS/BCBP initiatives will be 
complemented by the efforts of the World Bank to improve border and 
port security in countries.

Question: 15. How many containers go through a port such as Dubai? Can 
five inspectors cover containers in a port of that size? (Turner)

BCBP Answer:
Approximately 424,000 containers move through the Port of Dubai 
annually, about 350 of which are shipped to the U.S. A CSI team of one 
senior special agent, a research analyst and two or three inspectors 
can carry out the mission.

16. Is BCBP backfilling the positions of the inspectors being sent 
abroad? If not, is CSI creating a shortage of inspectors in domestic 
ports? (Turner)

BCBP Answer:
Currently, the inspectors who are being assigned to CSI ports are on 
temporary duty for a period of only 120 days so their positions are not 
being backfilled. However, once the CSI positions are permanent, and we 
are in the process of making them permanent in selected ports, we will 
backfill where necessary.

Question: 17. Can you provide the number of ports that are fully 
operational under the Container Security Initiative to date? (Please 
define what is considered ``operational.'') What is the schedule for 
being fully operational at all Phase I ports? (Sanchez)

BCBP Answer:
As of August 4, 13 of the Phase I ports plus three ports in Canada are 
operational. Operational is defined as a CSI team deployed to the port 
targeting containers and establishing investigative and other 
information sharing activities with our host partners. The schedule 
depends upon the ability of the host country to meet the minimum 
requirements for a CSI port. Nevertheless, all of the Phase I ports 
should be operational by June 2004 and most of them sooner.

18. How many Custom officials will ultimately be installed at each 
Phase I port? How was this number determined? What is the cost of 
stationing one Customs official at each of these ports? What elements 
determine this cost? (Sanchez)

BCBP Answer:
The typical CSI Team consists of a senior special agent from the Bureau 
of Immigration and Customs Enforcement (BICE), an intelligence analyst, 
also from BICE and, generally, three inspectors. The number of 
inspectors, however, is adjusted based on the volume of containers 
moving through the port to the U.S. Currently the fewest number of 
inspectors is two (Gothenburg, Sweden) and the highest number is eight 
(Hong Kong). Additionally, team structure may be modified in countries 
where there are multiple ports. Each BCBP employee stationed overseas 
on permanent duty status costs, on average, $281,602.
The cost includes the following elements:

<bullet> Salaries--includes full time permanent pay, and normal 
benefits--priced on average at $97,982. Teams are made up of a mix of 
mid-senior level officials including GS-12/13 level inspectors, GS-13 
level Intelligence Research Specialists and an agent team leader at GS-
13/14 level.

<bullet> Relocation cost--$50,000 was assumed for a one way relocation 
from the States to the foreign port.

<bullet> Foreign Allowances--this was priced at $52,503 per employee on 
average and includes dependents educational allowances, post 
allowances/differentials, cost of living allowances, danger pay (in 
selected posts) and special language incentive award pay (for retaining 
language proficiency).

<bullet> ICASS--cost to State Department to pay for services furnished 
including space/janitorial, ADP and other administrative office 
services through the American Embassy. This was priced at $30,000 per 
employee.

<bullet> Travel--this was priced at $9,270 per employee per year and 
included both field CSI and post assignment travel.

<bullet> Transportation of Goods--very minor (less than $1,000 per 
person)

<bullet> Phone/Utility usage--for usage of phones, copiers and faxes 
not covered by an ICASS arrangement.

<bullet> Other contract services--priced on average at $30,900. It 
includes rentals of household and office space (when not furnished by 
the embassy) services for translators, equipment maintenance and other 
special needs.

<bullet> Supplies--minor per person office supply needs based on 
historic position models.

<bullet> Equipment and Representation/POI funds--here we used the 
recurring rather than full start up cost for phased replacements on 
office computer and phone equipment and furniture. Purchase of 
Information/Evidence costs of a minor nature to cultivate leads 
relative to enforcement mission are also included.

Question: 19. What is the role of a U.S. Customs agent in a foreign 
port once a container is determined as ``high risk'' (Sanchez)

BCBP Answer:
The CSI team is multi-disciplined and is comprised of a senior special 
agent from the Bureau of Immigration and Customs Enforcement (BICE), an 
intelligence analyst, also from BICE and, generally, three inspectors. 
The agent develops sources; liaises with foreign law enforcement and 
with the intelligence community along with the analyst; conducts 
investigations; detects internal conspiracies; and, coordinates the 
whole team with the Attache, Embassy and foreign customs authorities. 
When a container is selected for inspection based on risk, the U.S. 
inspector observes the host country's inspection of the container. In 
the event contraband is found or some enforcement action is warranted, 
the U.S. agent will determine what additional action is appropriate and 
work with the host country officials to ensure that evidence is 
protected and a proper case is developed for foreign and/or domestic 
prosecution.
20. Are all ``high risk'' containers leaving the operation Phase I 
ports equipped with ``tamper evident'' technology? What technology is 
being used? How much does this technology cost per container? Is this 
cost included in the FY 04 Budget request for the CSI program? 
(Sanchez)

BCBP Answer:
All high-risk containers that have been inspected are sealed with 
tamper evident labels and high security bolts at a cost of 
approximately $11 per container. This cost is included in the FY 04 
budget request.

Question: 21. Since CSI's inception have BCBP officials identified any 
containers that had been tampered with by terrorist actors? (Sanchez)
BCBP Answer:
No

Question: 22. The CSI proposal has focused primarily on the largest 
seaports. Does this place smaller seaports at an economic disadvantage? 
Does this open the U.S. to possible attack from goods that are shipped 
from ports that are non-CSI? (Camp)

BCBP Answer:
No and no. It is important to note that 100 percent of containers 
arriving in the U.S. are screened for WMD by our Automated Targeting 
System. Phase I is comprised of the 20 foreign ports that ship 70 
percent of all maritime containers to the U.S. With implementation of 
Phase II that percentage will rise to 80 percent of the containers 
being screened at the foreign port of lading. Containers are screened 
only for WMD in CSI ports and are subject to inspection in the U.S. for 
other purposes including narcotics and other contraband at the same 
rate as non-CSI ports. We do not believe a CSI port enjoys a trade 
advantage over a non-CSI port. Regarding possible attack from 
containers shipped from non-CSI ports, if the risk of a container is 
deemed too high to allow on a ship without inspection, BCBP can issue a 
``no load'' order so the container does not arrive in U.S. waters.

Question: 23. The Trade Act of 2002 required Customs to issue rules 
under which information on all-cross border cargo would be provided to 
Customs electronically before cargo enters or leaves the United States. 
A draft rule was anticipated in early June so that there could be a 90-
day comment period prior to the deadline for the final rule on October 
1, 2003. When will the rule be drafted?

BCBP Answer:
BCBP's proposed rule implementing section 343 of the Trade Act of 2002 
was put on display at the Federal Register on July 17, 2003, and 
published on July 23, 2003. Prior to issuance of the proposed rule, 
BCBP held open public meetings with the trade community for each mode 
of transportation (air, truck, rail and sea), and took into careful 
consideration the many comments received from the trade after the 
meetings as well as recommendations from subgroups of the Treasury 
Advisory Committee on Commercial Operations of the U.S. Customs Service 
(COAC). In many cases in the proposed rule, BCBP adopted 
recommendations from the trade. Due to the extended pre-proposal 
interaction with the trade and transportation community, BCBP is only 
able to provide the public with a 30-day comment period from the date 
of publication of the proposal in the Federal Register

Question: 24. How does BCBP make the decision on such a draft rule? Who 
advises BCBP on the need for the information as well as the economic 
impact?

BCBP Answer:
As indicated in the previous answer, BCBP made its decision on the 
proposed rule based on much input received from the trade and 
transportation communities. For example, the COAC created subgroups for 
each mode of transportation (air, truck, rail and sea) to provide 
comments and recommendations on how to implement the Act. Several 
meetings were held to discuss issues pertinent to each mode, and BCBP 
employees were invited to attend some of these meetings in order to 
furnish constructive input and comments. COAC provided its comments at 
the April COAC meeting, which were very thoughtful and contributed 
substantially to shaping the proposed rule.

The determination of what information BCBP needs is driven by the 
Automated Targeting System which is connected to law enforcement and 
trade databases. The Automated Targeting System allows BCBP to identify 
shipments that may be associated with terrorism, narcotics smuggling or 
other criminal offenses. This system has enabled BCBP to make numerous 
security and law enforcement related seizures.

The Trade Act required that, in developing the rules, BCBP balance the 
impact on the flow of commerce against the impact on cargo safety and 
security. To this end, BCBP took into account comments it received from 
the trade and transportation communities. In seeking to minimize the 
economic impact, BCBP, considering the extent to which the necessary 
technology is available, proposed to utilize existing technology and 
procedures to minimize costs to BCBP and the trade. Also to minimize 
economic impact, BCBP has incorporated a phased-in compliance strategy 
allowing a transition period after the publication of the final rule.

It is also noted that BCBP hired a private consultant to perform an 
economic analysis.

Question: 25. Is it the position of BCBP that inspection of empties be 
a part of any security plan submitted by a terminal operator? 
Additionally, has BCBP taken any steps to encourage terminal operators 
to adopt these practices now for the safety and security of the 
American people? (Turner)

BCBP Answer:
The BCBP position is that the inspection of empties should be included 
in the security plan submitted by a terminal operator. The Customs 
Trade Partnership Against Terrorism (C-TPAT) requires as a condition of 
participation that carriers visually inspect all empty containers, to 
include the interior of the container, at the foreign port of lading.

Question: 26. Is TTIC the primary source of intelligence for BCBP? What 
products does BCBP receive from TTIC? How frequently are these products 
provided?

BCBP Answer:
BCBP's Office of Intelligence is the primary source of terrorist threat 
information for the Bureau of Customs and Border Protection. However, 
BCBP does receive terrorist reporting from additional members from the 
Intelligence Community (e.g. NSA, DIA, USCG, ONI) as well as 
information directly from the FBI. TTIC products are disseminated daily 
and range from tactical intelligence (specific threat) or assessments. 
These products are retrieved from the Intelligence Community's Counter-
terrorism ``CT-Link'' classified system (soon to be renamed TTIC-On 
Line).

Question: 27. Does BCBP receive information directly from the 
intelligence and law enforcement agencies? If so, what agencies? What 
types of information? Does this information go to the inspectors on the 
front lines at the borders and ports of entry? How is the information 
distributed?

BCBP Answer:
Daily, the BCBP, Office of Intelligence receives reporting from members 
of the Intelligence Community: CIA, NSA, DIA, DOD, USCG, ONI, NIMA, 
State, and the FBI to name a few. The information is varied and ranges 
from tactical specific threats to the movement of terrorists, WMD 
threats, terrorist organizational assessments and topic specific 
reporting (i.e., MANPADS.)

BCBP, Office of Intelligence, identifies information that is of value 
to its border protection inspectional and targeting missions. Due to 
the high classification of some of this intelligence, BCBP liaisons 
closely with the originator and requests sanitization and 
declassification of information. This information is placed into the 
Treasury Enforcement Communication System (TECS) connected to BCBP 
facilities in the USA in the form of Intelligence Alerts and widely 
disseminated to all appropriate BCBP field offices.

Question: 28. What intelligence does BCBP receive on a daily basis from 
the Information Analysis Infrastructure Protection Directorate? What 
types of products? Doe IA/IP provide any tailored products specifically 
for BCBP? Who is BCBP's primary contact at IA/IP?

BCBP Answer:
The Information Analysis and Infrastructure Protection (IAIP) division 
provides support to the BCBP Office of Intelligence by engaging the 
Intelligence Community in support of BCBP intelligence requirements. 
Frequently products of a strategic nature are routed to the BCBP Office 
of Intelligence that are of interest to senior managers. In addition, 
the Office of Intelligence works collaboratively with IAIP on joint 
products and presentations that support DHS missions. IAIP is 
continuing to develop and expand its capabilities. We are working with 
IAIP to support them and currently we have one (1) Intelligence Analyst 
stationed at IAIP to support their efforts.

Question: 29. What efforts are being made to adapt the models for 
counter terrorism? Or are they comparable to counter narcotics? What is 
being done so that BCBP has better information to target shipments? 
What is the source of the information? What is the role of the 
Department's IA/IP Directorate?

BCBP Answer:
BCBP, Office of Intelligence has as its primary customer the targeting 
and interdiction officers stationed at the 301 ports of entry around 
the U.S. along with Border Patrol agents between the Ports of Entry. 
BCBP Intelligence is oriented at providing a wide range of tactical and 
operational products that support targeting initiatives by identifying 
trends and patterns in terrorist movement and the potential use/
transportation of terrorist weapons. BCBP Intelligence works closely 
with all of the targeting elements in BCBP to identify possible targets 
of interest and detect ongoing terrorist operations. Briefings are 
provided constantly along with targeted products that seek to provide 
the most up to date information to BCBP field elements on major trends 
and items of interest. BCBP Intelligence is very focused on liaison 
with the Intelligence Community and outreach to our international 
partners such as Australia, New Zealand, Canada and the UK. BCBP 
Intelligence is also developing a suite of its own tools to support the 
CSI program. For example, BCBP Intelligence has developed a prototype 
computer program (Global Targeting System) that follows all the 
movements of sea cargo containers worldwide. Understanding the global 
movement of a container before it is declared to the U. S. could 
identify patterns of concern.
30. What are the roles of these offices? (Intel & OAT) What 
relationship, if any, is there between these offices and the IA/IP 
Directorate?

BCBP Answer:
The Office of Intelligence fundamental mission is to detect and 
identify criminal and terrorist groups and prevent them from 
penetrating the borders of the United States by disseminating 
intelligence to operational BCBP field units for use in detection and 
interdiction actions. The overriding areas of emphasis are to detect 
and track the movements of terrorists and/or their implements. This 
office is also the principle advisor to the Commissioner and BCBP 
senior officials on national level intelligence reporting.
The Office of Anti-Terrorism (OAT) serves as the principal advisor to 
the Commissioner and other senior officials on BCBP anti-terrorism 
programs. OAT monitors, coordinates, and assesses all policy, programs, 
and matters relating to terrorism in order to ensure that BCBP is 
maximizing its anti-terrorism efforts with regard to its border 
protection mission.

The Office of Intelligence maintains a very close relationship with 
IAIP and is the main BCBP conduit for interacting and interfacing with 
IAIP. BCBP Intelligence personnel meet regularly with IAIP analysts to 
discuss major issues and items of interest and we currently have a BCBP 
analyst stationed at IAIP.

The Office of Anti-Terrorism (OAT) is the coordinating body for BCBP 
anti-terrorism efforts. The OAT also continue to be representatives for 
BCBP on anti-terrorism policy and strategic matters with our homeland 
security partners and continues raising awareness in the interagency 
community of BCBP capabilities and contribution to the national effort 
in combating terrorism. Although OAT is non-operational in things such 
as supporting National Security Special Events, the operational 
offices, including the Office of Investigations, and the Office of 
Field Operations, will continue to be the lead contacts for Customs, 
while participating in an assessment and coordination, assessment and 
advisory role, to include review of procedures and best practices.

Question: 31. Since there is no single watch list, which watch list 
does BCBP use? How did BCBP determine to use that particular list or 
lists? Is BCBP involved in any effort to consolidate these lists?

BCBP Answer:
BCBP does not use any one Watch list. BCBP incorporates suspect 
terrorist data from various sources into the Treasury Enforcement 
Communication System (TECS). The TECS system is part of the Interagency 
Border Inspection System (IBIS) that is the primary database used by 
BCBP inspectors for the processing of people entering the United 
States. TECS Records reside in this database on persons who are 
associated with terrorist or criminal activity.

TECS records are created from data received from the TSA ``No Fly 
List'', and from the State Department TIPOFF program. Moreover, daily 
intelligence reporting is received from the Intelligence Community and 
from the FBI with information identifying suspect terrorist(s) who have 
plans to travel to the United States. This data is placed into the TECS 
system with a subject record created on each suspect person.

Question: 32. Has BCBP been provided access to such a system (TICS)? Is 
BCBP aware of the existence of TICS?

BCBP Answer:
BCBP was recently made aware of TTIC's plan regarding the Terrorist 
Screening Center (TSC). Once the system is fully operational BCBP will 
have access to TSC data. BCBP is planning on assigning personnel to the 
TSC.

Question: 33. Can BCBP estimate how many ``false positives'' and how 
many ``false negatives'' it has per year? What is BCBP's goal for a 
reasonable or expected level of false positives and false negatives? 
(Turner)

BCBP Answer:
BCBP's ability to make determinations regarding admissibility at the 
border is only as good as the information available. False Positives 
and Negatives arise when insufficient data is input into the associated 
record or insufficient information is available for the Inspector. 
Inspectors will err on the side of caution and refer subject of 
lookouts for secondary inspection. During secondary inspection more 
time can be taken to insure that no ``false positives'' or ``false 
negatives'' occur. BCBP expects that these will occur from time to 
time, however, the inspection process is sufficient to answer the 
questions of identity and admissibility that will arise.
The Northern Border, stretching some 4,000 miles, has been historically 
understaffed. The USA PATRIOT Act authorized INS to triple the 
personnel on the Northern Border from 2001 levels, including support 
staff positions. In previous testimony, Commissioner Bonner indicated 
that there were 2,291 positions on the Northern Border just after 
September 11th. The most recent figures he submitted for FY 2004 are 
5,058. He indicated that the full amount of personnel have not been 
hired because there was not enough support staff to assist the new 
Inspectors.

34. When will BCBP have the number of Inspectors called for by the USA 
PATRIOT ACT? What level of resources will be required? How many of 
these new positions hired since 9/11 are support staff? (Sanchez)

BCBP Answer:
    The PATRIOT Act calls for tripling the number of Customs Service 
personnel and tripling the number of INS Inspectors at Ports of Entry 
along the Northern Border. Since 9/11, the number of Immigration 
Inspectors along the Northern Border has increased by 2.4 times and the 
number of Customs Inspectors has almost doubled. When BCBP will be able 
to triple the number of Inspectors along the Northern Border will 
depend on appropriating additional Inspector positions for these 
locations and retaining previously hired Inspectors.
Current on-board at Northern Border Ports of Entry (POEs):
Immigration Inspectors = 1,253
Customs Inspectors = 2,010
On-board staffing immediately after 9/11 at Northern Border POEs for 
Inspectors and Canine Enforcement Officers (CEOs) deployed to the 
actual border crossings on the Northern Border was 1,615. This includes 
all the Inspectors and CEOs from the legacy organizations of Customs, 
INS and APHIS, not staff performing functions other than the Inspectors 
and CEOs, or staff that are deployed to locations other than the actual 
border crossings, such as POEs not located at the border or at the 
Customs Management Centers (CMCs).
Note: The totals provided here only include Inspectors, not support 
staff. Since 9/11 the legacy INS and Customs organizations have not 
increased their support staff along the Northern Border.
A recent Congressional Quarterly article quoted a Canada expert at the 
Center for Strategic and International Studies saying that the reason 
for slow additions to the Northern Border is that there is no coherent 
strategy, but rather a series of patches.

Question: 35. What is BCBP's strategy for the Northern Border? Is the 
answer more personnel, different technology, or both? (Turner)

BCBP Answer:
The Bureau of Customs and Border Protection's (BCBP) strategy is to 
continue enhancing the security at our nation's borders. The strategy 
is designed to combat terrorists, as well as drug traffickers and other 
criminals. Currently, all border crossings are guarded on a 24-hour 
basis, either with personnel and/or surveillance technology. To 
accomplish our strategic mission of safe guarding the border, BCBP 
relies on a combination of several factors. These factors may include 
personnel, additional trusted traveler initiatives, and new emerging 
technology.

Programs such as NEXUS, FAST, SENTRI, and the Northern Border Hardening 
Project are just a few of programs that fall within our strategic goals 
for the Northern Border.

Though BCBP programs such as FAST and NEXUS provide dedicated lanes and 
booths for pre-approved, low risk shipments and travelers, the efficacy 
of these programs is hampered by poor infrastructure at some borders. 
For example, there might be a dedicated lane for low risk crossings, 
but there are no timesaving because both pre-approved and other 
travelers are stuck in traffic in a two-lane road leading to the 
dedicated lanes.

Question: 36. How effective are programs such as FAST and NEXUS in 
light of these infrastructure shortfalls? What plans are there to 
invest in infrastructure improvements? (Turner)

BCBP Answer:
These programs and processes are somewhat limited in potential until 
such time that road and bridge infrastructure are sufficient to allow 
FAST and NEXUS participants to move freely to and through the port. The 
transponder and proximity card technology used with FAST allows those 
qualified shipments to move expeditiously through the border. On the 
Northern Border, when a C-TPAT importer, C-TPAT carrier, and a FAST 
approved driver come together at a FAST lane, BCBP quickly processes 
the transported shipment at the booth and is less likely to be examine 
the shipment than if an unknown party was transporting the shipment.
NEXUS is hampered by inadequate infrastructure at almost all sites. 
This has an effect on timesaving for enrollees. Unfortunately, most of 
the infrastructure problems are intractable. Most NEXUS infrastructure 
is not controlled by BCBP. For example, the Detroit-Windsor Tunnel 
could not be expanded beyond its current two lanes, and it is unlikely 
that NEXUS enrollment will ever get to the point where the Tunnel 
Authority would dedicate one lane to NEXUS.
Also, the approach roads to NEXUS lanes are, for the most part, in 
Canada and are controlled by either the Canadian government or private 
corporations, not by the U.S. Government. This gives BCBP very little 
leverage in the improvement of the infrastructure. BCBP will continue 
to work with the Canadian government and other agencies and 
corporations to press for the improvement of the infrastructure.
The saving of time is an important aspect of NEXUS, but it is not the 
only reason for the program's existence. The success of the program 
will depend as much on the speed and ease of the actual inspection 
process as it does on timesaving. Although NEXUS-enrolled vehicles may 
have almost the same wait as non-enrolled vehicles, the inspection 
itself will be faster and less intrusive because of the NEXUS process. 
People will not, in most cases, need to produce travel documents nor 
will they be required to answer more than one or two simple questions 
on acquisitions while abroad. In this way NEXUS has become an effective 
program.

Question: 37. Is BCBP making the investment to meet its border 
strategy? Why will it take years to hire the necessary number of Border 
Patrol agents? Can we afford to wait?

BCBP Answer:
Border Patrol hiring continues at a steady pace. By far the most 
critical component with regards to the successful implementation of the 
Border Patrol's enforcement strategy is personnel. Border Patrol Agents 
are the most essential element to gaining, maintaining and expanding 
control of our Nation's borders.

Border Patrol has a highly proactive recruitment and hiring program, 
and has taken aggressive steps to deal with attrition. Limited training 
availability prohibits Patrol from attaining its hiring objectives. 
These uniformed agents are bilingual and possess a full range of law 
enforcement authority. All new Border Patrol agents attend a 19-week 
Basic Training Academy followed by a 24-week Post Academy training 
program during their first probationary year.

Border Patrol hiring needs were greatly magnified by an unprecedented 
increase in the number of agents leaving the Service in Fiscal Year 
2002. The FY 2003 Omnibus budget directed the hiring of an additional 
570 Agents, bringing our current authorized end strength to 11,121.
Staffing increases, coupled with other resource investments, should 
enable the Border Patrol to exercise reasonable control over a far 
greater amount of our land borders. The number of additional personnel 
needed to obtain the desired level of control over our land borders 
will be carefully evaluated over time by examining apprehension 
statistics and other trends and by continuing to look at ways that 
technology and other assets can serve as effective force-multipliers.

                        INSPECTORS AT THE BORDER

A February 2003 Department of Justice Inspector General audit found 
that terrorism awareness training provided to new INS inspectors was 
not sufficient to make them aware of current terrorist tactics used to 
enter the United States.

Question: 38. What is BCBP doing to improve the training of these 
front-line inspectors? (Turner)

BCBP Answer:
Since its creation on March 1, 2003, BCBP has expanded anti-terrorism 
training to all of its inspectors regardless of which legacy agency 
they came from.
    All BCBP Inspectors in the field received an interactive computer 
based training course titled ``Detecting Terrorist Weapons.'' This 
self-study course provides information concerning our present knowledge 
of terrorist and terrorist weapons. Additionally, the Office of Field 
Operations has mandated that daily muster meetings are conducted at 
each of the ports to inform all BCBP inspectors of the present 
terrorist threat and recent terrorist intelligence activity. These 
meetings are also used as a platform for discussing information 
relative to anti-terrorism.

Students in the Customs Basic Inspector Training Program (USCSI) 
receive an 8-hour course devoted entirely to anti-terrorism, followed 
throughout their 55 days at the Academy by practical applications of 
the knowledge they acquired during this course. A similar course has 
been added to the Immigration Officer Basic Training Course (IOBTC). In 
IOBTC, inspectors receive Terrorism Overview and Terrorist Strategies/
Tactics. Legacy Immigration Inspectors also receive training on the 
several grounds of inadmissibility found in the Immigration and 
Nationality Act relating to terrorism during the Immigration Law III/
Grounds of Inadmissibility course

As the legacy agencies have all been folded into BCBP, a new basic 
course of instruction is being developed and will become the curriculum 
for all BCBP officers in October 2003. The training program for the new 
Basic BCBP Inspector course will incorporate much of the curriculum of 
the former basic courses provided by legacy Customs, Agriculture and 
INS courses. Additionally, all officers will receive the same anti-
terrorism training incorporating both classroom and practical 
exercises. The knowledge and skills they receive will be reinforced 
throughout their basic training program.

The Advanced Anti-Terrorism Training program has been completely 
rewritten to incorporate information relative to terrorism learned 
since September 11, 2001. This course had been provided primarily to 
legacy-Customs Inspectors at the Academy and due to demands on 
facilities and instructors, limited to approximately 200 students per 
year. This course has recently been redesigned to enable it to be 
taught on-site at various port locations and these classes are now 
offered to BCBP officers nationwide. Additionally, legacy-INS officers 
are being scheduled to attend the Weapons of Mass destruction training 
provided monthly by the Department of Energy through an agreement with 
BCBP in Richland, Washington.

Question: 39. Has BCBP identified the shortcomings that are preventing 
the Inspectors from making the right decisions on who is a high-risk 
traveler? What new resources are being devoted to fix this problem? 
(Turner)

BCBP Answer:
ENFORCE
The Enforcement Case Tracking System (ENFORCE) is an integrated system 
that supports enforcement case processing and management functions of 
the legacy Immigration and Naturalization Service (INS) and stores data 
in a single data structure. The Enforcement Apprehension Booking Module 
(EABM) is currently being modified to include immigration adverse 
action processing capabilities.

ENFORCE will support all enforcement processes and make enforcement 
data available at all levels of the Department of Homeland Security 
nationwide. ENFORCE will capture data on individuals, entities, and 
investigative cases, and support case processing from apprehension/
inception through final completion. ENFORCE will be used to support 
field personnel by producing required forms and reports. Finally, 
ENFORCE will provide intelligence and management information to support 
decision-makers.

IDENT/IAFIS
The Automated Biometric Identification System and the Integrated 
Automated Fingerprint Identification System (IDENT/IAFIS) program was 
established to integrate the legacy INS IDENT database with the Federal 
Bureau of Investigation's (FBI) Criminal Master File known as IAFIS. 
These systems have been integrated into one system called IDENT/IAFIS. 
IDENT checks the subject's prints against a recidivist database of 
aliens who have previously been encountered by legacy INS and then 
queried IAFIS. IAFIS houses more than 48 million criminal records. Both 
of these systems are accessed through ENFORCE.

Continued deployment of IDENT/IAFIS to all major air, land and sea POEs 
will assist BCBP in identifying illegal aliens, criminals and 
terrorists who may attempt entry making this a nationwide dedicated 
program.

APIS
Advance Passenger Information System (APIS) is the means by which 
electronic passenger and crew manifests are submitted to BCBP by 
carrier organizations. These manifests are then queried against lookout 
databases prior to the passenger's arrival. This allows BCBP passenger 
analysis units at Ports of Entry and the BCBP National Targeting Center 
to identify persons of interest prior to arrival. This includes the 
identification of possible terrorists (through TIPOFF) and visa 
revocation subjects. When identified in advance, measures such as: 1-
day lookouts, planeside meets and escorts can be arranged to ensure the 
appropriate inspection of such persons. APIS also allows the BCBP to 
meet various statutory mandates for electronic submission of manifests.
NCIC III
This system allows BCBP Inspectors to access criminal history data 
during primary inspection. Prior to NCIC III, BCBP Inspectors were 
alerted only to active wants and warrants for criminals. NCIC III 
provides the additional element of criminal history. This gives BCBP 
more information to determine the admissibility of past criminal 
violators. Many (but not all) criminal convictions can render an alien 
inadmissible to the United States. NCIC III allows the BCBP to better 
protect the United States from the entry of inadmissible aliens. The 
same audit concluded that the INS lookout system does not always 
provide Inspectors with information such as lookouts for aggravated 
felons of individuals who have used stolen passports. The audit also 
found that there is a problem with transmitting classified information 
to the Ports of Entry.

Question: 40. Has BCBP inherited the same lookout systems from the INS? 
Are the same systems being used today? What is BCBP doing to improve 
the transmission of classified information, which characterizes much of 
the critical intelligence on terrorism? (Turner)

BCBP Answer:
BCBP continues to utilize legacy INS lookout systems in place prior to 
the consolidation of INS and USCS under BCBP. These systems include the 
Integrated Border Inspection System (IBIS), the Enforcement Case 
Tracking (ENFORCE) System, the Portable Automated Lookout System 
(PALS), and the National Automated Immigration Lookout System (NAILS).
The same automated interface between the legacy INS lookout system 
(NAILS) and the IBIS/TECS that existed prior to March 1, 2003 still 
exists today. NAILS and IBIS/TECS have long had an electronic 
interface. In addition, IBIS/TECS has been (prior to March 1) and 
remains the system through which all Port of Entry (POE) Inspectors run 
queries on travelers.
Currently, the U.S. Visit Team is working to increase communication 
between BCBP, and the Department of Justice where the legacy INS 
systems are located. BCBP is in the process of establishing a 24X7 
redundancy for the Treasury Enforcement Communication System (TECS/
IBIS) to eliminate situations where passengers must be processed when 
TECS is down.
BCBP's Office of Field Operations plans to construct a Sensitive 
Compartmented Information Facility (SCIF) at the National Targeting 
Center (NTC) which will allow BCBP to receive classified intelligence 
related to anti-terrorism and to disseminate such information to field 
personnel responsible for allocating personnel, facilities, and 
equipment necessary for responding to an identified threat.
BCBP's Office of Intelligence has been working on a new classified 
system, ``Homeland Secure Data Network'', that will upgrade the present 
classified system used to disseminate classified intelligence to BCBP 
field offices. This new system is designed to be user friendly and can 
handle classified information at the TS code word level. This system 
has been briefed to DHS and will service both BCBP and ICE.
A January 2003 report of a GAO Special Investigation revealed that 
Agents were able to enter the United States from Mexico, Canada, 
Jamaica and Barbados using fictitious driver's licenses and birth 
certificates from off-the-shelf computer software. BCBP staff never 
questioned the authenticity of the counterfeit documents. On two 
occasions, BCBP staff did not ask for any identification when the GSA 
Agents entered the United States from Mexico and Canada. One GSA Agent 
was able to walk across the border with Canada through a park without 
being detected by BCBP or Canadian authorities.

Question: 41. What is BCBP's position on whether a policy change is 
necessary on the identification required for United States citizens 
entering the United States from the Western Hemisphere? (Turner)
Presently, federal regulation exempts certain persons, such as U.S. 
citizens, from presenting a passport when arriving into the U.S. from 
most countries in the Western Hemisphere. Inspectors can allow a person 
to enter based upon only an oral claim of citizenship. Inspectors 
intercept thousands of aliens each year who falsely claim to be a U.S. 
citizen in order to unlawfully enter the United States.
Certainly, elimination of the Western Hemisphere and Canadian 
exemptions and introduction of a universal requirement that 
international travelers present a passport or other Federally-issued 
document would assist in combating imposture and false claims to U.S. 
citizenship. Passport applicants are checked against national watch 
lists before a passport is issued. Requiring a passport could 
potentially speed up the inspection time for the same reasons that 
NEXUS would. It is clear that these issues have significant legal, 
operational, domestic policy, and foreign policy implications, all of 
which must be analyzed and carefully weighed before a final 
recommendation and policy decision can be made.

Question: 42. What training is provided to BCBP Inspectors to recognize 
counterfeit documents? (Turner)

BCBP Answer:
Training for current employed inspectors to address `one face at the 
border' has begun through development of incumbent training focused on 
a systematic process of examination to detect altered, counterfeit, or 
fantasy documents and methods for detecting if an impostor is 
presenting another's genuine documents. Shared services with the 
Forensic Document Laboratory at BICE for continued document examination 
training will also be identified. In the field, individual districts or 
ports of entry conduct training when new policies, procedures or 
mandates arise.
Training pertaining to counterfeit documents is provided during the 
BCBP Academy's Basic Inspector Training program and continues when the 
inspector reports to his duty station in the form of On-the-Job (OJT) 
training, as well as follow-up advanced training for inspectors who 
specialize in processing passengers.
Legacy-Customs Inspectors: As part of the cross-training provided to 
legacy-Customs Inspectors, the legacy-Immigration Officer Academy 
provides four hours of Document Examination training. This training 
covers impostors, U.S. passports and Permanent Resident Cards. In 
addition to the four hours, the BCBP Academy's Basic Inspector 
curriculum for legacy-Customs Inspectors includes practical exercises, 
labs and final examinations where students have hands-on opportunities 
to apply what they learned in document examination training.
Legacy-INS Inspectors: Legacy-INS Inspectors receive18 hours of 
Document Examination instruction. Their course covers Counterfeiting, 
General Passport Examination, U.S. Passport Examination, U.S. Visa 
Examination, ADIT and ICPS Documents, Reentry Permits, Refugee Travel 
Documents, Employment Authorization Documents, and Review. The 
inspector trainee must pass an examination on these subjects or be 
removed from training.
New BCBP Inspectors: Beginning in October 2003, under the new BCBP 
Basic Inspector Course, trainees will receive 14 hours of Document 
Examination training. The training these inspectors will receive will 
cover those documents that can be seen during primary inspections. The 
course will be similar in structure to what is currently taught to the 
legacy-INS Inspectors and is an integral component of the new 
curriculum for all BCBP Inspectors
The new curriculum that will be taught to all BCBP Inspectors beginning 
October 2003 will include the following:

Interviewing                                                     2 Hours
Analyzing Documents                                              2 Hours
Interviewing Laboratory                                          8 Hours
Interviewing Lessons Learned Briefing                            2 Hours
Document Examination                                            14 Hours
Passenger Processing Lab                                         4 Hours
Passenger processing Final Practical Exercise                    4 Hours
                                                            ------------
    Total                                                       36 Hours


All legacy-Customs Inspectors reporting to a land border port of entry 
have in the past, been provided with additional classroom and OJT 
training in document analysis and fraudulent documents as part of their 
certification for cross designation. Legacy-Customs Inspectors assigned 
to passenger processing roving inspection functions at land borders, 
airports, and seaports also receive additional training in analyzing 
travel documents and interviewing techniques as part of the curriculum 
in the following advanced courses: Passenger Interview and Vehicle 
Inspection Training (PIVIT), Passenger Enforcement Rover Training 
(PERT) and Sea Passenger Analysis Training, (SEAPAT).
US VISIT
The US--VISIT system is supposed to be implemented by the end of the 
year. The SEVIS system is supposed to be operational by August. BCBP 
Inspectors will use both of these systems.

Question: 43. Will the Inspectors be ready to use these systems 
effectively by these deadlines? Have the Inspectors been training on 
them? Does BCBP have any recommendations on the implementation of these 
systems, either in timeline or suggestions to improve the system? Given 
the well-publicized technical problems with SEVIS, what assurances can 
BCBP give that US VISIT will not suffer from the same? (Turner)

BCBP Answer:
BCBP Inspectors will be ready for their role in the implementation of 
the US--VISIT systems by the December 31st deadline. BCBP is working 
very closely with the US--VISIT office in developing the training, and 
implementation facets of the US--VISIT system. The US--VISIT office and 
their information technology-working group have been working on 
resolving potential technical problems when the system is implemented.

Question: 44. In prior testimony before the House Appropriations 
Homeland Security Subcommittee, Commissioner Bonner testified that US 
Visit is in the FY 2004 budget request for BCBP, but there is no 
programmatic control. If you do not have control over the program, why 
is it in your budget? (Sanchez)

BCBP Answer:
At the time that the FY 2004 budget was being finalized, the Department 
of Homeland Security and BCBP was just beginning to take shape. 
Initially, it was believed that the US Visit program would be 
coordinated through BCBP. Subsequent discussions have placed 
accountability and ownership of the US Visit program within the Border 
and Transportation Directorate. At a minimum, the program was carried 
within the FY 2004 Customs and Border Protection budget as a 
placeholder, until the details of ownership became clearer.

Question: 45. The US--VISIT system is supposed to be implemented by the 
end of the year, and the SEVIS system is supposed to be operational by 
August. Your Immigration Inspectors will use both of these systems. 
Will they be ready to use these systems effectively by these deadlines? 
Have they been training on them? Do you have any recommendations on the 
implementation of these systems, either in timeline or suggestions to 
improve the system? Given the well-publicized technical problems with 
SEVIS, what assurances can you give that US VISIT will not suffer from 
the same technical problems? (Sanchez)

BCBP Answer:
    BCBP Inspectors will be ready for their role in the implementation 
of the US--VISIT systems by the December 31st deadline. BCBP is working 
very closely with the US-VISIT office in developing the training, and 
implementation facets of the US-VISIT system. The US-VISIT office and 
their information technology-working group have been working on 
resolving potential technical problems when the system is implemented.
Personnel
46. Please provide a list of staffing levels at ports and border points 
of entry from 2001, 2002, and to date. (Sanchez)

                Bureau of Customs and Border Protection

                       Office of Field Operations

                          As of June 16, 2003

                  Inspectional Staff for All Locations

                                                FY01     FY02    Current

Customs.....................................    8,184    9,008     9,488
------------------------------------------------------------------------
Immigration.................................    4,717    5,422     6,080
------------------------------------------------------------------------
Agriculture.................................      * 0      * 0     1,575
------------------------------------------------------------------------
  Totals....................................   12,901   14,430    17,143
                                             ===========================


*  indicates that historical totals are unavailable


                 Inspectional Staff for Northern Border

                                                 FY01    FY02    Current

Customs.......................................   1,027   1,405     1,459
------------------------------------------------------------------------
Immigration...................................     523     625       920
------------------------------------------------------------------------
Agriculture...................................      65      84       147
------------------------------------------------------------------------
  Totals......................................   1,615   2,114     2,526
                                               =========================



                 Inspectional Staff for Southern Border

                                                 FY01    FY02    Current

Customs.......................................   2,617   2,566     2,640
------------------------------------------------------------------------
Immigration...................................   1,372   1,542     1,666
------------------------------------------------------------------------
Agriculture...................................     382     367       236
------------------------------------------------------------------------
    Totals....................................   4,371   4,475     4,542
                                               =========================



Question: 47. Please address the fact that at our nation's busiest 
port, the port of Long Beach/Los Angeles, one of our nation's busiest 
ports, there have been minimal increases in staffing levels since 2001? 
(Sanchez)

              Inspectional Staff at Long Beach/Los Angeles

                                                 FY01    FY02    Current

Customs.......................................     487     499       603
------------------------------------------------------------------------
Immigration...................................     295     316       374
------------------------------------------------------------------------
Agriculture...................................     * 0     * 0       143
------------------------------------------------------------------------
    Totals....................................     782     815     1,120
                                               =========================


        * indicates that historical totals are unavailable

Between FY 2001 and the present, on-board staffing at the LB/LA port 
has increased. During that time, Congress passed and the President 
signed into law both the Emergency Supplemental of FY 2002 and the FY 
2003 Annual Appropriations Bill, which together included 51 positions 
for deployment to the Long Beach/Los Angeles (LB/LA) Port. More 
recently, the Wartime Supplemental of FY 2003 was passed and signed 
into law. It includes more positions for the LB/LA Port. The Department 
is currently reviewing the spending plan that Congress has required 
prior to the deployment of these positions.
Question:48. Does your fiscal 2004 budget request take staffing 
deficiencies into account? (Sanchez)

BCBP Answer:
Yes, staffing deficiencies are taken into account. One of the factors 
that Administration budget officials take into consideration when 
formulating an annual appropriations request is a staffing shortfall, 
but it is not the only factor. Another factor to consider when 
formulating a budget request is the existing threat level at the 
various Ports of Entry. Increased levels of threat must be evaluated 
and prioritized in comparison to staffing shortfalls and the resources 
available when formulating a budget request. The Federal budget process 
is a highly deliberative process that requires Administration officials 
to take account of the finite resources available within the Department 
of Homeland Security (DHS) and the Bureau of Customs and Border 
Protection (BCBP) in making their recommendations. More importantly, 
BCBP and DHS officials increasingly consider how the Bureau can work 
``smarter'' by employing new technologies and novel approaches that 
accomplish the Bureau's mission and conserve resources.

In recent years, labor saving technologies and novel strategies and 
approaches have allowed BCBP to accomplish its mission despite 
relatively static staffing levels. Technology that acts as a force 
multiplier, such as Non-Intrusive Inspection (NII) Equipment, is 
initially very costly to procure and implement, but allows BCBP to more 
efficiently accomplish its mission with fewer staff than would 
otherwise be necessary once the equipment is operational. Automated 
Targeting Systems (ATS) help BCBP to effectively manage an ever-
increasing workload while accomplishing the Bureau's mission in a 
relatively static staffing environment. BCBP's objective is to inspect 
100 percent of the high-risk cargo and passengers entering the country. 
The rule based software that is the essence of ATS allows BCBP 
personnel to focus their efforts on the relatively small percentage of 
commerce that exposes the American public to a high risk and allows the 
passage of the vase amount of law abiding commerce that contains little 
or no risk.

Other methods that BCBP uses to manage risk and accomplish its mission 
while minimizing the impact on its staffing levels are its industry 
partnership programs, such as Free and Secure Trade (FAST) and the 
Customs-Trade Partnership Against Terrorism. These programs enlist the 
support of private industry in securing their shipping supply chains 
against unwarranted tampering. The Container Security Initiative (CSI) 
will not add staff to domestic ports, but will provide greater levels 
of security to this country by adding staff and technology at foreign 
ports. This additional layer of inspection at foreign ports will help 
alert BCBP officials to any ``high-risk'' shipments before they reach 
this country. As a result, domestically based inspectional personnel 
can focus their energies on the high-risk commerce to which this 
country is already exposed and expedite the flow of the legitimate 
commerce.
In recent testimony before the House Appropriations Subcommittee, 
Commissioner Bonner was asked about the high rate of turnover both 
among the Border Patrol and INS Inspectors, and he pledged to do 
everything possible to address the problem.

Question: 49. What specific actions is BCBP taking to improve the high 
turnover rates among these employees? (Turner)

BCBP Answer:
BCBP continues to monitor turnover of employees and plans various 
recruitment efforts throughout the year to ensure the pipeline of 
qualified candidates is adequate to fill positions that become vacant 
during the fiscal year. Field Offices are encouraged to plan for 
attrition and authorized to begin filling proposed vacant positions at 
the beginning of the fiscal year. This also assists in decreasing the 
gap between the separation date of an employee and the enter-on-duty 
date of a replacement.

Border Patrol has taken aggressive steps to deal with attrition of 
Border Patrol Agents, in response to FY02's record attrition (18 
percent). First and foremost, Border Patrol was successful in 
coordinating efforts to raise the journeyman level from GS-9 to a GS-
11. Headquarters Border Patrol recently convened a retention focus 
group made up of field representatives. Several key recommendations 
from the group have been implemented in the field and will serve to 
enhance future retention. The Border Patrol is continuing efforts to 
develop a career path program for Border Patrol Agents, and is in the 
process of developing a Leadership Assessment program for Border Patrol 
Agents who are considering a management position.

In the area of recruitment, Border Patrol is implementing more 
strategic recruiting practices, and refining the recruitment process, 
focusing recruitment efforts on targeting and attracting applicants who 
would like to make the Border Patrol a career choice. These efforts 
have begun to pay dividends. For example, the current FY 03-attrition 
rate has dropped to 10.4 percent.

Question: 50. Will these Inspectors continue to work in the areas of 
their expertise, or will they be expected to learn all of these jobs? 
How does BCBP plan to make sure expertise is not lost?

BCBP Answer:
Inspectors from all disciplines are currently working side-by-side, 
applying their own expertise while becoming familiar with new aspects 
of the job. The intention is to have ``one face at the border'' 
carrying out all inspectional responsibilities at the ports of entry. 
To that end, cross training has begun at several of the largest ports 
in order to unify some aspects of operations by October 1. New hires 
beginning their basic training on or after October 1 will be schooled 
in all BCBP procedures, policies, laws and regulations, across the 
legacy disciplines. Formal cross-training for all current officers from 
legacy Customs, Immigration, and Agriculture will be rolled out in 
early 2004.

Question: 51. What Specific labor issues pose an impediment to CBP in 
fulfilling its mission?

BCBP Answer:
BCBP is continuing to meet its statutory obligations to notify and 
negotiate with the multiple unions representing employees within the 
newly formed BCBP structure. Although, it has been extremely 
challenging to maintain the different and sometime conflicting policies 
and labor agreements (such as those related to the assignment of 
personnel and scheduling of employees for their duties, which include 
counter-terrorism), BCBP continues to fulfill its mission.

Question: 52. Richard Stana of the GAO testified during the hearing 
that GAO has found that inspectors report a lack of training, and a 
heavy workload that would preclude training even if it were offered. 
Please describe the training offered to BCBP Inspectors, the subjects 
covered duration of training programs, and frequency of training. 
(Turner)

BCBP Answer:
All legacy-Customs Inspectors are required to attend and successfully 
complete the Basic Inspector Training Program at the Bureau of Customs 
and Border Protection (BCBP) Academy when they enter the positions. The 
curriculum includes 55 days of intensive training in firearms, officer 
safety and arrest techniques, U.S. Customs law, Immigration law and 
processing, passenger and trade processing, anti-terrorism, BCBP 
authority, interviewing techniques, document analysis and fraudulent 
document detection and the skills necessary to utilize the BCBP 
automated systems. The current BCBP Basic Inspector curriculum 
includes:

Customs Law................................................     22 Hours
Anti-Terrorism.............................................     12 Hours
Passenger Processing.......................................     24 Hours
Immigration Cross training.................................     24 Hours
Document Analysis..........................................     20 Hours
Firearms...................................................     48 Hours
Physical Techniques & Officer Survival.....................     73 Hours
Automated Systems..........................................     32 Hours
Trade Processing...........................................     24 Hours
Passenger processing.......................................     32 Hours
Comprehensive Examination..................................     16 Hours
Other instructional topics (integrity, EEO, etc)...........     71 Hours
Administrative topics (uniform issue, etc.)................     12 Hours
                                                            ------------
    Total Hours:...........................................    440 Hours
    Total days:............................................      55 Days


All legacy-Immigration Inspectors are required to attend and 
successfully complete the Immigration Officer Basic Training Course 
(IOBTC). That curriculum is 59 days in length with an additional 25 
days of Spanish Language Training for those Inspectors who are unable 
to demonstrate a minimum level of oral Spanish proficiency. The current 
IOBTC curriculum includes:

Nationality Law............................................     24 Hours
Immigration Law............................................     80 Hours
Operations Training........................................     24 Hours
Inspections Field Training.................................     34 Hours
Automated Data Processing (including IDENT)................     16 Hours
U.S. Customs Cross Training................................     24 Hours
Document Examination.......................................     18 Hours
INS Collapsible Steel Baton and INS OC Spray...............     16 Hours
Physical Techniques........................................     46 Hours
Miscellaneous INS instruction and Practical Exercises......     42 Hours
Firearms...................................................     44 Hours
Other instructional topics (integrity, EEO, etc)...........     84 Hours
Administrative topics (uniform issue, etc.)................     20 Hours
                                                            ------------
    Total hours:...........................................    472 hours
    Total days:............................................      59 days


The new BCBP Basic Inspector Training Program that will begin October 
1, 2003 is being designed to merge the existing curriculums of the 
legacy INS, Customs and Agriculture inspector basic courses. This new 
integrated course will include additional Customs, Immigration and 
Agriculture related curriculum to provide the training necessary to 
prepare the BCBP Inspector to function in their integrated role. The 
course length will be increased from 55 to 71 days.
In addition to the basic training provided, multiple advanced training 
opportunities are conducted at the Academy or at field locations 
nationwide. These courses include:

----------------------------------------------------------------------------------------------------------------
                TRAINING PROGRAM                 HOURS                      BRIEF DESCRIPTION
----------------------------------------------------------------------------------------------------------------
Air Automated Manifest System                      24      Delivered at the Academy. Provides training needed to
                                                          enable the student to review, target and process cargo
                                                                    arriving by air through an automated system.
----------------------------------------------------------------------------------------------------------------
Advanced Anti-Terrorism                            24     Delivered at the Academy--Provides training in current
                                                        terrorist threat, Al Qaida Training Manual, Chemical and
                                                               Biological weapons, bombs and explosives, and the
                                                                         workings of an incident command center.
----------------------------------------------------------------------------------------------------------------
Consolidated Advanced Terrorism                    16    Delivered on-site at the inspector's port. Contains all
                                                              of the advanced Anti-Terrorism Training accept the
                                                                practical exercises at the bomb/explosive range.
----------------------------------------------------------------------------------------------------------------
Automated Export and Automated Targeting System    24      Delivered at the Academy providing inspectors who are
                                                          primarily involved with enforcing export laws training
                                                                in the automated export system and how to target
                                                                                      shipments for examination.
----------------------------------------------------------------------------------------------------------------
Bonded Warehouse                                   24      Delivered at the Academy and provides training on the
                                                            Customs oversight and regulation of bonded warehouse
                                                                                                     operations.
----------------------------------------------------------------------------------------------------------------
Carrier Post Audit                                 24    Delivered at the Academy and provides training to those
                                                          inspectors assigned to monitor carrier compliance with
                                                                        manifest liquidation and cargo custodial
                                                                                               responsibilities.
----------------------------------------------------------------------------------------------------------------
Confined Spaces                                    24       Delivered at field locations and provides inspectors
                                                           with the skills necessary to ensure safe examinations
                                                               and searches of conveyances with confined spaces.
                                                             Inspector is trained to ensure the space is safe to
                                                                              enter prior to beginning a search.
----------------------------------------------------------------------------------------------------------------
Cargo Security Initiative                          80       Delivered at field locations and provides inspectors
                                                          preparing for an assignment at one of several overseas
                                                        post of duty where they will target containers suspected
                                                             of containing weapons of mass destruction, or other
                                                          terrorist weapons for examination prior to being laden
                                                                               on vessels for the United States.
----------------------------------------------------------------------------------------------------------------
Foreign Trade Zone                                 24       Delivered at the Academy and provides inspectors the
                                                            knowledge necessary to enforce Customs custodial and
                                                            regulatory responsibilities concerning Foreign Trade
                                                                                                          Zones.
----------------------------------------------------------------------------------------------------------------
Hazardous Materials                                40      Delivered at the Academy and provides first responder
                                                                      training for Hazardous materials Handling.
----------------------------------------------------------------------------------------------------------------
Land Border Interdiction                           40             Delivered at Hidalgo/Pharr, Texas and provides
                                                           inspectors with hands on training in inspecting cargo
                                                                           conveyances arriving at land borders.
----------------------------------------------------------------------------------------------------------------
National Airport CET                               64      Delivered at Miami International Airport and provides
                                                          inspectors with hands on training in inspecting cargo,
                                                             aircraft and conveyances at international airports.
----------------------------------------------------------------------------------------------------------------
National Contraband Enforcement                    64    Delivered at the Miami Seaport and provides training in
                                                             the examination of vessels, cargo and containers at
                                                                                                       seaports.
----------------------------------------------------------------------------------------------------------------
Outbound/Exodus                                    24          Delivered at the Academy and provides training to
                                                            inspectors assigned to export enforcement to protect
                                                             against the unlicensed or authorized export of high
                                                                    technology, weapons or monetary instruments.
----------------------------------------------------------------------------------------------------------------
Outbound Currency Interdiction                     48          Delivered at JFK Airport and provides training to
                                                                inspectors in targeting and detecting unreported
                                                                 currency transported by departing international
                                                                                                      travelers.
----------------------------------------------------------------------------------------------------------------
Passenger Analysis Unit                            40      Delivered at field locations and provides training to
                                                           inspectors assigned to targeting arriving air and sea
                                                                     passengers based on information transmitted
                                                        electronically by the airlines and cruise ships prior to
                                                                             their arrival in the United States.
----------------------------------------------------------------------------------------------------------------
Passenger Enforcement Rover                        48      Delivered at Miami International and JFK Airports and
                                                                 provides inspectors assigned to passenger rover
                                                            operations with the skills necessary to identify and
                                                                  target passengers smuggling contraband through
                                                                                         international airports.
----------------------------------------------------------------------------------------------------------------
Seaport Outbound                                   48   Delivered at Newark Seaport and provides inspectors with
                                                         the skills necessary to target outbound cargo shipments
                                                                that may contain unreported currency or monetary
                                                                                                    instruments.
----------------------------------------------------------------------------------------------------------------
Sea Passenger Analysis Team                        64         Delivered at Miami Seaport and provides the skills
                                                             necessary to perform advanced targeting of arriving
                                                         cruise ship passengers and to perform the interception,
                                                              interview and examination of those passengers upon
                                                                                                        arrival.
----------------------------------------------------------------------------------------------------------------
Vehicle Auto Theft Outbound                        24    Provides inspectors with the skills necessary to target
                                                             and examine vehicles being exported from the United
                                                                                      States that may be stolen.
----------------------------------------------------------------------------------------------------------------

Finally, BCBP Inspectors also receive training from their Field 
Training Officers concerning changes in policy and procedures such as 
initial and refresher training for conducting personal searches within 
BCBP policy, professionalism, interpersonal communications and 
diversity.

SARS
In testimony before the House Appropriations Subcommittee on Homeland 
Security, Commissioner Bonner testified that he has the power to detain 
people displaying the symptoms of SARS.

Question: 53. What are the sources of that authority? How long can BCBP 
detain these travelers? When would the travelers be released? (Turner)

BCBP Answer:
    BCBP's authority to detain individuals displaying symptoms of SARS 
is found in 42 U.S.C Sec. 264, 42 U.S.C. Sec. 265, 42 U.S.C. Sec. 268, 
and 8 U.S.C. Sec. 1182 (a)(1)(A)(i).
BCBP may detain a traveler displaying symptoms of SARS for a period of 
time until further determination by Public Heath or the Centers for 
Disease Control (CDC) can be made. Under 42 U.S.C. Sec. 268 , it shall 
be the duty of the Customs officers and of Coast Guard officers to aid 
in the enforcement of quarantine rules and regulations. Under 8 U.S.C. 
Sec. 1182 (a)(1)(A)(i) any alien determined to have ``a communicable 
disease of public health significance'' can be denied entry into the 
United States.
The traveler would be released once a Public Health, CDC, or medical 
official has determined that the individual does not have SARS or any 
other communicable disease. Release of a traveler by Public Health, CDC 
or a medical official, in the case of an alien, does not guarantee 
entry in the U.S. All immigration criteria must be met.
The roughly 30,000 employees in BCBP are currently represented by six 
labor unions. After meeting with union representatives recently, 
Commissioner Bonner's Chief of Staff was quoted as saying that 
collective bargaining agreements will not compromise BCBP's ability to 
carry out its mission.

Question: 54. What training has been provided to BCBP Inspectors to be 
able to spot a traveler with SARS? (Turner)

BCBP Answer:
BCBP Inspectors do not receive formal training from Public Health or 
the CDC because BCBP Inspectors are not medical officers, nor do BCBP 
Inspectors make determinations on whether a traveler has a communicable 
disease such as SARS. BCBP Inspectors utilize guidance distributed by 
Public Health, CDC, and/or the World Health Organization to look for 
possible signs a traveler exhibiting the symptoms of a communicable 
disease. Based on guidance, responses to questions asked of the 
traveler, and other factors, BCBP Inspectors might detain a traveler 
until further determination by a medical officer can be made.
Everyone has experienced the new procedures, delays, and red tape 
associated with moving things or people across the border. We 
simultaneously appreciate the need and feel impatience. Although 
technology is not a panacea, it should make inspections faster and ease 
delays.

Question: 55. Has BCBP submitted anything beyond the Administration's 
2004 budget request for DHS? Are any justification material available 
regarding the FY 2004 budget beyond the basic justification book? If 
so, please submit them as soon as possible to the Select Committee. 
(Turner)

BCBP Answer:
No. The FY 2004 budget request submitted as part of the President's 
budget submission traditionally serves as the primary vehicle and tool 
in which to justify budget requests for Congress and the President. 
Prior to this document and as part of standard development procedures, 
each legacy BCBP organization submitted its budget requests through 
their normal channels. The requests that made it through those 
processes were consolidated into a unified BCBP request once the 
Department of Homeland Security was implemented. This document served 
as the BCBP FY 2004 request for Congress and the President.
Other than Questions for the Record, no other justification material is 
available at this time. If the Subcommittee has specific questions, 
BCBP will work to address these as needed.

Question: 56. Does the Administration's FY 2004 request adequately fund 
gaps in manpower at our nation's borders? Is the request consistent 
with optimum staffing levels for the border? (Turner)

BCBP Answer:
The United States has almost two thousand miles of border along Mexico 
and over five thousand five hundred miles of border with Canada. Any 
increase in staffing on the Northern or Southwest borders, or in other 
locations with a potential for terrorist activity, would provide 
additional border security and law enforcement effectiveness. 
Evaluation of optimum levels and gaps in manpower is considered an 
ongoing process. As areas for improvement are identified, the optimum 
levels may fluctuate. In addition, as the consolidation of BCBP 
continues to evolve and take shape, potential optimum staffing levels 
will inevitably become clearer as well. As the agency matures and the 
positions and technology provided in the FY 2004 budget are deployed, 
BCBP will continue to assess any gap between existing resources and 
optimal staffing.

Question: 57. What is the Bureau of Customs and Border Protection 
(BCBP) doing to cure the fundamental weaknesses found by the General 
Accounting Office (GAO)?

BCBP Answer:
The following highlights the actions taken by BCBP in response to the 
four recommendations in the GAO's February 2003 report Customs Service 
Modernization: Automated Commercial Environment Progressing, But 
Further Acquisition Management Improvements Needed. The BCBP response 
to these and other recommendations that the GAO currently classifies as 
open were reported to Congress in the June 15, 2003, ACE Report to 
Congress.
GAO Recommendation: Immediately develop and implement a Customs and 
Border Protection Modernization Office (CBPMO) Human Capital Management 
Plan (HCMP), develop and implement missing HCM practices, and report 
quarterly on progress.
In ongoing efforts to implement the Modernization Strategic HCMP 
approved by the Assistant Commissioner, OIT, in October 2002, the CBPMO 
has focused on (1) core and job-specific competencies, (2) filling key 
permanent positions with experienced staff members, (3) training, and 
(4) refining the work plan to implement the HCMP. The CBPMO has defined 
its core and job-specific competencies and is using them to help define 
learning and development needs for existing employees, and to recruit 
and select new employees.
Other HCM initiatives include:
        <bullet> Completed assignment of a:
                - Program Control Team Lead who has primary 
                responsibility for oversight of the CBPMO program 
                management and technical support contracts.
                - HCM and Training Team Lead from OIT's Resource 
                Management Group who regularly participates in CBPMO 
                human capital activities and serves as a liaison to 
                HRM.
                - Contractor who is focusing on human capital planning 
                and management and has key responsibilities in 
                continuing to implement the HCMP.
        <bullet> Development of a Manager's Orientation Toolkit and new 
        employee sponsorship as part of a comprehensive orientation 
        program designed to provide new CBPMO employees with a sense of 
        direction, purpose, and commitment.
        <bullet> Conducting a training needs assessment and developing 
        the FY04 Training Plan.
        <bullet> Contracting for an OIT human capital capability 
        assessment.
GAO Recommendation: Develop and implement process controls for Software 
Acquisition Capability Maturity Model (SA-CMM) Level 2 Key Process 
Areas (KPAs) and Level 3 Acquisition Risk Management KPA; develop and 
implement missing SA-CMM practices and report quarterly on progress.
    Achieving SA-CMM Level 2 process maturity has been identified by 
the GAO as a critical success factor for the ACE project. A key element 
of the assessment is to assess the software acquisition practices 
associated with the transition of initial ACE capabilities to the 
operations and maintenance environment, which is scheduled for 
September 2003. The formal assessment, including the associated SA-CMM 
transition practices, will be scheduled once initial ACE capabilities 
become operational.
To gauge its progress on implementing the processes and procedures that 
are currently in place, the CBPMO contracted with the Software 
Engineering Institute (SEI) for a non-rated assessment in May 2003. The 
assessors reviewed more than 700 documents and interviewed 13 key CBPMO 
personnel. In their post assessment briefing, the assessors identified 
104 findings--84 strengths, four alternative practices considered as 
strengths, and 16 weaknesses (there were two practices in the 
Transition to Support process area that were not assessed). Two 
weaknesses were noted in the Level 3 Acquisition Risk Management KPA 
not required to achieve Level 2. An internal Process Improvement Action 
Report was developed after the assessment, and corrective actions are 
being taken to address these weaknesses. After the CBPMO receives the 
SEI Final Report in mid-July 2003, the CBPMO will formally review the 
findings and develop a Process Improvement Strategic Plan. The plan 
will focus on ensuring that the SEI findings are resolved in a timely 
manner in preparation for the formal assessment in fall 2003.
GAO Recommendation: Establish an Independent Verification and 
Validation (IV&V) function to assist the BCBP in overseeing systems 
integration contractor efforts, such as testing.
The CBPMO previously implemented a range of IV&V actions that conform 
to contemporary practices and have provided value in terms of reduced 
risks. The CBPMO Executive Director provided an updated status on IV&V 
to the BCBP's Modernization Executive Steering Committee during its 
June 2003 meeting.
In summary, the CBPMO:
        <bullet> Briefed the GAO on its Integrated IV&V (I2V2) 
        approach. As a result, the GAO representatives indicated they 
        had a better understanding of BCBP's approach.
        <bullet> Indicated that the MITRE Corporation, as BCBP's 
        Federally Funded Research and Development Center, is the lead 
        organization in conducting I\2\V\2\.
        <bullet> Assured the GAO representatives that MITRE has a 
        mechanism to take ACE project concerns outside of CBPMO 
        channels directly to the Assistant Commissioner, OIT.
        <bullet> Is finalizing the BCBP Modernization I\2\V\2\ 
        Strategic Plan, which is in the internal BCBP review process. 
        The CBPMO is currently developing the supporting IV&V 
        processes, with an anticipated completion by August 2003.
        GAO Recommendation: Take appropriate steps to have future ACE 
        expenditure plans specifically address proposals or plans to 
        extend or use ACE infrastructure to support other homeland 
        security applications.
        The BCBP acknowledges the requirement to include proposals or 
        plans to use the ACE for homeland security applications and 
        will include such information in future expenditure plans when 
        applicable.

Question: 58. Please describe for the Subcommittee what the new system 
will do, why it is important, what it will cost, and when it will be 
ready?

BCBP Answer:
The Automated Commercial Environment (ACE) will serve as the 
information technology platform for the Customs-Trade Partnership 
Against Terrorism and the Container Security Initiative, helping the 
Bureau of Customs and Border Protection (BCBP) achieve its twin mission 
of border security and trade facilitation. The BCBP currently uses the 
outdated Automated Commercial System (ACS) to process the huge number 
of shipments that cross our borders each year. The ACS has exceeded its 
life expectancy and simply will not meet long-term requirements driven 
by enforcement responsibilities, the growth in trade, and new 
legislative demands.
ACE will allow the U.S. Government to ``push out our borders'' and 
achieve worldwide visibility of the commercial supply chain. The 
information-sharing capabilities of ACE will also enhance border 
enforcement efforts. The earlier information is available in the supply 
chain, the better the opportunity BCBP and other agencies have to 
successfully target and intercept suspect shipments prior to reaching 
our borders.
ACE will support both BCBP and the trade community by processing 
imports and exports more efficiently and automating time-consuming and 
labor-intensive transactions. By creating a single Internet-accessed 
system, ACE will enable interactive communication and collaboration 
across BCBP, border agencies, and the trade community. ACE will also 
provide importers with national views of their activities, thereby 
helping them to improve their compliance. Implementation of ACE will 
create the following benefits for BCBP and the trade community:
        <bullet> Paperless e-filing
        <bullet> Consolidated statements and periodic payment
        <bullet> Reduced data entry
        <bullet> Streamlined automated manifests
        <bullet> National account management
        <bullet> Streamlined billing, collections, refunds, quota, and 
        duty filings.
The ACE project continues to make progress, and has completed training 
on initial ACE capabilities with selected BCBP users and the first 41 
trade accounts, and testing continues. In early September 2003, a 
decision will be made as to the operational readiness of the initial 
ACE capabilities. Users will have access to the ACE Secure Data Portal, 
which will provide a national view of an account's performance in all 
phases of its activities with BCBP. Examples include compliance issues 
relating to import or export transactions, compliance with rules and 
regulations, payment history, and an auditable record of the 
significant activities that occur between BCBP and a trade account. 
Also available will be Quick View Reports--summary reports available 
through the Harmonized Tariff Schedule about BCBP-related activities 
(i.e., Aggregated Entry Summary Compliance reports).
Generally, additional ACE functionality will be rolled out at six-month 
intervals. BCBP is currently reviewing a revised ACE program plan 
intended to solidify the sequencing of the capabilities that will be 
deployed. The ACE development costs are projected to be $2.0 billion, 
with development currently scheduled to be completed in March 2007.

Question: 59. What has been the effect of any new technology on the 
amount of time that it takes to import goods into the United States? 
(Camp)

BCBP Answer:
The transponder and proximity card technology used with FAST allows 
those qualified shipments to move more quickly across the border. On 
the Northern Border, when a C-TPAT importer, a C-TPAT carrier, and a 
FAST approved driver come together at a FAST lane, the shipment they 
are transporting is more quickly processed at the booth and less likely 
to be examined than shipments entered by unknown parties.
Non-Intrusive Inspection (NII) technology provides for a more effective 
and efficient, as well as less invasive, method of inspecting cargo, 
compared with drilling or dismantling of conveyances or merchandise. 
Large-scale NII equipment includes x-ray systems and gamma-ray imaging 
systems such as VACIS. In addition, radiation detection technology 
seamlessly screens cargo and containers for the presence of radiation.
These technologies are viewed as force multipliers that enable us to 
more quickly screen or examine a larger portion of the stream of 
commercial traffic while facilitating the flow of legitimate trade and 
cargo. NII technology greatly reduces the need for costly, time-
consuming physical inspection of cargo containers and provides us with 
a picture of what is inside containers and conveyances.

Question: 60. What has been the biggest challenge in getting new 
technology out to the inspectors at the ports around the country?

BCBP Answer:
While the introduction of new technology is always a challenge, there 
is no one major or biggest challenge. Our ports of entry and other BCBP 
locations have different configurations, widely different climates, 
various land and building owners, and a multitude of Federal, state, 
and local laws and regulations. Each of these items must be taken into 
consideration when deploying new technology, regardless of the type or 
size of the technology. We overcome these challenges with close and 
repeated coordination with port, state, and local officials; detailed 
site surveys for large installations; and training following 
installation or deployment of the technology

Question: 61. Congress passed legislation last year authorizing the 
Department of Homeland Security to require advanced manifests, but 
Congress created a structure in which the various importer and carrier 
interests would be involved. Specifically, Congress wanted the 
Department to accommodate the varying modes of transportation. For 
example, air express couriers and trucking companies often do not have 
any information on their cargo 24 hours before transporting them. What 
has the Department done to create an open rule-making process, and how 
has the carrier industry been accommodated? Are there any groups 
dissatisfied with the regulations developed to this point?
BCBP Answer:
To create an open rule-making process in developing the advance 
manifest proposed rules and to accommodate the carrier industry, BCBP 
held meetings with the trade community for each mode of transportation: 
air, truck, rail and sea. Meetings were held on:
        January 14, 2003--Air
        January 16, 2003--Truck
        January 21, 2003--Rail
        January 23, 2003--Sea
BCBP created strawman proposals and posted them to the official agency 
web site prior to the meetings as a starting point to stimulate 
dialogue. The proposals were issued for the purpose of generating 
discussion among the trade, explaining our current automated system 
capabilities, and exploring whether the loading of the conveyance 
should trigger the submission time for the cargo data.
Although these proposals were not well received by the trade community, 
they were very instrumental in generating feedback and due to the 
public meetings, BCBP received many comments before developing the 
proposed rules.
Additionally, as noted earlier, COAC created subgroups for each mode of 
transportation (air, truck, rail and sea) to provide comments and 
recommendations on how to implement the Act.
At this time, BCBP would like to believe that most trade groups should 
be pleased that BCBP listened to their comments, and in many cases 
adopted their recommendations. We believe that the NPRM reflects a 
careful effort to strike the appropriate balance between security and 
trade facilitation. While we suspect that some groups such as short-
haul air carriers may not be thoroughly pleased, it is too early in the 
process to be specifically aware of any particular groups dissatisfied 
with the proposed regulations.

Question: 62. Has BCBP done a comprehensive assessment of how many new 
Customs employees are needed to fulfill its new security mission since 
September 11th? (Sanchez)

BCBP Answer:
BCBP has received additional resources through regular appropriations, 
supplemental funding and an overall increase in our Inspector corps as 
a result of the March 1, 2003, transition to BCBP. On a continuous 
basis we are reviewing the need for resources. As new initiatives or 
technology are proposed we review our resource needs, and if 
appropriate, request additional resources through the budget process.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
